<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2013</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2013

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION
                                ________
    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                    FRANK R. WOLF, Virginia, Chairman
 JOHN ABNEY CULBERSON, Texas        CHAKA FATTAH, Pennsylvania
 ROBERT B. ADERHOLT, Alabama        ADAM B. SCHIFF, California
 JO BONNER, Alabama                 MICHAEL M. HONDA, California
 STEVE AUSTRIA, Ohio                JOSE E. SERRANO, New York
 TOM GRAVES, Georgia                
 KEVIN YODER, Kansas                
                                    

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Mike Ringler, Stephanie Myers, Leslie Albright,
                    Diana Simpson, and Colin Samples,
                           Subcommittee Staff
                                ________


                                 PART 7
                                                                   Page
 Office of Science and Technology Policy Budget Hearing...........    1
 National Aeronautics and Space Administration....................   75
 National Science Foundation......................................  171


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                ________

         Printed for the use of the Committee on Appropriations





  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2013

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION
                                ________
    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                    FRANK R. WOLF, Virginia, Chairman
 JOHN ABNEY CULBERSON, Texas        CHAKA FATTAH, Pennsylvania
 ROBERT B. ADERHOLT, Alabama        ADAM B. SCHIFF, California
 JO BONNER, Alabama                 MICHAEL M. HONDA, California
 STEVE AUSTRIA, Ohio                JOSE E. SERRANO, New York
 TOM GRAVES, Georgia                
 KEVIN YODER, Kansas                
                                    
                                    
                                    

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Mike Ringler, Stephanie Myers, Leslie Albright,
                    Diana Simpson, and Colin Samples,
                           Subcommittee Staff
                                ________
                                 PART 7
                                                                   Page
 Office of Science and Technology Policy Budget Hearing...........    1
 National Aeronautics and Space Administration....................   75
 National Science Foundation......................................  171


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 74-608                     WASHINGTON : 2012

                                  COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\         NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\           MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia               PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia                NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New Jersey   JOSE E. SERRANO, New York
 TOM LATHAM, Iowa                      ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama           JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri              JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                    ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho             DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas           MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida               LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana                SAM FARR, California
 JOHN R. CARTER, Texas                 JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana           CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California               STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                    SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio            BARBARA LEE, California
 TOM COLE, Oklahoma                    ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                   MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida            BETTY McCOLLUM, Minnesota
 CHARLES W. DENT, Pennsylvania         
 STEVE AUSTRIA, Ohio                   
 CYNTHIA M. LUMMIS, Wyoming            
 TOM GRAVES, Georgia                   
 KEVIN YODER, Kansas                   
 STEVE WOMACK, Arkansas                
 ALAN NUNNELEE, Mississippi            
   
 ----------
 \1\Chairman Emeritus    

               William B. Inglee, Clerk and Staff Director

                                  (ii)

 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2013

                              ----------                              

                                      Wednesday, February 29, 2012.

         OFFICE OF SCIENCE AND TECHNOLOGY POLICY BUDGET HEARING

                                WITNESS

HON. JOHN P. HOLDREN, DIRECTOR, OFFICE OF SCIENCE AND TECHNOLOGY POLICY

                      Mr. Wolf's Opening Statement

    Mr. Wolf. Let the hearing begin. I apologize for being 
late, we had a vote.
    Good afternoon, welcome to today's hearing on the fiscal 
year 2013 budget for the Office of Science and Technology 
Policy.
    Our witness is Dr. John Holdren, the director of OSTP, and 
I appreciate you being here.
    The topic of discussion today is OSTP's own budget request 
for fiscal year 2013 and the request for Federal research and 
development spending.
    I have been a long time supporter of Federal R&D programs 
and believe that our support for these programs needs to 
continue even in difficult fiscal times.
    This subcommittee demonstrated its commitment to that 
principle last year when we increased the NSF's funding by 2 
percent, and the NIST scientific and technical research 
services budget by 12 percent despite having an allocation that 
was substantially reduced bill-wide.
    The justification for this support is simple: scientific 
research is crucial for economic and national security. 
Scientific innovations being worked on through Federal funding 
today may turn into modern manufacturing jobs tomorrow.
    There is general support for Federal science programs on 
both sides of the aisle and in the Administration, and I hope 
we can capitalize on our shared support to once again produce a 
strong Federal science budget for fiscal year 2013.
    This doesn't mean however that we will necessarily agree on 
all of the details within the broader science policy area. As 
you know, I strongly disagree with the Administration's 
continuing push to strengthen our scientific cooperation with 
China, a country that does everything from using state-owned 
industry to crowd out American companies in economic sectors to 
making direct assaults on the national security apparatus 
through cyber infiltration.
    In fact, I was in Sudan last week in a refugee camp where 
the people were being killed with Chinese rockets that they 
were using against the civilian population.
    And just one recent example, the director of the Defense 
Intelligence Agency testified that China has now developed 
anti-satellite cyber warfare capabilities, and they are the 
guys at its national space program. That is the same national 
space program that this Administration wants NASA to be engaged 
with in joint activities and bilateral assistance.
    According to General Ron Burgess on February 16th, 
``China's ability to track and identify satellites is enhanced 
by technologies from China's space program.''
    General Burgess also reported, ``China has used its 
intelligence service to gather information via its significant 
network of agents and contacts using a variety of methods. The 
Chinese also utilize their intelligence collection to improve 
their economic standing and influence foreign policy. In recent 
years multiple cases of economic espionage and theft of dual 
use military technology have uncovered pervasive Chinese 
collection efforts.''
    Yet despite these direct warnings from the U.S. 
intelligence community about Chinese espionage and space 
technology, some in the Administration have advocated 
increasing collaboration and technology sharing with the 
Chinese government and People's Liberation Army, and you all 
know what their record is. The 2010 Nobel prize winner is under 
prison arrest and his wife is under house arrest. We see just 
in the last 60 days, there have been 15 Buddhist monks who have 
set themselves aflame because of the policies.
    That is why the Subcommittee began carrying language on 
bilateral activity with China in fiscal year 2011, and we 
maintained a version of the language in fiscal year 2012. Our 
language made sure that the Administration is thinking actively 
about the wisdom of its engagements with China and is being 
forthcoming with the Congress over the scope of those 
engagements and risks that they would pose.
    We will fully address the issue of cooperation with China 
today, along with other important science-related topics.
    Before we do that I would like to allow my friend, Mr. 
Fattah, to make any opening remarks.

                     Mr. Fattah's Opening Statement

    Mr. Fattah. Thank you, Mr. Chairman, and welcome again to 
the Committee. We look forward to your testimony.
    I started this morning at the Gaylord National Convention 
Center where the summit on energy innovation was taking place 
hosted by the Administration with some 2,500 innovators from 
around the country and got an opportunity to interact with 
many, and it shows that the American ability to focus on 
innovation exists and is in strong supply, but that there is a 
need for a government stimulus in this regard and support, and 
I am very happy that the budget request of the Administration 
calls for a five percent increase in non-defense R&D, and many 
of these agencies fall within the purview of our subcommittee.
    And as Chairman Wolf indicated, we worked very hard last 
year and had very significant success, notwithstanding the 
allocation, in directing additional funds towards many of these 
priorities that we share with the administration.
    And in addition to that we also challenged your office to 
begin a process focused on collaboration around neuroscience, 
and I look forward to the opportunity that we will have today 
to explore where we are with that project. This collaboration 
is critically important on a whole range of levels affecting 
our government.
    And so I thank the chairman for holding today's hearing and 
I look forward to your testimony.
    Mr. Wolf. Thank you.
    Dr. Holdren, you can proceed, your full statement will 
appear in the record.

                    Dr. Holdren's Opening Statement

    Dr. Holdren. Well, Chairman Wolf, Ranking Member Fattah, 
and members of the subcommittee, I appreciate the opportunity 
to testify today on the civilian science and technology 
components of the President's fiscal year 2013 budget.
    President Obama in his most recent State of the Union 
address called on all of us to help create an American economy 
that is built to last. He called on us to work toward an 
America that leads the world in educating its people, that 
attracts a new generation of high-tech manufacturing and high-
paying jobs, and that takes control of its own energy.
    The President's 2013 budget reflects those aims. It 
includes continuing strong investment in science and 
engineering research as well as in science, technology, 
engineering, and math education, the kinds of investments that 
have long been at the core of America's capacity to innovate, 
to prosper, and to remain secure.
    A detailed description of the President's 2013 R&D budget 
is provided in a written testimony and in these brief remarks, 
I am just going to hit a few high points.
    The budget proposes $140.8 billion for Federal research and 
development altogether, that is a 1.4 percent increase over 
fiscal year 2012 enacted in current dollars.
    I will be using current dollars in all my comparisons, but 
you can convert to constant dollars with the projected 
inflation rate of 1.7 percent from 2012 to 2013 if you like.
    Within that $140.8 billion total the budget proposes $64.9 
billion for non-defense R&D, which as Ranking Member Fattah has 
pointed out, is an increase of five percent over the 2012 
enacted level.
    But as you know, the R&D total fits within an overall 
discretionary budget that would be flat at the 2011 enacted 
level for the second year in a row, consistent with the Budget 
Control Act that the Congress and the President agreed upon 
last August.
    In order to get there we had to make some tough choices. 
Even aside from defense, which saw decreases in applied 
research and in development, not all of the science and 
technology agencies got increases. Those that did included the 
three agencies that have been identified by this Congress and 
by other distinguished groups as particularly important to this 
country's continued economic leadership.
    NSF, the primary source of support for academic research in 
most non-biomedical disciplines, got a 4.8 percent increase to 
$7.4 billion. The DOE Office of Science went up 2.4 percent to 
$4.6 billion. And the NIST laboratories, the labs of the 
National Institutes of Standards and Technology, which play a 
huge role in U.S. innovation and industrial competitiveness, 
went up 13.8 percent to $708 million.
    The 2013 NASA budget, at $17.7 billion, essentially flat 
with last year, is consistent with the bipartisan agreement 
between Congress and the Administration that balances the 
agency's several crucial missions.
    The budget funds continued development of the heavy lift 
Space Launch System and the Orion Multi-Purpose Crew Vehicle to 
enable human exploration missions beyond Earth's orbit.
    It funds the operation and enhanced use of the 
International Space Station, the development of private sector 
systems to carry cargo and crew into low-Earth orbit, a 
balanced portfolio of space and earth science, including a 
continued commitment for new satellites and programs for Earth 
observation, and a dynamic space technology development program 
as well as a strong aeronautics research effort.
    It also continues support for a scheduled 2018 launch of 
the James Webb Space Telescope, the most sophisticated 
observing system ever built and one that promises to show us 
what the universe was like at the very earliest margins of 
time.
    The President's budget also proposes to expand, simplify, 
and make permanent the research and experimentation tax credit 
in order to spur private investment in R&D, and it maintains 
momentum to enlist the private sector in our economic renewal 
through such programs as the Startup America Partnership, a 
non-profit alliance of successful business owners, major 
corporations, and service providers.
    The budget also addresses the overarching importance of 
STEM education by investing $3 billion in STEM education 
programs across the Federal government, a 2.6 percent increase 
guided by a soon-to-be-released STEM education strategic plan. 
It shows the way to cutting back on lower priority programs to 
make room for targeted increases in the programs that are 
working the best.
    In summary, this Administration has presented a budget 
aimed at ensuring that America remains at the center of the 
global revolution in scientific research and technological 
innovation.
    I look forward to working with this subcommittee to make 
this vision of the President's 2013 budget proposal a reality, 
and I will be happy to try to answer any questions you may 
have.
    Thank you.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                    NASA PLANETARY SCIENCE PROPOSALS

    Mr. Wolf. Thank you very much.
    Let me start into planetary science and NASA. The NASA 
fiscal year 2013 budget contains a significant scaling back of 
the planetary science program, including decreasing the 
frequency of Discovery and New Frontiers missions. They 
indefinitely defer a new flagship class mission and restructure 
the Mars exploration program to a lower budget level.
    Do you believe these proposals are consistent with the most 
recent planetary science decadal survey conducted by the 
National Academies?
    Dr. Holdren. Yes, Mr. Chairman, I do believe they are. The 
decadal survey recognized the possibility that the budgets 
might not be available to do everything that the decadal survey 
recommended and they included a staged set of ways in which, if 
the budget was not adequate, one could step back from some of 
the most expensive missions.
    We are not by any means abandoning our commitment to the 
exploration of Mars. We have, as you know, the most 
sophisticated lander ever developed or conceived on its way to 
Mars, we have a new mission, the MAVEN mission, that will be 
launched next year. NASA is looking at missions that would be 
affordable for 2018 and beyond.
    But as I said in my testimony, we did have to make some 
tough choices overall, and finding the money for the very high 
priorities on the heavy lift vehicle, the crew capsule, 
commercial crew, the James Webb, finding the money to advance 
those programs within an obviously limited total did require 
cutting back on some things that, in better times, we would 
love to continue to do.
    Mr. Wolf. The Mars proposal has received the most attention 
in the press because it involves the decision to discontinue 
work on two identified missions generically referred to as Mars 
2016 and Mars 2018. These missions were to be done in 
conjunction with the European Space Agency, ESA.
    Would this budget request result in NASA breaking an 
agreement with ESA on the 2016 or 2018 missions, and would the 
request diminish ESA's willingness to make future plans with us 
in other areas?
    Dr. Holdren. Well, first of all, from any knowledge it does 
not require breaking any agreements. We were, as I understand 
it, in the exploratory stage in respect to----
    Mr. Wolf. But wasn't something signed? I thought something 
had been signed.
    Dr. Holdren. I don't think anything had been signed that 
was a commitment to go forward with the mission. We were in an 
exploratory stage, as I understand it, with ESA and they have 
now been informed that our budget is not going to allow us to 
go forward with those two missions based on all current 
understandings, but they are clearly still willing to work with 
us on a variety of projects, and the----
    Mr. Wolf. Would this request diminish their willingness to 
make future plans with us?
    Dr. Holdren. I do not believe it will. We have been in 
conversation about the Euclid program, and my understanding is 
that ESA is likely to accept NASA's offer to participate in the 
Euclid program, that is, a program in which a space telescope 
will make very important contributions potentially to probing 
dark energy and measuring cosmological parameters, and it 
appears that they will be happy to work with us on that program 
and I believe on others.
    I think there is a widespread understanding, Mr. Chairman, 
that the budgetary times in which we find ourselves are 
extraordinary, and we have been in conversation with our 
partners across a range of issues about those demands. Most of 
our partners are also experiencing, as you know, difficult 
financial times and so they have been pretty understanding.
    Mr. Wolf. Okay. No, I understand.
    The U.S. has been the undisputed leader in Mars exploration 
throughout the history of the program and has developed unique, 
possibly irreplaceable, expertise in areas like Mars entry, 
descent and landing technology.
    Will the restructuring of the program endanger our 
international leadership in Mars exploration, and how will you 
ensure that critical skills and knowledge are retained during 
this time of restructuring?
    Dr. Holdren. Well, as I mentioned, Mr. Chairman, I believe 
we are not surrendering our leadership in Mars exploration. 
Nobody has anything remotely close to the Mars Science Lab, 
Curiosity, which we expect to land there in August. It was 
launched last November. The MAVEN mission will be the first 
mission to be launched in 2013, which will explore the Martian 
upper atmosphere and increase understanding of that. We are 
looking at Discovery missions and New Frontiers missions that 
will be affordable that will continue to advance our leadership 
in Mars exploration.
    I believe that we will manage to remain the leaders, 
notwithstanding these budget constraints that we are currently 
working with.
    Mr. Wolf. Who in the world would be second? Who would be 
second today?
    Dr. Holdren. Well, I think Russia is still second, but the 
European space effort is certainly making a strong effort, and 
one could argue, depending on what the metric is, whether ESA 
or Russia is now in second place.
    Mr. Wolf. Dr. Neil deGrasse Tyson had an excellent piece in 
Foreign Affairs this month regarding the future of the space 
program and the enduring impact of the Mercury, Gemini, and 
Apollo programs on our national conscience. While he finds 
faults with both Republicans and Democrats for the current 
state of our space program, he specifically points out much of 
the empty rhetoric from the Administration.
    According to one example he references, the Obama 
Administration's economic stimulus legislation proposed 
doubling Federal science agencies, but he says all that NASA 
got from the stimulus was a directive on how to allocate one 
billion of its existing budget with no extra funding at all.
    Have you read the piece?
    Dr. Holdren. Yes. Well, I have skimmed it, sir, I just got 
a hold of it yesterday, as a matter of fact, and it is an 
interesting piece.
    Neil deGrasse Tyson is a friend, he gave me a heads up that 
this was coming and, you know, his main point in the speech is 
it would be great if we could double the budget of the space 
program, which would be great in better economic times. If we 
could spend more money, we could do more and those of us who 
have been space enthusiasts since childhood, as I have, would 
love to be able to see us do more, but as I keep saying, there 
are hard choices to be made in these budgetary times and Dr. 
Tyson's proposal that we should double the NASA budget is 
simply, as I know members of this committee know, not realistic 
in the current circumstances. We simply can't afford it.
    Mr. Wolf. Well, I have other questions. Why don't I just 
submit them and then why don't you finish reading it. Then it 
would be better.
    Dr. Holdren. Sure. No, absolutely.
    Mr. Wolf. That would be fair for you to have that 
opportunity. One last question on this and then I will go to 
Mr. Fattah.

           ENSURING ACCESS TO THE INTERNATIONAL SPACE STATION

    As you know the Russian Soyuz missions to the International 
Space Station have been delayed twice in the past six months 
due to concerns over the safety of the Soyuz capsule and the 
Progress rocket.
    I have been told that, should the Station need to be 
demanned for more than a few months, there is a serious risk 
that it could be completely lost. Do you think that is accurate 
or not?
    Dr. Holdren. I am not sure of the exact parameters. 
Obviously there is a vulnerability, you know, being dependent 
exclusively on Soyuz for access to the Space Station and that 
is one of the reasons that we have, in the President's 2013 
budget, increased from 2012 propositions the money for 
commercial crew because we need to get that on a fast track in 
order to minimize the duration of our dependence on Soyuz.
    Mr. Wolf. It says for a few months. How much time do you 
think this would be a problem, three months, five months, six 
months, or does anyone----
    Dr. Holdren. I am sure NASA has an answer to that question, 
sir. I cannot answer it off the top of my head and would prefer 
not to try to preempt NASA's analysis.
    Mr. Wolf. Sure. Because you know the Station is a $100 
billion asset, it would be unacceptable to allow it to deorbit 
because the Administration refused to fully consider all 
options.
    Let me ask you just about some things that people said. 
What is the Administration's plan B in the event of a critical 
Soyuz failure? Is there a plan B?
    Dr. Holdren. Again, I am sure that NASA has a plan B, but I 
am not in a position to describe it to you.
    We again find it unfortunate that we are in the position of 
depending exclusively on Soyuz. This is not a desirable 
circumstance. Soyuz has overall been a very reliable system and 
so obviously we are all crossing our fingers that it continues 
to be.
    Mr. Wolf. Well, it has been delayed twice in the last six 
months.
    This is sort of the same, but given that even the most 
optimistic of commercial crew projections preclude access 
before 2017, what is the Administration's plan for emergency 
access to the Station between now and 2017, especially in the 
event of a critical Soyuz failure? Is there any?
    Dr. Holdren. I believe the most expeditious way to do that 
would be to fix the Soyuz. Again, the Soyuz has a very long and 
highly reliable record. It is hard to imagine what could go 
wrong with Soyuz that could not with repaired more rapidly than 
a substitute system would be developed.
    You know, Mr. Chairman, the reason that we stopped flying a 
shuttle, which, as you know, was a decision made by the Bush 
Administration, but one which we believe was the correct 
decision, was that the major review bodies that looked at the 
shuttle in light of its operating experience, its complexity, 
and the difficulty of maintaining it, and also taking into 
account that the shuttle was so expensive to operate that as 
long as we were operating it under any reasonable budget 
assumptions, we couldn't afford to develop the replacement for 
it.
    And so again, if NASA had twice the money it has, we 
wouldn't be in this fix, but the last Administration didn't 
provide the budgets and we are not able, in this 
Administration, to provide the budgets to have multiple layers 
of options for dealing with this challenge.
    Mr. Wolf. Are there any circumstances under which the 
Administration would use the Orion capsule on an existing U.S. 
rocket to ensure emergency access to the Station in the event 
of an emergency?
    Dr. Holdren. I would expect, sir, that that is being looked 
at by NASA, but I have not seen the analysis.
    Mr. Wolf. I hope someone is looking at it.
    Dr. Holdren. Oh, I think it is a very good assumption that 
NASA is looking at it. NASA has a lot of smart folks and they 
tend to look at a very wide range of contingencies.
    Mr. Wolf. Okay. I am going to go to Mr. Fattah.
    I just wanted to know--and you are an expert and I am not--
but you have so many private competitors competing. Is any 
there idea of getting their best together? Because some are 
going to drop out. We are going to have this one drop out and 
then this one drop out, and that is a lot of money involved. 
Would it make sense or have you considered combining them into 
a star team, if you will, in order to eliminate some of the 
costs that will be incurred as they drop out and so that this 
can be expedited somewhat?
    Dr. Holdren. Well, Mr. Chairman, I do have some expertise 
in rocket science. I don't have any in corporate management and 
mergers.
    I imagine, in principle, no. In principle, I think one of 
the things that may happen is that some of the technology from 
firms that drop out when it is good technology will be bought 
by the firms that stay in.
    I also can imagine certainly that there would be mergers, 
but there are, as you know, some very big companies in this 
competition like Boeing and Lockheed as well as some smaller 
ones, and my assumption is that the folks who are structuring 
this effort who have a lot more expertise than I do in how to 
incentivize and oversee a private sector effort of this sort 
know what they are doing, but it is not my expertise.
    Mr. Wolf. Well, I don't know what the answer is, so I will 
make it clear that I don't. But it seems to me they are all 
hiring lobbyists, they are all running around doing this and 
doing that, and it would help to kind of come together under 
the leadership of NASA to use their varied expertise--we are 
not asking for any company to fold--but to come together. You 
know, some people do this better, some people do that, and that 
way I think you would eliminate some of the waste that I think 
you are going to see. But you know, that is your call.
    Dr. Holdren. Well, you know, and it is a multistage process 
in which I can imagine future stages being structured 
differently than the current stage.
    Mr. Wolf. Okay. So well, if you have any thoughts on that 
if you will let us know.
    [The information follows:]

    My understanding is that NASA has assessed this scenario and 
believes that using a teaming arrangement to combine or consolidate 
launch vehicle elements developed by different firms would ultimately 
take longer and cost more than NASA's current approach. Under current 
procurement rules, NASA would be required (with only limited 
exceptions) to issue competitive solicitations separately for each 
vehicle element and then work with the various industry providers to 
integrate these elements into a complete launch capability--an 
inherently more complex and lengthy procurement process. Further, such 
a teaming arrangement could eliminate some of the incentives for 
innovation in developing a comprehensive, unique crew transportation 
system with potential applicability to other customers or markets. 
Finally, NASA's current early-phase competition approach has another 
key benefit in that it will allow time for these new proposals to 
evolve and mature, which will not only facilitate NASA's analysis of 
proposals and ultimate selection process, but also yield a broader 
array of novel technologies and capabilities that may be suitable for 
adoption in other applications.

    Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.
    Two things on the chairman's comments. One is I support his 
interest and concern about what we are going to do relative to 
planetary science and Mars. I understand the budget constraint, 
but I think that is something that the committee will continue 
to explore with you about what can be done in that regard. And 
we do look forward to the landing of Curiosity, on August the 
6th I think is the game plan.
    But on his point about collaboration, I was out at the 
Pratt & Whitney plant in Hartford in the jet engine museum, and 
I saw that on a number of their ``top tens'' there was 
collaboration with their competitors, whether it was Rolls 
Royce or GE and the like.
    So it is not unheard of and there may be a great deal of 
wisdom in the chairman's point that there may be more to be 
gained by collaboration among some of the commercial crew 
companies than by pure competition.
    For the good of the country we might want to try to 
encourage that where possible. But obviously there are benefits 
to some competition also.
    But I want to get to two issues, one general and one 
specific.
    Generally, the Administration is focused on science as it 
relates to enhancing advanced manufacturing, particularly now 
in technology and the like. I want you to talk a little bit 
about that.
    And then I want to have you comment on the new initiative 
on neuroscience, and Dr. Rubin and his work and how you see 
that unfolding.

                         ADVANCED MANUFACTURING

    Dr. Holdren. Okay. Well, first of all there is a strong 
commitment to advanced manufacturing. Manufacturing has been an 
important, although declining, part of our economy. We would 
like to see it strengthened again and we think advanced 
manufacturing offers a great potential for doing this. That 
ambition is reflected, in part, in the substantial increases in 
the NIST budget around advanced manufacturing.
    We have an advanced manufacturing partnership that was set 
up, co-chaired by the president of MIT and the CEO of Dow, that 
has been meeting and offering recommendations about how we can 
move forward.
    We have the Startup America entrepreneurship program, we 
have new ideas about shared facilities with which small and 
medium size manufacturers can have access to equipment and 
processes that they wouldn't be able to afford on their own.
    So this is a big thrust and we think it is going to be a 
successful thrust in bringing back some of America's previous 
preeminence in manufacturing. We think it is very important to 
do that. It is not the whole economy, but it is an important 
part of the economy.

                              NEUROSCIENCE

    The second thing I would say on your point about 
neuroscience. We have taken very seriously your recommendation 
of some time ago to see what we could do to structure an 
initiative in neuroscience around three themes that you, I 
think, correctly identified.
    One was disease, what can we do about Alzheimer's and other 
diseases of the brain. A second is cognition. How can we apply 
current understandings from neuroscience and cognitive learning 
to improve how people learn and how we teach? And the third is 
injury. How we can deal better with traumatic brain injuries of 
the sort that unfortunately have been all too abundant in our 
service people serving abroad?
    We have just brought on board finally this week, after a 
long search, a new senior scientific staffer, Dr. Phil Rubin, 
who is a leader in neuroscience and will be the point person in 
our trying to advance an initiative in this domain.
    I think with Phil Rubin on board we now have what we need, 
in terms of the right expertise, to work with the other 
agencies, and of course particularly the NIH, but also the VA, 
and others in the cognitive area, of course NSF and the 
Department of Education as well, to move this forward.
    So we hope to have some good results to report to you going 
forward.
    Mr. Fattah. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Culberson.
    Mr. Culberson. Thank you very much, Mr. Chairman.

               OSTP'S ROLE IN SCIENCE BUDGET DEVELOPMENT

    Dr. Holdren, the role you play at the White House is to 
obviously advise the President on science matters and in 
advising the President your recommendations obviously carry a 
great deal of weight and have a great deal of influence on what 
OMB does in their recommendations, right? Are you the principal 
driver of science policy at the White House?
    Dr. Holdren. I could not say that I am the only driver. 
Certainly we work in conjunction with----
    Mr. Culberson. Principal.
    Dr. Holdren [continuing]. With OMB, very much in 
partnership with OMB in developing the R&D budgets of all of 
the agencies that have science and technology admissions. It 
really is a partnership.
    I would hate to have Jack Lew in the room and say that I am 
in charge.
    Mr. Culberson. No, no, no, no.
    Dr. Holdren. We are jointly in charge.
    Mr. Culberson. Sure. But you are the principal driver of 
science policy in the White House.
    Dr. Holdren. I am the principal advisor on science policy 
in the White House.
    Mr. Culberson. Right. Yeah, because the statute in 1976 
which created your office says your function is to provide 
within the Executive Office of the President advice on 
scientific, engineering and technological aspects of issues 
that require attention at the highest level of government, and 
you're the source obviously of scientific and technological 
analysis and judgment for the president with respect to major 
policies, plans, and programs.
    You clearly have a major impact on the scientific 
initiatives announced by the White House and the budget.
    When the President put forward and passed in the last 
Congress a $975 billion stimulus, and you just said if we could 
just simply increase NASA's funding we wouldn't have this gap 
in man space flight.
    I know that for example in my own experience in west 
Houston we were able to build and complete the largest freeway 
expansion project in the history of the State of Texas through 
my district because we were able to get approval from the 
Highway Department to allow the local toll road authority to 
come in and front load the money to finish it out. We put four 
additional new lanes down the center of Interstate 10, those 
local toll dollars, the local toll road authority was able to 
inject $500 million cash up front in the project and enabled us 
to finish the project in record time, five years and three 
months, and clearly the space program is a capital intensive 
effort that requires a lot of cash.
    You are the principal advisor of the President, why is it 
that you as the advisor of the President you tell us you are 
committed to NASA, you tell us you want to see NASA get more 
money yet under your leadership and this White House NASA 
didn't get one dime of a $975 billion stimulus bill? Why?
    Dr. Holdren. Because there was a lot of competition for 
that stimulus money.
    Mr. Culberson. Not one dime.
    Dr. Holdren. If I had had my druthers, Congressman, the 
stimulus would have been bigger.
    Mr. Culberson. Not one dime. But not even a dollar. You 
didn't even get a dollar for NASA. That is pathetic.
    Dr. Holdren. I did not craft the stimulus.
    Mr. Culberson. You are the principal advisor for science.
    Dr. Holdren. I offered----
    Mr. Culberson. I think it is very upsetting. It is very 
upsetting.
    Dr. Holdren. I offered my advice. There are many things, 
Congressman, that upset me in this business, it is a 
frustrating situation to be in with the kinds of budget 
situations we have to live with.
    Mr. Culberson. Well, I want to be clear I opposed the 
stimulus, but you know, the fact that it was done, it was done 
under your watch, your leadership, I don't think it is 
appropriate, and of course I am very frustrated too with the 
previous administration.
    This wonderful subcommittee that I have the privilege of 
serving on there are just no party boundaries, I mean there are 
no party labels when it comes to this committee's support for 
the sciences.
    And Chairman Wolf, Mr. Fattah, all of us work arm-in-arm. 
Alan Mollohan as chairman. I mean you guys all remember this 
sand chart that Sean O'Keefe, remember this one, the famous 
sand chart that Sean O'Keefe came out with when President Bush 
announced the vision for space exploration. This was never 
adequately funded, and of course that caused him those 
problems.
    So that is why I am so frustrated and upset about, I mean 
if you are going to do the stimulus you get it through 
Congress, you guys are completely in charge, why couldn't you 
even get $1 for NASA out of $975 billion, what happened?
    Dr. Holdren. Sir, when you say completely in charge there 
is nobody completely in charge. This is a complicated process, 
there were many opinions heard, and NASA did not----
    Mr. Culberson. Not $1, why?
    Dr. Holdren [continuing]. Did not come out well in the 
stimulus.
    Mr. Culberson. So when you tell us you are committed to the 
space program, and I find it, it is just very frustrating and 
disappointing.
    Dr. Holdren. I share your frustration.
    Mr. Culberson. What could have been done with that money up 
front if you had front loaded it as we did this huge freeway 
expansion in west Houston, these huge capital investments that 
are required for the space program.
    I hope all of us in Congress will ultimately move away from 
this annual year-to-year funding of NASA. I would love to see 
us move towards funding them like we do building these giant 
rockets and these expensive missions as the Navy builds 
aircraft carriers or submarines, they do multi-year procurement 
for those massively expensive programs, and it is something I 
hope we will all look at and consider. That is something I have 
talked to Chairman Ralph Hall about and would love to work with 
all of you guys in finding a way to get away from this year-to-
year pillar-to-post funding that is so damaging to the morale 
of these magnificent men and women, the scientists and 
engineers who devote their lives, their greatest passion in 
life is to see America lead the world in space exploration and 
they just deserve better than this. They really deserve our--as 
they have from this subcommittee and I really hope we will move 
away from the annual year to year pillar to post spending and 
move towards longer range----
    Dr. Holdren. Congressman, I agree with that.
    Mr. Culberson [continuing]. Stable, committed, funding 
driven by the scientific community.
    Dr. Holdren. I would love to see that myself.
    Mr. Culberson. That would be marvelous.
    Dr. Holdren. I agree.
    Mr. Culberson. Mr. Chairman.
    Mr. Wolf. Mr. Schiff.

                        MARS EXPLORATION FUNDING

    Mr. Schiff. Thank you, Mr. Chairman. Director, I am going 
to go straight to it. I am deeply troubled by the NASA budget 
in which science is cut overall by $62 million planetary 
science by more than $300 million resulting in the 
Administration's decision to withdraw from the ExoMars program 
with ESA that would have put an orbiter around the red plant in 
2016 and a lander on the surface two years later.
    I don't need to tell you that Mars Sample Return is the top 
scientific priority, you know, the top of the decadal survey 
along with another wonderful project involving Europa. No 
component of our space program has generated more consistent 
public interest and attention over the last decade than our 
robotic exploration of the red planet.
    In the days following Spirit's landing in early 2004 NASA's 
web servers crashed under assault from literally millions of 
people around the world eager to see the latest pictures from 
the Martian surface.
    By proposing a cut of more than $300 million the 
Administration not only threatens the most successful 
exploration program in NASA history, it also imperils what is 
certainly the world's most specialized workforce, engineers and 
scientists at JPL who specialize in entry, descent, and landing 
on other planets.
    I also don't need to tell you how difficult it is to do 
this kind of work. That there have been more failures around 
the world among others who have tried than successes. This is 
the only country that has succeeded in landing on Mars.
    This is a workforce capability that cannot take long 
periods of inactivity, and I don't think the Administration's 
reconfigured Mars program as nebulous as that is offers any 
promise of maintaining that workforce.
    Cannibalizing the Mars program which has gotten closer and 
closer to unlocking the secrets of Mars with each mission is a 
huge step backwards for NASA.
    The chairman asked you about American leadership in this 
area. And I think this is about more than a laboratory. It is 
about more than the Mars program. This is about America's 
leadership in planetary science. We are the undisputed world 
leader. We have to go to the Russians to get a lift to the 
Space Station, but in planetary science we are unparalleled. 
And I do not know how you can say we are going to maintain 
that. And I do not know how you can point to MSL. And it 
disturbs me, frankly, to have you point to MSL, and have the 
Administrator point to MSL as evidence of our continuing 
commitment to the Mars program when the fact of the matter is 
if MSL was on the drawing board right now you would be here 
telling us you are canceling it. And you and the head of NASA 
are resting on the laurels of the generation that made that 
possible. And pulling the plug out on the next generation that 
could make even more spectacular missions possible.
    The ESA, the chairman asked, you know, who is next in the 
leadership here? Well, ESA is going forward without us. They 
are going forward to do the top scientific priority in 
planetary science, the one that we are backing out of. ESA is 
going forward and they are going to Russia, and probably China, 
and asking them to step in where American has stepped away from 
its leadership role. And I think that is deeply tragic.
    I share Mr. Culberson's concern with the overall NASA 
funding level. But the problem here is not the overall funding 
level in and of itself. The problem is that we now have a 
proposal for a very unbalanced portfolio within NASA that 
basically shafts planetary science. And I think that is a 
terrible abdication of our leadership role. And, you know, I do 
not usually use language this strongly but I am determined to 
fight this tooth and nail because I think this is an area where 
the world recognizes us as the unparalleled leader. It is an 
unmitigated positive. And for us to walk back from that, run 
back from that, I think is a tragic decision.
    Mr. Culberson. If the gentleman would yield?
    Mr. Schiff. I would be happy to yield.
    Mr. Culberson. I just want to agree 100 percent with what 
he said, other than I want to make sure obviously if we cannot 
do Mars we defer to the Europa mission. But I agree with you 
100 percent, Adam.
    Mr. Schiff. Well I thank my colleague. But the way the 
current budget works neither of the top decadal priorities are 
going to go anywhere. And we are fast moving to the point where 
we have given up our leadership in manned spaceflight and we 
are going to give up our leadership in planetary science as 
well. And I would invite your comment on it. But I just cannot 
tell you how distressed I am to see this change in direction.
    Dr. Holdren. Well, I am usually happy to see bipartisan 
agreement but in this particular case I have to say I 
understand your frustration. I wish it were otherwise. The 
frustration that we have experienced in the administration is 
very similar to the frustration experienced in the Congress. 
That is, on the one hand, everybody accepts and understands 
that budgets have to be flat overall in the fiscal environment 
in which we find ourselves, and everybody is unhappy when we 
cannot increase or when we have to decrease, in order to make 
room for other programs that have higher priority to grow, 
programs that we like. We made tough choices.
    If you go back to the history of how we got to where we are 
in terms of the current balance in NASA you will remember that 
there was an enormously contentious debate within Congress, 
between the two houses of Congress, between Congress and the 
administration about what the ingredients of the space program 
needed to be. And the result of that debate was agreement to 
make very heavy investments in a heavy lift vehicle and in the 
Orion MultiPurpose Crew Vehicle which basically took a big 
chunk of the budget that initially the President had not 
proposed to do.
    Mr. Schiff. Mr. Director, if I can interrupt you there? 
Yes, that was part of the grand compromise. But part of that 
agreement, and part of the representation by the administration 
was that planetary science would go on. That a Mars 2016 
mission would go on. That a Mars 2018 mission would go on. That 
Europa would go on. So now the administration is reneging.
    And Mr. Chairman, I have to tell you you were absolutely 
right. Last year when you expressed the concern that James Webb 
would, among other things, cannibalize everything else you were 
absolutely, absolutely right. I did not want to believe it, but 
you were absolutely right. And I think it very poor management 
for NASA to say that we will reward labs that are poorly 
managed, that have extraordinary cost overruns, by savaging 
labs that are well run and that do not. And that is a poor 
management decision. But more than that, what so disturbs me 
about this is that there are many areas where America seems to 
be ceding its leadership in the world. This is an area of 
unparalleled American leadership. But we are stepping away from 
this, too. And I intend to fight that and I think that is a 
tragic setback for the country.
    Dr. Holdren. Well, Congressman Schiff, I was going to get 
to the James Webb, which was another part, obviously, of the 
expensive portfolio of projects that NASA has. It is also a 
science project. It is ranked very highly by a large part of 
the science community and it is expensive. It will be a hundred 
times more capable than the Hubble. It will bring us incredible 
results. And some tough decisions were made that we needed to 
go ahead with the James Webb under tighter fiscal circumstances 
than were imagined when we had the initial debate with the 
Congress about NASA.
    I think it is not really fair to fault the administration 
for what it said it thought we could do in 2009 and 2010 when 
the financial circumstances under which we now labor are more 
difficult than they were then.
    Mr. Schiff. And Mr. Director, and this will be my last 
point and then I will be happy to yield back, I am not talking 
about what was thought in 2009. I am talking about what was 
thought in 2012, in the 2012 budget, meaning last year. NASA's 
budget is relatively flat from last year to this year.
    Dr. Holdren. Yes.
    Mr. Schiff. So the budget has not changed, nor was the 
expectation that the budget would change dramatically from last 
year to this year. So how then do you account for the dramatic 
change in planetary science? I have to conclude that the 
administration, OMB, knew all along that they were going to 
cancel the Mars missions but they did not want to be candid 
with Congress because they knew it would not fly. And I find 
that very disturbing. Because the budget is not that different 
than last year. But NASA has made the decision to jettison its 
partnership with the ESA and its leadership role in this area. 
And I have to conclude that that was just disingenuousness on 
the administration's part.
    Dr. Holdren. Well, Congressman, I have to say I did not 
know that those Mars missions were going to become 
unaffordable. I personally did not know that. I cannot 
speculate on who else in the administration might have imagined 
what about future budgets. But if you look at the difference 
between the 2012 budget and the 2013 budget obviously one of 
the things that happened was in the 2012 budget the Congress 
gave us too little money to keep commercial crew on a fast 
track. And it is a priority for this administration, and I 
think it is a priority for the Congress as previous questions 
have indicated. We have got to minimize the gap between the end 
of the shuttle and the beginning of our ability to launch 
American astronauts into low-Earth orbit on American vehicles. 
Otherwise, we squander the $100 billion investment that is 
sitting up there in the Space Station, as Chairman Wolf has 
already pointed out. So these are tough choices.
    Again, I share your frustration but they are tough choices. 
We propose this year to get commercial crew back on a track 
that will minimize that gap. That costs something like $450 
million more than was in the 2012 budget for commercial crew. 
And if you want to fix planetary science you have to figure out 
where it is going to come from. And somebody's ox is going to 
get gored.
    Mr. Schiff. And by presenting this as a fait accompli, as 
the administration is trying to do, you are trying to pit one 
NASA institution, one space effort, against another. If 
commercial crew could not be affordable last year, you should 
have said so. If Mars could not be affordable, you should have 
said so. The Mars costs have not gone up. These are future 
planned missions. It is not like we have suddenly new cost 
estimates for the Mars program.
    But Mr. Chairman, I think I have made my point and I 
appreciate your indulgence of the extra time, and I yield back.
    Dr. Holdren. Can I just say it is never a fait accompli, it 
is always a negotiation with the Congress. I mean, this is the 
President's proposal. And, you know, obviously I am here 
discussing it with you folks who are key to determine what 
ultimately will happen.
    Mr. Wolf. Well that is why I asked the question earlier, 
which was just my thought. I understand these commercial crew 
companies have an investment. But if they could all come 
together, you have saved from that. Because in essence what you 
are going to do, and I am not the expert that NASA is, but you 
are going to finish the commercial crew in what year? 2018, 
probably. And I even saw where one of your people said if we do 
not get the full amount we are in trouble. So if you are 
talking about 2018 and you are going to decommission the Space 
Station in 2020, as bad of an idea as that is, maybe you should 
just fold this in and look at some other way in bringing the 
companies together. They all have a lobby shop, they all have a 
personnel office, and they could all have all these things 
together, whereby you could fund some of the other priorities. 
But that is why I made the comment.
    And I think you have to participate. You have forgotten 
more about this than most of us up here know. And your people 
in NASA. But there must be a way, if you take away all the 
political environments in these companies, and their activities 
on the Hill, and who they are hiring. I mean, one of them is 
hiring every lobby shop in town, it seems. If you could just 
stop that, if they can, and come together, you may be able to 
drive that cost down.
    Because if you are going to spend all this money, and you 
are going to get your commercial crew vehicle in 2018, you are 
going to have a year or two to use it. That is if everything 
goes really well and they get everything they say. So maybe it 
is 2019, could it be? And the Station ends in 2020, or 
something. Is there another way of doing it? But I think we 
would really need you to participate, to come up, and the same 
way with the NASA Administrator to help us. Because----
    Dr. Holdren. Well Mr. Chairman, I will participate. But we 
have said about the Space Station that we will, we intend to 
maintain the Space Station at least until 2020. It is not a 
predetermined----
    Mr. Wolf. Right, I understand----
    Dr. Holdren [continuing]. Conclusion that the Space Station 
is going to be de-orbited in 2020.
    Mr. Wolf. No, but then is there another way----
    Dr. Holdren. But I hear you. I hear you on the point about 
consolidation and cooperation in the commercial sector, and I 
will certainly take that message back and discuss it with 
Administrator Bolden and try to understand better what the 
thinking is. I am certainly prepared to participate, as you 
suggest, in the discussion of how we can optimize this process.
    Mr. Wolf. And then that way you would have some money for 
this. And I think the sooner you do this, the better. If it is 
done a year and a half or two years from now, the money will 
have been expended and there will not be the opportunity.
    Dr. Holdren. Yeah, I just do not know if there is real 
potential there, Mr. Chairman, to save money or not. But I am 
happy to look into it with the Administrator.
    Mr. Wolf. Well there may not be. Mr. Fattah.
    Mr. Fattah. One possibility, Mr. Chairman, is that when the 
House does its budget, maybe we can get a stronger allocation 
for NASA. Because I hear from my friend from Texas that there 
is some energy behind our call to get more investment in 
science. It is impossible to fit all these projects in 
together. I disagree with the decision package as you provided 
it. But I do understand that you cannot have the Webb 
telescope, the launch vehicle to go to Mars, which is now being 
fully funded based on the agreement that has been set, 
particularly with the Senate, and all these other pieces 
wrapped up together. So the question becomes either you have to 
enlarge the budget overall, or something is going to get 
squeezed out.
    The question really is, in the decision package, where 
should we go. Because if on one level we are developing a 
vehicle to travel to Mars, but on the other level we are 
cutting some of the planetary science activities that will be 
vital to our long term success in that regard, maybe we are 
working at cross purposes. But I think the size of the stimulus 
was set because my Republican colleague from Pennsylvania said 
he would not vote for anything higher than a particular number 
and he was the only Republican we could get. So the number was 
set.
    But I am glad that there is room now for more investment on 
this, particularly on the majority side. But in reality the 
chairman knows that you have the senators who take these 
matters as their prerogative and there is going to have to be a 
meeting of the minds between the chairman and his counterpart 
in the Senate around NASA's final budget number. But it is 
impossible to get all of these projects to fit within this 
total, something slightly below $17 billion.
    Mr. Wolf. Mr. Aderholt.

                 COMPETITION IN NSF FUNDING INITIATIVES

    Mr. Aderholt. Thank you, Mr. Chairman. Dr. Holdren, thank 
you for being here today, and for your testimony. I wanted to 
ask a little bit, something about the National Science 
Foundation. I would like to have your comments on the subject 
of competition. For competition for NSF itself to be successful 
as a mission. And really just whether your comments apply 
broadly to the small individual scientific grants, to the large 
NSF centers, and also the cooperative agreements for running 
the NSF science facilities.
    Dr. Holdren. Well, first of all I would say obviously, as 
your question suggests, NSF has a portfolio of approaches for 
funding science. They are responsible for funding a huge 
variety of kinds of science across the non-biomedical domains. 
And so I think it is reasonable to expect, given that variety, 
that some of the domains in which they fund require a different 
model than others. But NSF is the bastion of peer reviewed 
scientific research support. And I think Dr. Suresh, Subra 
Suresh, the relatively new Director of NSF, is doing a fabulous 
job of managing that big portfolio. I am not sure exactly where 
your question is heading beyond that.
    Mr. Aderholt. Well I guess just your thoughts on the 
importance of competition in general when you know you are 
looking at these different grants and these different 
facilities. What importance would you put on competition?
    Dr. Holdren. I put high importance on competition. I think 
competition is crucial and it is a hallmark of the way NSF 
distributes its funds on the whole.

                    SPACE LAUNCH SYSTEM DEVELOPMENT

    Mr. Aderholt. Thank you. Over the course of two fiscal 
years Congress appropriated a bit over $3.6 billion for the 
SLS. The bill language requires parallel development of the 
core and upper stage. The President signed those bills into 
law. My question is, is the administration, of course through 
NASA, making parallel programs on both the core and the upper 
stage? Or as some believe has the work on the upper stage been 
deliberately put on a little of a slower schedule?
    Dr. Holdren. I must say I have to refer you to 
Administrator Bolden on that. I am not aware of any deviation 
from the specifications of the law on NASA's pursuit of that 
program. But that is one in which I do not have any insight off 
the top of my head.
    Mr. Aderholt. So it is your understanding they are doing 
parallel progress on both?
    Dr. Holdren. Again, I would refer you to Administrator 
Bolden for a reliable answer on that. Because I am simply not 
up to date.
    Mr. Aderholt. But you would assume they are doing what the 
law requires?
    Dr. Holdren. I assume they are doing what the law requires, 
yes. That would always be my assumption.
    Mr. Aderholt. Part of the plan for future years of the SLS 
system is to produce a new booster. Would you be in favor of 
developing a new booster made here in the United States as 
opposed to a foreign booster such as the Russian booster?
    Dr. Holdren. I think the details of that choice belong 
properly in NASA. Obviously, all else being equal, I would be 
in favor of a U.S. booster, yes. But I do not want to preempt 
the kinds of considerations that NASA would go through 
depending obviously, among other things, on costs. Clearly they 
are going to take into account both the desirability of doing 
it domestically but also relative costs. And I do not, at the 
moment, have access into their thinking on that choice.
    Mr. Aderholt. The request this year for SLS is below the 
authorized level for it, SLS. The figure should be $2.64 
billion. The ground operations were actually authorized in a 
separate part of NASA's budget from space operations for $400 
million. Your testimony, I believe, says that you requested 
$1.9 billion for SLS. Is that correct?
    Dr. Holdren. I believe it is.
    Mr. Aderholt. I think the concern is that that is a little 
bit misleading. If in fiscal year 2013 you do not request $1.9 
billion for SLS, you request $1.4 billion. Even though space 
operations has a request of almost a $1 billion, for two years 
in a row NASA headquarters has carved out hundreds of millions 
of dollars from the SLS rocket development funding. The 
committee requested that you have a separate category for 
ground operations so that you would not continue to take SLS 
funds. Your funding request reflects an approach of once again 
carving this funding out of SLS. And the concern is, quite 
honestly, is that the rocket development program, especially 
when China and other nations are moving ahead rapidly on their 
own heavy lift programs. So the low request makes it almost 
impossible for the program manager to keep on schedule and 
reduce risk.
    If this committee overrules the low budget request and 
provides more funding, will your advice to the President be to 
develop this rocket in a more urgent way? And will you advise 
him to support the fiscal year 2014 and beyond so that the 
nation, this nation will not be left without a heavy lift 
capacity?
    Dr. Holdren. Well, first of all Congressman Aderholt, let 
me say that my understanding is that the ground support systems 
for heavy lift are an integral part of being ready to test that 
rocket in 2017. And my understanding is that NASA's allocation 
of funds within the $1.885 billion requested for the SLS is 
designed to have the components come together in a manner that 
will enable that 2017 test.
    Obviously it is a challenge. It is always a challenge in 
projects of this magnitude and nature to stay within budget and 
on schedule and it is an even bigger challenge in the overall 
budget constraints that we face. But I believe that NASA is 
doing everything it can under the budget constraints we face to 
get to that 2017 test of the SLS system. And obviously if 
Congress comes up with a different result and passes a bill and 
the President signs it, my advice to the President will be to 
follow the law and to pursue the program that the Congress has 
authorized and appropriated.
    Mr. Aderholt. Thank you.
    Mr. Wolf. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. And welcome.
    Dr. Holdren. Thank you.

                          NASA FUNDING LEVELS

    Mr. Honda. Let me just take a different tack on the funding 
of all the programs and the frustration that was expressed 
here. We over the past six, seven years have been cutting, and 
cutting, and cutting funds in NASA Ames and all those other 
projects have been suffering the same consequences. And so we 
are asking you, NASA, Ames, to deal with what we give you. And 
like you said, the President has to follow the law. So it is 
really us in Congress that determine the funding level. If we 
keep cutting we are going to have less funds. Less funds, you 
are required to cut back on something. And maybe if we had the 
exercise of having to cut, and figure out what it is that we 
have, what we want to see and what we do not want to see, maybe 
that should lay on us.
    But we have administrators that look at the NASA budget and 
try to produce a budget based upon FTE with no mention or no 
connection to mission. And then later on we had another 
administrator that went back to the mission and tried to 
readjust the budget so that we can look at the mission. But we 
put NASA and Ames into a trick box where you are whiplashed 
every time a budget comes along. So I just want to put that out 
there.
    And last year we cut our budget a couple of times. The CR 
was an exercise in cutting the funds. So the certainty for 
programs to be able to express themselves always to the end has 
been frustrating, I think. And as a program manager in the past 
when people cut my budget in the same year they gave me the 
money, then I have to readjust my programs. I just wanted to 
say that.

                   ADVANCED SEMICONDUCTOR PRODUCTION

    Dr. Holdren, this topic I want to bring up, the 450 
millimeter transition, the wafer transition that our industry 
is going to be looking at. It could be a little bit out of your 
jurisdiction or the subcommittee but it is in your purview.
    United States companies currently lead the world in 
production of semiconductor manufacturing equipment, holding 
about 50 percent of the market share. And we manufacture 
roughly $18 billion worth of cutting edge tools each year and 
86 percent of that is exported. Many of them are located in and 
around my Silicon Valley district. The industry faces a major 
transition the likes of which occurs only once every ten years. 
The transition to a larger 450 millimeter sized wafer will 
allow the manufacture of more advanced semiconductor devices at 
a lower cost by producing more devices per wafer. Right now it 
is 300. Prior to today it was smaller. So every decade it gets 
larger.
    But to get there the next generation of manufacturing tools 
must be developed, which is estimated to cost at least $8 
billion for the U.S. companies and as much as $30 billion 
globally. Foreign governments see this transition as a prime 
opportunity to lure U.S. companies to their shores and their 
technology overseas and are proposing China's government, their 
government intends for the R&D work to be done there.
    That has been the attraction and I think some of us had 
mentioned other countries attracting our companies overseas. So 
the loss of this industry could pose really a significant 
economic and national security threat to our country because 
these wafers are chips that we depend upon for our high tech 
information technology and our military equipment. And absent 
that we could be looking at the possibility of other countries 
producing these larger wafers at a cheaper cost and then 
producing them for our use. And they would not be what we call 
trusted sources.
    So do you think that the federal government has a role to 
play in ensuring that the next generation of tools is 
manufactured in the U.S.? And would a limited duration of 
public private partnership funded by the government and 
industry to provide support for the basic R&D needed to develop 
these tools would be an idea worth exploring?
    Dr. Holdren. Well the short answer, Congressman Honda, is 
yes. Number one, President Obama has been very clear that he 
thinks it has to be a high priority for us to keep these 
critical manufacturing industries in the United States rather 
than letting them go overseas. And I know that I am not 
familiar with the details of this 300 millimeter versus 450 
millimeter transition that you mentioned. I am sure some folks 
in my technology division are familiar with it and I will go 
back and consult with them.
    Mr. Honda. Sure. We can have the members of Semi come and 
explain that to you. And also looking at how we can fund the 
partnership where the industry will put up the money but 
looking for a partnership from the government, as we have done 
in other, you know, disruptive kinds of technology we have had 
in the past.
    Dr. Holdren. Yes, indeed. And I would think this would be 
one of the domains where some of the manufacturing efforts that 
we have underway, including those at NIST, would be relevant. 
But I would have to look into the details and perhaps talk with 
you and your staff about what is needed.
    Mr. Honda. Right. Well this would go a long ways, this 
would go a long ways on our mantra that we are saying, we want 
jobs, we want to improve the economy, we want to make sure that 
manufacturing occurs here. And we can make that happen and also 
have the innovations done here with its attendant research and 
development of the product here in this country rather than it 
happen overseas. I hope that we can work with you on that.
    Dr. Holdren. Yeah, I would be happy to work with you on 
that, sir.

        COOPERATION BETWEEN NSF AND THE DEPARTMENT OF EDUCATION

    Mr. Honda. Two others is the STEM education. We are happy 
about the change in the STEM education set up and that there is 
going to be more attention paid to STEM and STEM teacher 
preparation. Do you think that as we move forward that the 
Department of Education would be worked with and collaborated 
with a little bit more than they have in the past? I think that 
they should be involved in this.
    And also that not only NSF but, you know, the Department of 
Education. Because they should be the ones responsible for 
making sure all the research that is done in STEM be held 
someplace so that it is accessible to the general public or to 
the education community. And hopefully that you could look at 
that as advice to the President.
    Dr. Holdren. Well, we are working very hard, Congressman, 
on increasing the amount of coordination and cooperation among 
the different agencies in the STEM education field. That is why 
we created a standing committee within the National Science and 
Technology Council on STEM education. As you know, the NSTC is 
the place where we work to coordinate all the science and 
technology issues that cross department and agency boundaries. 
And I have to say that Secretary Duncan has been energetic, 
eager, and cooperative in working with us and the Domestic 
Policy Council and NSF as we figure out how to better 
rationalize and coordinate our STEM education efforts.

                NANOTECHNOLOGY HEALTH AND SAFETY ISSUES

    Mr. Honda. Yes. Very quickly, Mr. Chairman, on the 
nanotechnology initiative, you mentioned the initiative and the 
nanotechnology signature initiatives, because it sounds a 
little bit like the provisions in my Nanotech Advancement and 
New Opportunities Act, it is H.R. 2749. I would like to ask you 
about the environmental health and safety studies you mentioned 
including the 2009 National Tech Initiative EHS research 
strategies. In talking with folks from the nanotech industry 
and with academic researchers in a variety of related fields 
including toxicology, I have heard that a top priority of 
theirs is the development of characterization tools and 
techniques for studying nanomaterials. Does the EHS research 
strategy focus at all on the characterization tools and 
techniques? And how much funding do you think we should be 
dedicating on works like this in fiscal year 2013?
    Dr. Holdren. Well, first of all, the environment health and 
safety dimension remains an important part of the national 
nanotechnology strategy. Characterizing nanomaterials as to 
their specific features that could affect environment health 
and safety is a very important part of that. We understand that 
it is not appropriate simply to say because something is small, 
it is dangerous. We really need to look at the specific 
characteristics that are responsible for risk. And we are doing 
that in the National Nanotechnology Initiative. I think the 
budget is there to do it.
    Mr. Honda. Great. I think that out of sight, out of mind 
does not work here either.
    Dr. Holdren. Certainly not.
    Mr. Honda. And especially in the area of when we talk about 
genetically modified foods, where if we can show people that it 
is not a dangerous thing, and we can prove it scientifically, 
because we have been doing genetic manipulation since time 
immortal when we were messing around with corn pollen. But here 
we go right down to the nano level. And we do not know whether 
we are taking pieces out of an animal and splicing it into 
plants. So these kinds of things we need to be able to explain 
very clearly and in English to the general public so that they 
have a confidence in what is being produced in agriculture and 
in science. So I appreciate that. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Austria.
    Mr. Austria. Thank you, Mr. Chairman. Director, thank you 
for your time this afternoon. I know it is getting warm here, 
hot actually in this room.
    Dr. Holdren. I noticed.

             PRIVATE SECTOR INVOLVEMENT IN COMMERCIAL CREW

    Mr. Austria. But I have got a couple of questions I want to 
follow up, and I know there has already been a lengthy 
discussion on the commercial crew and NASA. But just a 
clarification. We talked earlier about it and you mentioned if 
a private company drops out and their, I think in your words, 
good technology is purchased by a company that is still in. I 
guess my question is, can we assume that that purchase will 
largely be made with federal funds? Or can you explain that 
process?
    Dr. Holdren. I would not assume that. But you are way 
outside my area of expertise. Again, I am a scientist not a 
business person or a manager and so have no real sense. In my 
initial response to Chairman Wolf's question about this sort of 
consolidation I said I could easily imagine a situation if a 
company dropped out and it had good technology, another company 
would acquire it. I am not familiar enough with the financial 
terms of these agreements to speculate on whether that, whether 
the money they would use to do that would include any of the 
public funds provided for commercial crew or not.
    Mr. Austria. But I think with the difficult budget 
constraints that have been mentioned, that is important 
considering, you know, much of the research is federally 
funded. And how that technology is being passed on from, you 
know, a private company, how federal tax dollars are being used 
I think is important. And that is the question that I had as 
far as how that process takes place.
    But let me also, I know because of the current contracting 
agreements Congress is unable to, or it is very difficult to 
track companies' business models, including the level of 
private investment that are being put towards commercial 
spaceflight projects. And as has been mentioned the President's 
proposal to increase funding, I think double the funding 
almost, for the commercial spaceflight program. And in light of 
the current fiscal constraints are you able to describe how 
that private money--let me ask you this. From a ratio 
standpoint, how much private money is being put into the pot 
versus federal funds?
    Dr. Holdren. I would rather get back to you on that to make 
sure I do not give an inaccurate answer off the top of my head. 
I will be happy to follow up with you after I consult with 
Administrator Bolden and find what the right answer is.
    Mr. Austria. All right. Let me jump over then and follow up 
with Mr. Honda's question on manufacturing, advanced 
manufacturing. I would like it if you could provide the answer 
to that, that would be good.
    Dr. Holdren. I will do it.
    [The information follows:]

    NASA currently is not planning to stipulate a pre-determined level 
or proportion of cost sharing for private entities vying to develop 
operational systems under the Commercial Crew Program--nor has NASA 
required a certain proportion of cost sharing for the commercial cargo 
or crew technology development efforts that have taken place to date. 
Rather NASA has indicated that the most appropriate and beneficial 
course is to avoid such a priori standards, instead assessing each 
proposal as a whole and on its own merits. This assessment would 
include an evaluation of factors such as the system's proposed 
capability, development schedule, and cost, as well as business 
considerations like the potential to support commercial markets, the 
amount of corporate investment, and long-term cost effectiveness. NASA 
believes that no single factor is necessarily more important than 
another, and that each proposed approach will likely envision unique 
solutions for each of the factors used in the evaluation. Regardless, 
my understanding is that these proposals will incorporate a combination 
of Federal and private sector investment in some form, which is one of 
the key benefits of the current approach relative to more traditional 
cost-plus contracting methods.

    Mr. Austria. Because I think many of our private partners, 
you know, many of the taxpayers, the taxpayers need to know 
what kind of skin in the game, so to speak, that our private 
partners have in this, and how that compares to the federal 
dollars, and how they are being leveraged.

                NEW APPROACHES TO ADVANCED MANUFACTURING

    But moving over to advanced manufacturing, the 
administration has made advanced manufacturing a major theme 
within the science and technology budget this year, devoting 
significant resources to strengthening and modernizing the 
manufacturing base in this country. And I understand that 
within NSF I believe there is $148 million devoted to advanced 
manufacturing through various programs. Can you speak a bit 
about this initiative? And specifically any new approaches to 
research that you hope to implement with these resources?
    Dr. Holdren. Well, the President's budget is asking for 
nearly $1 billion for the National Network of Manufacturing 
Innovation to establish a network of advanced manufacturing 
centers that would provide capabilities and insights and access 
to facilities to small and medium sized manufacturers as one of 
the major initiatives there.
    There are very substantial increases in NIST, as we have 
already discussed the National Institute of Standards and 
Technology, for their manufacturing programs. The Hollings 
Manufacturing Extension Program, MEP, is the one that has $128 
million in the budget, but that is not the only investment. 
NIST is proposing to initiate a $21 million advanced technology 
manufacturing consortia program that would be a public-private 
partnership to develop roadmaps for research that would broadly 
benefit the Nation's advanced manufacturing effort.
    So there are a lot of different ingredients in this 
portfolio of advanced manufacturing initiatives. But we think 
that these are investments that are well worth making in the 
current climate because manufacturing is so important and 
because advanced manufacturing has such high potential.
    Mr. Austria. And I certainly would appreciate that, and I 
would appreciate getting more details. Specifically what the 
plan is----
    Dr. Holdren. We can provide that to you, sure.
    Mr. Austria. And just, and I know it is getting late so I 
will end. But I just want to echo what my colleagues have 
already expressed to you as far as with NASA and within the 
budget, and the change there. The concerns that, just so I am 
on the record as well, about those changes and how they 
occurred. So with that----
    Dr. Holdren. Okay.

                  TECHNOLOGY TRANSFER AND JOB CREATION

    Mr. Fattah. If the gentleman would yield? On your first 
question, I have some legislation on this technology transfer 
issue. NASA has 17,000 patents. For many of our national labs, 
and for a lot of federally funded research, this information is 
almost always provided to the private sector at no cost.
    Mr. Austria. That is what I was----
    Mr. Fattah. That is number one, because the idea has been 
to commercialize it. My legislation is not to prohibit that but 
to suggest that we tie to licensing agreements that whenever 
technology is transferred that has been paid for with federal 
taxpayers' dollars, it would require that the jobs to make 
those new widgets are created in the United States and not in 
places in the world that the chairman spends a lot of time 
making sure that we understand are not the places where we want 
to see our jobs exported to.
    So I am interested in this subject. The administration has 
done some work on trying to ID these issues in terms of the 
technology. There are two issues. One is, we have great 
technology, and we need to make sure our private sector gets 
the benefit from it. Second, we need to make sure that we at 
least require that the jobs that emanate from that technology 
end up benefitting the people who paid the taxes.
    Mr. Austria. And I thank the gentleman for clarifying that. 
Because that is what I was trying to get at. How this 
technology is being passed on. And when you just mentioned that 
it is being passed on at no cost, and we are talking about 
federal funds involved, and the word purchase that was used 
earlier by a company of new technology. I appreciate you 
clarifying that, and that is very helpful. And I look forward 
to working with you on that. With that, thank you, Director, 
and I will yield back, Mr. Chairman. Thank you.
    Mr. Wolf. Thank you. I appreciate Mr. Fattah's comments. 
And I could not help but thinking of GE. Jeff Immelt, the 
President's jobs guy, has created a lot of jobs, to his credit. 
But they have all been in China. They have not been here. The 
avionics deal that he signed will create jobs in China. And I 
think that technology came from the American taxpayer. He just 
announced, if you watch the ads, GE has their electronic 
imaging, they are all leaving Waukesha, Wisconsin and going to 
Beijing. A lot of that came from the American taxpayer. And yet 
he is the jobs guy. In 2010, GE paid no taxes. They filed 
57,000 pages of electronic tax returns. And yet, we had the 
Library of Congress check and we can get this to you, GE was 
one of the largest taxpayers in China in 2010.
    So I think Mr. Fattah makes a very good point. And I think 
American taxpayers and American workers have been taken for a 
ride. Jeff Immelt, I mean, to have him as your jobs guy, I do 
not see how you can even do it. I just do not see, unless you 
meant you wanted to help China create jobs. Then I think he 
gets the A.
    Dr. Holdren. I think that is not the aim, sir.
    Mr. Wolf. I did not think so. I did not think so. But he 
has been an abject success for the Chinese and he has been an 
abject failure for the American government.

                         COOPERATION WITH CHINA

    At your budget hearing last year, you informed the 
Subcommittee that OSTP would not comply with the legislative 
prohibition on bilateral coordination with China. GAO 
subsequently found that OSTP noncompliance was a violation of 
both the prohibition itself and the Antideficiency Act, since 
the agency's actions clearly contravened legislation that had 
been passed by Congress, signed by the President, and never 
declared unconstitutional by any Federal court.
    We did slightly modify the language in fiscal year 2012. We 
also reduced the budget in that area. Some in the universities 
have screamed, but it is kind of interesting. They never 
advocate for the Catholic bishops that are in jail, the 
Protestant pastors that are in jail, the spying that is being 
done against us, and all the activity. But they kind of raised 
this objection with regard to the funding.
    But the question is, is it your intention to fully comply 
with the new China coordination language?
    Dr. Holdren. Yes.
    Mr. Wolf. Okay, that----
    Dr. Holdren. We are complying with the current language.
    Mr. Wolf. The new language requires you to certify that any 
bilateral activity will not result in the transfer of 
technology with national or economic security implications. In 
addition, the White House also agreed to certify you will not 
interact with individuals known to have engaged in human rights 
abuses. What is the process you are using to make these 
determinations prior to submitting a certification? And how are 
you verifying for yourself that any certification made is 
accurate?
    Dr. Holdren. Number one, Mr. Chairman, we of course try to 
determine who the Chinese are, with whom we will be meeting in 
a given interaction. The only interaction on the schedule which 
we have in fact reported to you----
    Mr. Wolf. Yes.
    Dr. Holdren [continuing]. Is the upcoming strategic and 
economic dialogue with adjacent meetings of the Joint 
Commission on Science and Technology Operation, which I co-
chair with the Chinese Minister of Science and Technology, and 
the meeting of the U.S.-China Dialogue on Innovation Policy, in 
which we are working to try to roll back discriminatory Chinese 
policies and policies where the Chinese are obtaining our 
intellectual property illegally and without compensation.
    Those, the Chinese interlocutors in those particular 
interactions in which I will be participating, namely the Joint 
Commission meeting and the Innovation Dialogue, are largely 
members of the science, technology, and innovation community in 
China. And we check with the State Department as to whether the 
State Department has determined that any of these individuals 
have been responsible for human rights violations. And when we 
have assurance that they have not, we feel free to proceed.
    Mr. Wolf. Is that with Mr. Posner's office? Whose office--
--
    Dr. Holdren. I would have to check with my Assistant for 
International Affairs. But I am sure we are checking with the 
appropriate offices at State.
    [The information follows:]

    OSTP confirms with the Bureau of Democracy, Human Rights, and Labor 
at the U.S. Department of State.

    Mr. Wolf. As I mentioned in the opening statement, the 
Director of the DIA said that China is using its space program 
to achieve military goals. In order to achieve those goals more 
quickly, they engage in espionage to boost their capabilities. 
In 2010, a Chinese agent was found guilty for sending trade 
secrets about the Space Shuttle and the Delta IV launch vehicle 
back to China for use in their space technology. Were we aware 
of that?
    Dr. Holdren. I personally am not aware of any of the 
details of that particular incident, but it is not a great 
surprise. I mean, the Chinese do engage in industrial 
espionage. We know that. Sometimes they succeed. We do our best 
to prevent it.
    Mr. Wolf. Well, we will get you the information on that. So 
when you meet with the Chinese science and technology 
officials, will you raise these issues with them?
    Dr. Holdren. Sure.
    Mr. Wolf. Okay.
    Dr. Holdren. Absolutely. That is what the innovation policy 
dialogue is about, is raising these difficult issues and trying 
to get the Chinese to behave better.
    Mr. Wolf. And I think by raising it, it will send a very, 
very powerful message. Do you have defined security plans in 
place to protect the integrity of your electronic devices and 
other means of communication prior to your arrival in China for 
these meetings? I remember last time you did not. Do you now 
have it in place? And has that plan been vetted by our security 
experts in other agencies?
    Dr. Holdren. Well Mr. Chairman, we were following last time 
the guidance of the FBI on this. And we, of course, at your 
recommendation, met again with the FBI at FBI headquarters to 
discuss these matters. And we will continue to have the FBI's 
support and approval of whatever we do with respect to 
electronics in China.
    Mr. Wolf. And you would not bring a BlackBerry or a laptop?
    Dr. Holdren. My expectation on the forthcoming trip is that 
I will not be bringing a laptop or a BlackBerry, sir.
    Mr. Wolf. Last November, Bloomberg Business Week reported 
that when a Beijing organization with close ties to the Chinese 
government offered Stanford University $4 million to host a 
Confucius Institute on Chinese language and culture and endow a 
professorship, it attached one caveat. The professor could not 
discuss delicate issues like Tibet. China is expanding its 
presence on U.S. campuses, seeking to promote its culture and 
history and meet a growing global demand to learn its language. 
Hanban, a government affiliated group under the Chinese 
education ministry, has spent at least $500 million since 2004 
establishing 350 Confucius Institutes worldwide, and about 75 
in the U.S., four times the number in any other country.
    The article also says that the Chinese pay the way for U.S. 
college administrators to attend its annual conferences in 
China as well as cultural showcases. More than 300 university 
presidents and 2,000 directors and teachers at Confucius 
Institutes attended the 2010 Shanghai World Expo at Hanban's 
expense, according to its annual report. Are you familiar with 
these Confucius Institutes?
    Dr. Holdren. I am certainly not familiar in any detail. I 
am aware of their existence.
    Mr. Wolf. Are you concerned about U.S. research 
universities, each of which receive tens of millions of dollars 
in Federal science research funding, being censored by Chinese 
interests?
    Dr. Holdren. I am actually surprised if U.S. research 
universities have accepted this stricture on funds for these 
institutes on their campuses.
    Mr. Wolf. Yeah, I----
    Dr. Holdren. I am very surprised by that, if that is in 
fact the reality, because ordinarily, U.S. research 
universities are very diligent in not accepting infringements 
of academic freedom tied to funding they receive.
    Mr. Wolf. Well I agree, and I am pleased to hear you say 
that. And I was surprised too, before I read the Bloomberg 
thing. Do you believe that American universities whose research 
is paid for by the Federal government and student tuition 
financed by Federal loans, grants, and fellowships should 
discontinue these relationships with the Confucius Institutes? 
I am not going to take the time, but I would like to hear your 
answer.
    I remember when I was in Tibet meeting with the Tibetan 
monks and nuns. We had a young Buddhist monk with us who could 
speak the language. And the torture that they told us about, 
and the number of Tibetan monks and nuns that have set 
themselves aflame. The first ones set themselves aflame and the 
Chinese public security police shot them as they were aflame. 
Gunned them down. So, I had a prominent university president 
come in and see me three weeks ago, and they were afraid that 
if they invited the Dalai Lama to the university that they were 
going to be punished.
    So I guess the question is, does this trouble you with 
regard to these Confucius Institutes and having this as a 
policy?
    Dr. Holdren. Well I would want to learn more, Mr. Chairman, 
about these Confucius Institutes before I offer a blanket 
statement about whether U.S. universities should be hosting 
them. As I said, I am surprised if U.S. universities have 
accepted restraints on the academic freedom of the 
participants.
    Mr. Wolf. Well we will get you the information. Now I 
understand why some of these groups have been screaming about 
this little language that we have. They want to just be very 
close to the Chinese government. And again, this is not the 
policy of this committee. I understand. It may just be me 
alone. But there is genocide now taking place in the Nuba 
Mountains and it is aided and abetted by the Chinese 
government. And Bashir, who is an indicted war criminal, was 
given a red carpet welcome by Hu Jintao, who was given a red 
carpet welcome at the White House. I think this is important. 
And I think university ought to understand its intellectual 
freedom.
    And I want to say one other thing before we get to the next 
section. Every time the Chinese dissidents come to the country, 
they come into my office. The Chinese people are wonderful 
people. Our concern is with the security police and that 
handful at the top. So we will get you the information, and if 
you can get back to me on it, I would appreciate it.
    Before we go to the next thing, I saw Mr. Yoder walk in.

               PUBLIC ACCESS TO FEDERALLY FUNDED RESEARCH

    Mr. Yoder. Thank you, Mr. Chairman. Just briefly, I 
appreciate you being here today, doctor, and I appreciate your 
testimony. I am cosponsoring a bill that deals with federal 
research done by public universities. It is H.R. 4004. And I 
just wanted to see if the administration has any thoughts on 
it, or you might get back to us on where the administration 
would be. It essentially says that any research done as a 
result of federal dollars, federal grants, that are done by our 
public institutions that perform research has to be publicly 
available within one year after the research is conducted.
    The concept is the taxpayers have paid for the research in 
the first place and then we then use Federal and State dollars 
to then pay for the research over and over and over again at 
our various universities. This legislation has been partially 
enacted, NIH currently does it that way. My alma mater, 
University of Kansas, has this requirement as well. This would 
create a national standard for all research that was federally 
funded, 123 university college presidents and provosts from 36 
states support it. Obviously library associations. So it is 
just public access to research. And I did not know if you had 
heard of that legislation, and it has been introduced in the 
past, and whether you have thoughts on that.
    Dr. Holdren. I am not familiar with the details of that 
specific legislation. This is an area that OSTP has been very 
interested in, the whole question of public access to the 
results of federally funded research. The America COMPETES 
Reauthorization Act requires OSTP to coordinate with agencies 
to develop policies that ensure widespread public access and 
long term stewardship of results from federally funded 
research. We have actually two interagency policy groups under 
the National Science and Technology Council that are addressing 
this issue. One of them is the Task Force on Public Access to 
Scholarly Publications and the other is the Interagency Working 
Group on Digital Data.
    I would be very interested to look at the details of your 
legislation. But it sounds very much like it is pursuing the 
same goals and running along the same lines as what we have 
been trying to do in OSTP.
    Mr. Yoder. Well, I would certainly be interested in 
feedback from the committees that are reviewing this and we 
want to do it in conjunction with what is in the best interest 
for everyone. And it looks like something that would be very 
promising.
    Dr. Holdren. Yeah, we definitely want to work with you on 
that.
    Mr. Yoder. We will look forward to trying to work with you 
on that.
    Dr. Holdren. Good.
    Mr. Yoder. Good. That is all I have, Mr. Chairman, thank 
you.
    Mr. Fattah. Can I just mention one thing on that? And we 
can talk about it. It relates to one of the issues that the 
chairman and I have talked about. You are absolutely correct, 
with one caveat related to advanced manufacturing and national 
security, and whether it could give information to our economic 
competitors that would be better for us to take advantage of. 
The Chinese now have almost a monopoly on the rare Earth 
materials. We are doing a lot of work through the 
administration on creating new materials and composite 
materials and so on. So making all of that information public 
really allows our economic competitors in many respects not to 
make similar investments and just use ours. So I know that is 
not the innovation you are referring to. I just wanted to make 
that point.
    Mr. Yoder. Sure. I appreciate the gentleman's thoughts on 
that. And certainly that is not the direction we are going. We 
are dealing with the items that are published in journals that 
essentially in university after university are being paid for 
again and again and again, and there is not the access. So it 
is certainly not classified information or information that 
would not already be published. My assumption is that if China 
wanted some of this information and it was published in a 
journal they could probably fork over the couple of hundred 
bucks to get that information already. But it is a caveat to be 
aware of that we do not overreach, that we do not overreach in 
the legislation. Thanks.

            INCREASING OPPORTUNITIES FOR MANUFACTURING JOBS

    Mr. Wolf. I am going to have a couple of questions on 
manufacturing, then we will go to Mr. Fattah. Did you see the 
series in the New York Times about Apple? Where the President 
turns to Steve Jobs and says, ``Mr. Jobs, how can you bring the 
jobs back?'' And he says, ``You cannot.'' We are having a 
hearing. What day are we having the hearing? March 28th. We are 
having Niall Ferguson and NIST and NSF to discuss manufacturing 
jobs. But what proposals are in the fiscal year 2013 R&D budget 
that will persuade Apple and other high tech companies that the 
U.S. can not only be a viable but a desirable place to 
manufacture their products? I do not know if you were there for 
that conversation, were you?
    Dr. Holdren. I was not there.
    Mr. Wolf. Okay. Then how can we prove Steve Jobs wrong? He 
said, ``Mr. President those jobs are not coming back.'' What do 
we have to do? China, iPhone, China, iPod, you listen to your 
records now, everything is from China. I appreciate Mr. Fattah 
being so interested in this. And you have already got your team 
together. We met with NSF and NIST to see how we can cooperate 
together to really bring those jobs back. So do you have any 
thoughts of what we can do? You are an important person in this 
because they all answer up to you. How can we bring those jobs 
back?
    And then if you saw the article that came a week later at 
that facility in Foxconn. I mean, the suicide rate was 
unbelievable. They were working 12 hours a day. They were 
living the life of, not of Riley, but of almost an inmate. We 
do not do those things. So how can we, using the great minds of 
yours and others, and NIST, and NSF, bring those jobs back?
    Dr. Holdren. Well, Mr. Chairman, I think a lot of the 
things that we are proposing to do under the domain of advanced 
manufacturing are germane to this. We need to develop the 
processes and the techniques that will make us leaders in 
manufacturing to have the jobs here. We have never, or at least 
not for a long time, been able to compete on the price of 
labor, and we do not want to. We want to compete on innovative 
technologies and processes.
    Mr. Wolf [continuing]. They are having riots, I believe, in 
certain cities where they are having a difficult time.
    Dr. Holdren. Well that situation may change in China, and 
that would be to the better.
    Mr. Wolf. Right.
    Dr. Holdren. I mean, I have said before, Mr. Chairman, I am 
an admirer of your leadership on human rights issues. I am not 
a supporter of China's practices on human rights. And if those 
efforts and those initiatives of you and others who are 
basically advocating for more responsible human rights policies 
in China, which would include labor practices, ultimately some 
of those ``advantages'' which enable them to produce things so 
cheaply there by abusing labor will be ended. But on our side 
there, is a lot that we can do that we control directly, 
including incentives from manufacturers. It is not all in the 
R&D budget. Some of it is going to be in the tax budget and the 
expenditures that we make implicitly by providing tax 
incentives for manufacturers to stay here. And there is, I 
believe, a good deal of that in the President's budget as well, 
but it is not my domain.
    Mr. Wolf. Are you aware of the hearing we are having?
    Dr. Holdren. Well, I am now. I am tempted to come.
    Mr. Wolf. Well you are welcome to come. We would like----
    Dr. Holdren. It ought to be a great discussion.
    Mr. Wolf. Yeah. But the purpose is to bring it down to 
reality, how can we bring those jobs back?
    Dr. Holdren. Absolutely.
    Mr. Wolf. Because they are not making baseball caps. They 
are making things that are really important. So you are 
welcome. We will officially invite you to come.
    Dr. Holdren. The administration absolutely shares that 
priority.
    Mr. Wolf. Oh, I know you do.
    Dr. Holdren. And we want to get this done.
    Mr. Wolf. I guess Mr. Fattah, do you want to?
    Mr. Fattah. Just one quick last thing and I will turn it 
back to the chairman. With the chairman's support and in fact 
his leadership, a number of items were put into the bill last 
year that will come to fruition. One is around technology 
access for small manufacturers. Another was around cost benefit 
analysis that can be done for companies who want to move, or 
want to look at moving, jobs back to the United States. And the 
MEP, which has been my number one priority, has been a very 
important factor in terms of helping small manufacturers on the 
ground.
    But when you talk about the administration's focus on large 
manufacturers it is very good news. I was out at the Boeing 
plant outside of Philadelphia, and three years ago they had 
2,000 people working, and they now have triple shifts, weekend 
shifts. They have used technology that enables them to put 
these Chinook helicopters together more quickly and have 
literally added more jobs with the technology, which is not the 
usual correlation between technology in the plant and jobs.
    So there is a lot that can be done. The advanced 
manufacturing, the nanotech stuff that is being done is very 
important. The committee is very interested in helping the 
administration on this manufacturing front. And in the Commerce 
section we funded a program called the National Innovation 
Marketplace, which is now literally locking in manufacturers to 
federal opportunities. And it is working very, very well. So 
there are a lot of different pieces to this.
    Obviously the administration is focused on kind of the 
large end manufacturers. But, we have tens of thousands of very 
small manufacturers, 500 jobs or below, that are critically 
important to us, to our positioning relative to our 
manufacturing base. So I know some of the economists, some of 
the opinion shapers, want to say that you are off on a wild 
goose chase in this manufacturing. And I do not agree. The 
chairman does not agree.
    Dr. Holdren. And we do not agree.
    Mr. Fattah. We think that it is an appropriate focus that 
part of our economic prosperity long term has got to be to hold 
on to the manufacturing jobs we have, and to increase and 
retain as we go forward, both large and small. So thank you for 
the work that you are doing on this. And Mr. Chairman, I am 
concluded.
    Mr. Wolf. Is that the helicopter place where the railroad 
track is?
    Mr. Fattah. Absolutely. Right in your neighborhood. Let me 
bore you with one other story.
    Mr. Wolf. I applied for a job there to work in the Xerox 
department, then they called it Xerox, to copy blueprints there 
back in----
    Mr. Fattah. Let me bore you with one other story. There is 
a little company over there in southwest called Cover Sports. 
They have been there 80 years. They make tarps for the baseball 
teams, the Washington Nationals, the Phillies. They are right 
on Woodland Avenue, around 54th Street. And they have 80 
employees there, and they just bought a new piece of equipment 
from a company out in Ohio with some federal help that is 
actually allowing them to compete with the only company in the 
world they compete with, which is in China. So. All right, 
thank you.

                      JOINT POLAR SATELLITE SYSTEM

    Mr. Wolf. Thank you. Joint Polar Satellite System. The 
President's budget puts forward yet another new proposal on the 
JPSS polar orbiting satellite. When the first contracts were 
awarded for NPOESS a decade ago, the cost was to be $7 billion 
and the first satellite was to have flown in 2008. But the 
current baseline cost is $11.9 billion. I understand that 
recent independent cost estimates increase the price tag to as 
much as $16.1 billion for a reduced set of capabilities and an 
estimated first launch in 2017. In response, you have put 
together a new proposal in the fiscal year 2013 budget to lower 
the life cycle cost. Can you describe the new plan, its 
estimated cost, and its capabilities?
    Dr. Holdren. Okay. First of all, Mr. Chairman, as you know, 
we inherited a mess in NPOESS. And I was instructed by the 
President to fix it. The reason that is my responsibility is it 
is an interagency effort that involves NOAA, NASA, and DOD. It 
proved a great challenge to bring those agencies together in a 
manner that ultimately yielded a solution. We think we have it.
    The current plan puts a large part of the responsibility in 
NOAA, which has required providing NOAA with the money to do 
that. We have a program management structure that provides 
alignment with JPSS acquisition with the NASA Goddard Space 
Flight Center, strong program management and oversight, a cap 
on the life cycle costs. And we have got NOAA and NASA working 
closely together, and the DOD part basically separated off 
except for the ground support which remains joint. And we are 
committed to getting this right. But it has been a huge 
challenge, I have to say. And as you know it is crucial because 
these polar orbiting satellites provide indispensable both for 
weather forecasting, storm tracking, and for climate 
monitoring. And we have got to get it right.
    Mr. Wolf. If the other capabilities were here, where will 
this be? Are there going to be gaps? Or is this going to be 
just as good----
    Dr. Holdren. Well I think we are going to end up having to 
fly some instruments that initially we thought would fit on a 
single platform as free fliers on additional satellites. I 
mean, there have been complications with the development of the 
instruments, for example. I mean, the trouble is, like rocket 
science, this is a very complicated business. And obviously 
people sometimes estimate that something can be done within a 
given budget or within a given size, a given weight to fit on a 
given platform, and it does not work out that way. And we have 
had a lot of challenges----
    Mr. Wolf [continuing]. Comparable or----
    Dr. Holdren. Yeah, I think we are going to get close. There 
are some instruments that are still problematic and are not 
going to be able to fly on the JPSS birds that are currently 
programmed, that provide information that we really would like 
to have. But the most crucial instruments will fly. But it is 
now quite likely that there will be a gap in some of this 
coverage and that the existing satellites that we have up there 
will expire before the new ones are in place. And that is going 
to be very unfortunate.

                DISSEMINATION OF STEM EDUCATION RESEARCH

    Mr. Wolf. OK. I am going to ask some STEM questions, and 
then let you finish. I appreciate the good work that Dr. Wieman 
and Dr. Suresh did to review all Federal STEM education 
programs and put together their report. I was struck by the 
breadth of the STEM programs the government currently has. But 
I am concerned that there is not enough being done to put some 
of these materials in the hands of the teachers and the 
students. Is there not, or should there not, be a one stop shop 
for teachers to access federally developed curricula on STEM 
topics? Does the Federal government have a formal mechanism for 
distributing STEM education materials developed by Federal 
agencies to schools and science teachers around the country? We 
did an event with NSF, and they had a roll out, but I talked to 
teachers and they do not know about it. I talk to school 
districts and they do not know about it. I wrote governors, and 
they did not seem to know anything about it. So is there a one 
stop place that, if I were a science teacher, I could find out 
what is the latest that I could go to? Then I could approach my 
administration and see if they would permit it. Or should there 
not be a one stop place?
    Dr. Holdren. The last question is the easiest to answer. 
There should be a one stop place. And given the focus of 
providing better access to government data and insights through 
the open.gov program that we have had, and has had many 
successes, we ought to be able to get this right as well. I 
know there is an effort that Dr. Wieman has been leading in the 
NSTC to understand the full range of programs that are out 
there, and what they are all doing, and which ones are working 
and which ones are not. And there will be a strategic plan 
forthcoming shortly. And my hope is that it will include 
recommendations for improving access to all of the results of 
the Federal work in STEM education. To my knowledge, there is 
not now a comprehensive one stop place. There are----
    Mr. Wolf. Who would put that together? Who would, if you 
all did it, who would put it together? Where would they go? Do 
you think it should be----
    Dr. Holdren. Well it might be at NSF. It might be at the 
Department of Education. Again, I do not want to preempt the 
recommendations of that study group which I have not been part 
of.
    Mr. Wolf. They have all done good work. And now the real 
danger is, you know, at the end of this administration it just, 
it is sort of there. Is there going to be a way to tie it 
together so that every congressman can do a newsletter? I can 
write to the Secretary of Education in Governor McDonnell's 
administration and say every school district should know this. 
I think there has to be. Because the real danger is, you know, 
it is out there and doesn't get used.
    And another question you can answer, and you can add it 
together, Dr. Wieman, the STEM education expert, has told me 
that the research community and Federal education agencies have 
learned some key STEM education findings and methods that do 
not appear to be widely known or practiced in the field. The 
question is, and maybe he should answer for the record, or you 
can answer now, what are the three or four most important of 
these findings and methods that have not made their way into 
the state and local systems? And what are you doing to get this 
out? Are you going to do a conference? I do not know how the 
educational system works. Are you going to do something to get 
these three and four things that you all have done distributed? 
I mean, I think you have done a good job. So now, it says in 
the Bible do not hide your light under a bushel basket. Let 
people see. How are you going to let them see and get it out to 
people so that they can access it and do something about it?
    Dr. Holdren. Well first of all, two points. On the access 
of the wider teaching community to the advances that have been 
developed through Federal work on improving STEM education, the 
strategic plan, which will be out shortly, we will be making 
recommendations on access to this information and to best 
practices. Whether they will recommend a one stop shop, I do 
not know. I have not seen the draft report. I do not know 
exactly what they are going to recommend. But I have been 
assured that there will be recommendations on how we can 
improve access in the wider community to this information. 
Second point----
    Mr. Wolf. Do you know the three or four things that he 
said?
    Dr. Holdren. Yes. In fact, the basic insight that Dr. 
Wieman and his colleagues have developed relates to the value 
of inquiry-based approaches that are not simply lectures. But 
which engage classes in answering questions in a sequential and 
a structured way. And there has been a large body of research 
in cognitive science, including some in neuroscience, about how 
people learn that has helped establish why these alternative 
approaches work better. Dr. Wieman and some colleagues 
published an article in the journal Science, a major article, 
about these findings and about the methods. I will be happy to 
send it to you, which describes them in detail. But we have a 
number of plans in the oven, that I hope will be fully baked 
soon, on how to advance the propagation of these enormously 
more effective techniques for college teaching of science and 
math but they probably ultimately will propagate downward in 
the grades as well.
    So I think this is an area of enormous potential. And we 
will get Dr. Wieman's article right over to you, which 
describes it in some detail.
    [The information follows:]

    A copy of the article was provided to the Subcommittee on March 2, 
2012, but for copyright reasons cannot be reproduced here.

    Mr. Wolf [continuing]. Directing that Dr. Wieman's 
information and the work that he has done----
    Dr. Holdren. I think we will have some ideas for you very 
soon about that.
    Mr. Wolf. I have a number of other questions, but I am not 
going to keep everybody. We will go to Mr. Culberson, and then 
Mr. Fattah. Then I think what we will do, we are going to vote 
fairly soon, we will just submit for the record, unless there 
is something that you have been thinking that if you do not 
find out tonight that your evening will be wasted--thank you.
    Mr. Culberson. Thank you, Mr. Chairman. The National 
Science Foundation Director when he was before this Committee 
last year, said they were searching around for the ideal model 
for a science and technology school. And you really do not have 
to go any farther than Fairfax County. Tom Davis and Frank Wolf 
spearheaded an effort to create what has turned out to be the--
--
    Mr. Wolf. Well a lot of other people----
    Mr. Culberson. But you and Tom Davis were key in that deal.
    Mr. Wolf. A lot of--no. A lot of people out there did it.
    Mr. Culberson. Thomas Jefferson.
    Mr. Wolf. The point is, people did it----
    Dr. Holdren. Thomas Jefferson, yeah. And we would love to 
replicate that all over the place.
    Mr. Wolf. Have you been out there?
    Dr. Holdren. I have not, but I really want to go. I was 
actually invited to give a commencement address there the year 
before last. And I had an irreconcilable conflict, I was not 
able to do it.
    Mr. Wolf. They would, and I am going to give you----
    Dr. Holdren. Sure, because I would love to go out there. 
No, I would love to go out there. And I have heard so much 
about it.
    Mr. Culberson. Why do you not let me host him? I mean, I 
have got the----
    Mr. Wolf. He can, he is the big man on campus. He can, his 
daughter attends.
    Dr. Holdren. I know that from a conversation we had after a 
previous hearing, and that is great. And I would love to, I 
would love to get out there.
    Mr. Wolf [continuing]. If you could do that?
    Mr. Culberson. Absolutely. It would be my pleasure to help 
host----
    Dr. Holdren. No, I would love to do that.
    Mr. Culberson [continuing]. Set that up for them to host 
you, Dr. Holdren. Seriously.
    Dr. Holdren. No, I am serious.
    Mr. Culberson. It would be a nice way for us to get to know 
each other a little better.
    Dr. Holdren. Yep. No, I would love to go.
    Mr. Culberson. Because next to my family my highest 
priority in life is being a good father and a good husband, and 
then this job takes care of itself. Truly. I do operate that 
way. But my, really my greatest passion here is the sciences. 
And knowing that if we do not make those investments the future 
of the country is bleak.
    Dr. Holdren. We are in complete agreement about that.
    Mr. Culberson. I would be delighted to help put that 
together.
    Dr. Holdren. I would love to do that.
    Mr. Culberson. And there is frankly no better way for 
people to get to know each other than through their kids. I 
would be delighted. And it really is something I care a great 
deal about, and all the investments in the sciences.

                             SUPERCOMPUTING

    I wanted to ask specifically about if I could, and thank 
you for the extra time, Mr. Chairman, because I know this is 
something of interest to you, and to Mr. Fattah, and the 
subcommittee, is supercomputing. And one of my favorite 
subscriptions that I enjoy, I am behind in catching up to them, 
is the journal Science. But I did see this. This is January 27, 
I just got through this one. And I have got it on my iPad 2, 
which of course was made in China. On Robert's actually, I am 
still using an iPad 1.
    But the January 27 issue talks about, there is an article 
in here about the move to exascale computing, which is 
obviously the next big leap. And they point out that the 2012 
spending bill that we approved has money in the Department of 
Energy budget, certainly we here in this subcommittee, Mr. 
Chairman and Mr. Fattah, want to make sure that whatever we can 
do through the National Science Foundation and NIST, that the 
United States is the one that builds the world's first exascale 
computer. But the Department of Energy's budget contained in 
the 2012 spending bill, Mr. Chairman, $1.06 billion for DOE's 
program in advanced computing. Quoting from the article, 
``which includes a downpayment to bring online the world's 
first exascale computer. Congress did not specify exactly how 
much money would be spent on the exascale initiative for which 
DOE had requested $126 million. But it asked for a detailed 
plan which is due next month.''
    And I know this is in your bailiwick, Dr. Holdren. So I 
hope, I want to bring this to your attention. And if you could 
help the subcommittee understand what we need to do in this 
subcommittee, on the Appropriations Committee, and in Congress 
to make sure that the United States does build the world's 
first exascale computer. Because as the article points out the 
threat is very real, quoting from the article, ``Japan and 
China have built and operate the three most powerful 
supercomputers in the world.'' And it is very distressing, but 
the Chinese have the fastest machine, according to this 
article, which shows that they are, the Japanese have a machine 
that runs at 11.3 petaflops. They have got two machines. The 
Chinese have five petaflop machines and the United States has 
six. It is just unacceptable. And they are rapidly overtaking 
us.
    I was struck also, Mr. Chairman and Mr. Fattah, that by the 
year 2015, in a briefing I got from the Commander of the 
Pacific Fleet, by 2015 the Chinese will be able to implement 
their own Monroe Doctrine for the South China Sea. They will be 
able to exclude anyone else in the planet. They will be able to 
blockade the Moroccan Straits. They will be able to just 
dominate the ocean in that part of the world. They are rapidly 
advancing on all fronts. Stealing us blind. Intellectual 
property is being stolen so rapidly that I discovered in 
Aviation Week and Space Technology an article I shared with the 
chairman, that the reason, the principal reason the F-35 
program has been so expensive, and has been so delayed, is that 
as fast as our guys develop a new piece of technology and have 
a meeting over the computer, over the internet to say, ``Look, 
here is our hottest new piece of stealth technology for the F-
35,'' Chinese hackers have logged onto the meeting and are 
watching it and stealing it as fast as we put it up and show 
it. So we have got to then develop a new piece of technology.
    This is extraordinarily important. Could you, and it 
reinforces also the anecdotal evidence about the F-35 program, 
Dr. Holdren, about why the chairman is so properly concerned 
about any collaboration of any kind with the Chinese. Mr. 
Chairman, the chairman of the Intelligence Committee said there 
is only two types of companies in America. Those who know they 
have been hacked by the Chinese, and those that do not know 
they have been hacked by the Chinese, because they have all 
been hacked by the Chinese. Could you ask, could you talk to us 
a little bit about what your office is doing, what the White 
House recommends on investing in the next generation of 
computers, and in particular to make sure the United States is 
the one that builds the world's first exascale computer?
    Dr. Holdren. Yeah, happy to talk about that, Congressman. 
The basic budget for DOE's advanced scientific computing 
research program, which has the exascale computing effort 
within it, is in the President's 2013 budget proposal at $456 
million. That is up 3.3 percent over 2012 enacted. Within that 
research portfolio there is in the 2013 budget money to fund 
research and evaluations prototypes on the technologies that 
are going to be crucial for exascale computing.
    For the benefit of those not familiar entirely with the 
technology, petaflops are 10<SUP>15</SUP> flop per second, 
floating point operations per second. And exascale is 
10<SUP>18</SUP>. So it is another factor of a thousand 
increase. My understanding is that we will take over, the 
United States will take over the number one position in the 
world again sometime this year when a new computer that is 
under development by IBM comes online.
    Mr. Culberson. It is faster than the Japanese----
    Dr. Holdren. It is faster than the Japanese computer. But 
obviously we are in a competition with the Japanese and with 
the Chinese for the leadership in this domain. This is 
something that we ought to win and we need to make the 
investments, and the President's budget proposes that we do 
that.
    Mr. Culberson. What have you recommended to NSF or NIST to 
this subcommittee on supercomputing?
    Dr. Holdren. Well, I think the nexus of our exascale 
computing effort is in DOE at this point. I am sure that there 
is work going on at NIST in the advanced manufacturing heading 
and at NSF in some of the basic research that they do that 
ultimately will be germane to future generations of computers. 
But the actual task of embodying what we know in computers that 
will be the fastest in the world is located in the DOE's Office 
of Science. And I am not aware of any reason that we should 
change that. Obviously we should continue to support the 
research and NIST and the research at NSF that provides the 
underpinning, the basic research advances that give us the 
potential to move further ahead in this very important applied 
domain.
    But my concern, very frankly, is the same as yours. That we 
must continue to make the investments both in basic research 
and in applied research and development to seize and maintain 
the lead in these crucial technologies. I mean, the biggest 
worry I have is not merely that the Chinese are stealing our 
intellectual property now. I worry that if we do not make the 
investments in R&D, 20 years from now we may not have any 
intellectual property that the Chinese find worth stealing. 
That would be an even bigger problem. We need, basically, to 
keep the edge in innovation that we have always had and use it 
to embody new technology in products, in processes, in jobs, 
and faster computers, in order to maintain our place in the 
world, our prosperity, and our security.
    Mr. Culberson. Well the second critical piece of that is 
the future generations of scientists, engineers, and 
physicists, and mathematicians that will fill those slots. And 
I look forward to taking you up to Thomas Jefferson and 
introduce you to a lot of them, and to see how we can replicate 
that model nationwide.
    Dr. Holdren. I look forward to that as well.
    Mr. Wolf. Well thank you very much, and the hearing will be 
adjourned.
    Dr. Holdren. Thank you.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                         Wednesday, March 21, 2012.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

                                WITNESS

CHARLES F. BOLDEN, JR., ADMINISTRATOR, NATIONAL AERONAUTICS AND SPACE 
    ADMINISTRATION

                       Chairman's Opening Remarks

    Mr. Wolf. Good morning, Mr. Administrator. We welcome you 
to the hearing today on the fiscal year 2013 budget request for 
the National Aeronautics and Space Administration.
    Our witness is NASA Administrator Charles Bolden, and we 
want to thank you again for being here.
    NASA's budget request for fiscal year 2013 totals $17.8 
billion and is essentially flat from fiscal year 2012. That 
relatively flat total, however, masks a number of significant 
reallocations of funding within the agency.
    If we look at the substance of these funding shifts as an 
expression of your programmatic priorities, it would appear 
that you are placing the most emphasis on commercial crew, 
space technology, and the James Webb Space Telescope, while de-
emphasizing your work in planetary science, aeronautics, 
exploration, and education. Allocating scarce resources in a 
time of fiscal constraint is a complicated and subjective task, 
which is why I requested in last year's bill an outside look at 
the balance between NASA's missions and the feasibility of its 
goals. We don't have the results of that review to inform our 
discussion today, but I am sure that other members already have 
thoughts about your proposal for where we should be focusing 
our investments.
    In addition to discussing budgetary priorities, I would 
also like to use this hearing as an opportunity to check in 
with you on some important policy issues, including the 
question of interaction or cooperation between NASA and China. 
The administration is in favor of closer ties in areas of space 
science and exploration; as you know, I strongly disagree. 
China, an economic competitor who has been proven to steal from 
us, doesn't need or deserve our help to improve their own 
capabilities, and I hope the administration comes to realize 
this soon.
    We will ask you to give a summary of your written 
testimony. Then we will proceed with questions.
    Before that, I turn to Mr. Fattah for any opening comments.

                    Ranking Member's Opening Remarks

    Mr. Fattah. Thank you, Mr. Chairman.
    Let me welcome the Administrator of NASA again to our 
committee. I look forward to your testimony, and I think that 
you have provided since your appointment in 2009 extraordinary 
leadership for NASA over some very challenging times as the 
recasting of a mission into deep space under President Obama's 
leadership in the advent of commercial crew, along with the 
reality of thinking about how we deal with the International 
Space Station and the changes there.
    So I think that the Chairman is correct that, obviously, 
within the budget framework of the $17 billion, you have to 
deal with a number of different priorities. I know that the 
Administration has a set of goals that you are trying to 
accomplish. Obviously, we want to see how the appropriations 
process fits in and where there may be a shared consensus about 
the direction of space exploration. It is critically important, 
however, that we understand your priorities and your needs as 
you go forward, and I welcome you and your testimony today.
    I thank the Chairman for holding this very important 
hearing.
    Mr. Wolf. Thank you, Mr. Fattah.
    Mr. Administrator, you may proceed.

                 Administrator Bolden's Opening Remarks

    Mr. Bolden. Chairman Wolf, Ranking Member Fattah, today it 
is my privilege to discuss the President's fiscal year 2013 
budget request for NASA. All of us at NASA are very grateful to 
the Congress and to this subcommittee for the strong level of 
support we continue to receive.
    Our requested budget, as you mentioned, Mr. Chairman, is 
$17.7 billion, which will enable NASA to continue to execute 
the bipartisan space exploration plan agreed to by the 
President and the Congress in 2010.
    Despite the constrained fiscal environment facing the 
Nation, this request supports an ambitious civil space program 
that puts us on a path to achieving a truly exciting set of 
goals--to send humans to an asteroid and ultimately to Mars, 
and to broaden human activity in low-Earth orbit.
    The International Space Station (ISS) assembly is now 
complete, allowing us to focus on full utilization of the 
Station's research capabilities. NASA is operating a fleet of 
spacecraft to investigate Earth, the solar system, and the 
universe. All of this is critical to ensure America's continued 
leadership in space exploration as well as our stewardship of 
Earth. The fiscal year 2013 request supports the implementation 
of key priorities for NASA agreed upon by the President and 
congressional leadership.
    First, American astronauts continue to live and work in 
space aboard the International Space Station, conducting 
research to benefit life here on Earth and prepare us for deep 
space human exploration. NASA is committed to making this 
national resource available to the broader scientific and 
commercial research communities.
    We are also committed to ensuring that American companies, 
launching from U.S. soil, transport our astronauts and their 
cargo to the Space Station. This year, we will see the first 
commercial flights to the ISS, and with Congressional approval 
of the funding request, we are on track to have American 
companies transporting our astronauts to Station by 2017.
    Second, NASA is on track to develop a flexible, deep space 
launch system that will ultimately be the most capable in 
history. The Space Launch System, or SLS, heavy-lift rocket, 
and the Multi-Purpose Crew Vehicle Orion will carry American 
astronauts beyond low-Earth orbit and into deep space within 
the next decade. We are pushing forward with contracting and 
design efforts to advance this critical next-generation space 
exploration system. The fiscal year 2013 budget request 
supports our plans for an uncrewed SLS flight in 2017 and a 
crewed test mission by 2021. A robust technology development 
program will be key to the success of our synergized robotic 
and human exploration.
    Third, we propose to continue progress toward the launch of 
the world's most advanced telescope in 2018. The James Webb 
Space Telescope (JWST) will operate deep in space to orbit the 
Sun and look out into space from its vantage point nearly 1 
million miles from Earth. Over the past year, NASA has made 
important adjustments to JWST management and put the project on 
a sound financial footing. NASA is confident that the fiscal 
year 2013 request supports a 2018 launch of JWST.
    NASA's budget request supports a portfolio of innovative 
science missions, resulting in a stream of data from orbits 
around the Sun, Mercury, the Moon, the asteroid Vesta, Mars, 
and Saturn. We now have missions on the way to Jupiter, Pluto, 
and Mars. Sixteen Earth science missions, currently in orbit, 
study Earth as an integrated system.
    The Hubble, Spitzer, Chandra and Fermi Space Telescopes 
continue to make groundbreaking discoveries on an almost daily 
basis. Last year, the MESSENGER spacecraft entered orbit around 
Mercury. The Ebb and Flow satellites began mapping the gravity 
field of the Moon; and Juno, launched last August, is on its 
way to Jupiter. However, tough choices had to be made, so we 
will not be moving forward with the planned 2016 and 2018 
ExoMars missions we had been planning with the European Space 
Agency.
    Instead, NASA is developing a new integrated strategy for a 
sequence of strategically selected missions that increase 
scientific knowledge, advance key technologies, and inform and 
enable human exploration goals. Our plan, including the 
framework for a mission to take advantage of the 2018-2020 
launch opportunity, is targeted for completion, hopefully, in 
time to support the fiscal year 2013 appropriations process. 
The fiscal year 2013 request supports this approach, and it 
will be informed by extensive coordination with the science 
community and our international partners and, of course, this 
Congress.
    The fiscal year 2013 budget request continues to support 
robust Mars exploration including two spacecraft currently 
orbiting Mars; the Opportunity rover on the surface; a multi-
year exploration of Mars by the Mars Science Laboratory 
Curiosity; and the planned 2013 MAVEN mission to explore the 
Mars upper atmosphere.
    The fiscal year 2013 budget request supports continued 
advances in new aviation, science, and space technologies, 
absolutely essential to enable NASA to achieve its ambitious 
goals. At the same time, NASA technology research seeds 
innovation, supports economic vitality, and helps to create new 
jobs and expand opportunities for a skilled workforce.
    With the 2013 request, NASA will conduct aeronautics 
research to enable realization of the nation's Next-Generation 
Air Transportation System, or NextGen, and the safer, more fuel 
efficient, quieter, and environmentally responsible aircraft 
that will operate within NextGen.
    To inspire the next generation of scientists and explorers 
and to foster the development of the U.S. workforce, NASA's 
education programs will focus on demonstrable results and 
capitalize on the Agency's ability to engage students and 
educators. To help today's young people envision their future 
in science, technology, engineering, and mathematics (STEM) is 
our goal.
    NASA is grateful for the American people and you, their 
representatives here on the subcommittee for your continued 
support in these difficult and challenging times.
    Mr. Chairman, I thank you very much, and I look forward to 
your questions.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                       PLANETARY SCIENCE PROGRAM

    Mr. Wolf. I thank you, Mr. Administrator.
    I understand that the budget pressures required you to make 
cuts to your science programs, but I don't understand why those 
cuts are overwhelmingly in planetary science. Is planetary 
science the lowest priority within the directorate? Are there 
no other activities within Earth science, astrophysics, or 
heliophysics that could have been reduced to lessen the impact 
on planetary science?
    Mr. Bolden. We took a look at the portfolio. The area that 
seemed to actually be in the best shape was our Mars 
exploration, contrary to popular belief. As I mentioned in my 
opening statement, we have a rover that is currently operating, 
continuing to provide data; two orbiting satellites that 
continue to pump data back to us on Mars and help us frame the 
strategic selection of future missions that will be affordable.
    We have the Mars Science Laboratory Curiosity, that is en 
route to Mars, scheduled to land on the fifth of August. It 
will be the largest, most advanced rover ever to be put on any 
other planet; and it will then begin the return of information 
that dwarfs anything that we have ever received before. It will 
actually have a drill that will be coring and getting data from 
the Mars surface. It will have high-definition 3D cameras, 
color cameras that will be bringing back images.
    And then we have MAVEN which is going to be looking at 
Mars' upper atmosphere, which is critical to our understanding 
of the atmosphere as we continue to try to send larger and 
larger vehicles to the planet, such as a human mission.
    Mr. Wolf. The planetary science decadal survey says that 
any future Mars activity must contribute to the goal of sample 
return, which is the only way to make further fundamental 
advances in Mars science. Can your smaller, refocused mission 
contribute in a meaningful way to sample return? And, if not, 
how will it be consistent with the decadal survey findings?
    Mr. Bolden. Mr. Chairman, our belief is the smaller, 
focused missions will help us to better determine the landing 
site that you want for a sample return.
    Right now, MSL is going to land in the crater that was 
chosen because we think it is the most likely place where we 
will find water. Most of my planetary scientists tell us when 
we are talking about Mars that we want to follow the water. 
This will be our first effort to go to a place that we 
absolutely know or we are very confident we will get the best 
chance of finding out if there was ever life there or if there 
is life on Mars.
    So we actually believe by bringing about a consistent 
pattern of less expensive, more focused flights, we will be 
better prepared to set up a Mars sample return.
    My position has been and continues to be that, while we 
don't have the resources for a sample return mission now nor 
have we had them in any of the budgets that I have submitted, 
everything that we do will not preclude a future Mars sample 
return mission when the resources are available.

                       JAMES WEBB SPACE TELESCOPE

    Mr. Wolf. Last year, we had to cut $156 million out of 
NASA's science and management budget to keep the James Webb 
Space Telescope on track for the 2018 launch date. This year, 
NASA has proposed an additional $99 million in science cuts to 
keep pace with the Webb replan. Now that we have seen two years 
worth of Webb impact on the results of your science portfolio, 
do you still believe that replanning and continuing the program 
was the right decision?
    Mr. Bolden. Yes, sir, I absolutely do. The Hubble Space 
Telescope changed our entire outlook on the universe. It has 
provided us data. It helps us to rewrite textbooks every day, 
and James Webb will dwarf that. We expect that the return from 
the James Webb Space Telescope will be anywhere from 50 to 100 
times as good as the Hubble Space Telescope. So not only as a 
national initiative but as an international mission, it is 
critical for our further understanding of the universe; and I 
think the investment is well worth the time.
    I will comment that we could have taken cuts from the 
science budget and other parts of NASA's budget to bring James 
Webb to the capability of flying, say, in 2014, but that did 
not seem prudent. The prudent thing to do seemed to be to take 
the hit on the launch date, move it out to 2018 so we would not 
decimate other parts of NASA's budget.
    I think we have maintained a balanced portfolio. We still 
plan to accomplish the scientific objectives that were laid out 
in the budget that I submitted when I first became the NASA 
administrator in 2011. Time frames have stretched out in some 
cases. But, scientifically, I don't think we are going to miss 
any of the objectives either from the decadal survey.
    And I need to correct the record on one thing. We never had 
a Mars sample return mission within our budget. So people think 
that by stepping away from ExoMars we are stepping away from a 
Mars sample return. There was no Mars sample return mission in 
the two missions being planned for ExoMars. The 2018 mission 
was a mission that would have a European drill that would core 
even deeper than MSL is going to do. MSL goes inches. The 
European drill hopefully will be able to go two meters into the 
surface. So it will give us much better information.
    The plan was that that material would be then be cached. It 
would be put into a storage container of some type and then we 
would have to go off and determine what subsequent missions 
would enable us to either go to the surface and pick it up or 
put it in orbit and fly a mission--for example, the first human 
mission to orbit Mars--to go and pick that sample up and bring 
it back.
    So I think people misunderstand what ExoMars was. There was 
no Mars sample return mission in ExoMars. NASA, although that 
is a prime objective of the decadal survey, I think everyone on 
the decadal survey study team understood we had no sample 
return mission on the books. We can't afford it right now.
    Mr. Wolf. Is it accurate that the planetary science decadal 
survey says that any future Mars activity must contribute to 
the goal?
    Mr. Bolden. That is correct. What I am saying is that the 
missions that we are trying to plan now in our restructured 
Mars robotic program will in fact contribute to our ability to 
plan and execute a future Mars sample return mission. It is 
still to be determined--I am one who believes we do need 
samples back before we send humans. That is not universally 
accepted, this committee should understand. There are some--Mr. 
Zubrin, for example, with the Mars Society--who will tell you 
he vehemently disagrees. We know enough about Mars that we 
could send humans today is the belief of some. I am not one who 
shares that belief, but I am not smart enough to know. So our 
intent is to mount an effort to fly a future sample return 
mission so we know what is on the planet before we send humans.
    Mr. Wolf. The original cost of James Webb was going to be 
$1.5 billion; is that correct?
    Mr. Bolden. Mr. Chairman, if I remember correctly--and it 
was long before my time here--the original cost of James Webb 
was billed to be much less, and it was a figment of people's 
imagination.
    Mr. Wolf. Do you know that figure, roughly?
    Mr. Bolden. I think it was at one time $800 million when it 
was first envisioned, and it was a figment of people's 
imagination.
    Mr. Wolf. But that is the way it was sold?
    Mr. Bolden. Yes, sir. That is the way it was sold.
    Mr. Wolf. So the fiscal year 2012 CJS bill included a 
provision capping Webb formulation and development costs at $8 
billion and requiring--and I think that is the important word--
NASA to get the program reauthorized if costs increased any 
further?
    Mr. Bolden. Yes, sir.
    Mr. Wolf. NASA has proposed, though, to delete the cost 
control language in the fiscal year 2013 request. Should this 
be seen as a sign that OMB took control of this budget, or that 
you don't intend to abide by the cap and reauthorization 
provision?
    Mr. Bolden. Chairman Wolf, I fully intend to comply by the 
cap. There is no intent.
    Mr. Wolf. So this is not necessary, what is being requested 
with regard to deleting the cost control language?
    Mr. Bolden. Mr. Chairman, I will have to take for the 
record the response to that question. Because I don't recall 
the rationale that we were giving for deleting the cost control 
language, if that is in fact what we did. All I can tell you 
now is my intent is to abide by the cap.
    Mr. Wolf. So we should ignore that request then?
    Mr. Bolden. Mr. Chairman, I said I will get you an answer 
on that. I should know, but I don't know the rationale for the 
request to delete the cap. And I will get that information and 
provide it to you.
    [The information follows:]

                       James Webb Space Telescope

    The FY 2012 enacted appropriations language for Science (P.L. 112-
55) is consistent with NASA's replan for JWST. For FY 2013, the 
Administrator recently re-affirmed at the hearing before the 
Subcommittee on March 21, 2012 that NASA intends to abide by the cap. 
NASA has no objection if the language is included again in FY 2013 
recommendations by the House and Senate Committees on Appropriations.

                        JOINT CONFIDENCE LEVELS

    Mr. Wolf. One last question in that area. It is NASA's 
policy that all projects budget to a 70 percent joint cost and 
schedule confidence level estimate. The budget request, 
however, shows that the Webb cost estimate has a joint 
confidence level of only 66 percent. Why is your highest 
stakes, most complex science mission budgeted below the 
agency's estimation standard? Should we be concerned that the 
Webb schedule or budget are not sufficiently robust?
    Mr. Bolden. Chairman Wolf, the schedule and the replan we 
feel is very robust. We found recently, as you point out, that 
the JCL level was 66.6 percent, less than 70 percent.
    Mr. Wolf. Does it trouble you that it falls below the 70 
percent standard?
    Mr. Bolden. No, sir. The confidence in our ability----
    Mr. Wolf. Curve, kind of?
    Mr. Bolden. In this case--and this is out of my league--but 
if you look at the curve, when we look at the confidence of our 
ability to do this program, what was given we could spend this 
much or this much, the curve goes up--what they call 
asymptotic. It just turns straight up. So to put this amount of 
money on it or that amount of money on it does not change the 
confidence that we can execute in 2018 sufficiently that I 
wanted to do that. And that is the reason we chose the 
additional funds that we did request instead of a lot more.
    JCLs are great. They are new, relatively new to us. We have 
several missions that demonstrate to us that they are the way 
to go. Juno, GRAIL, several other missions that have come since 
we decided to use the JCL process.
    James Webb, unfortunately, was pretty much sealed in 
concrete before we started using JCL, so we have tried to apply 
JCL to James Webb, but it gives us confidence that what we did 
prior to JCLs was good and we have a good replan.
    Mr. Wolf. Thank you.
    Mr. Fattah.

                        COMMERCIAL CREW PROGRAM

    Mr. Fattah. Thank you.
    Mr. Administrator, I want to turn a little bit to the 
Administration's priority on commercial crew. There has been a 
lot of news lately in terms of where we are in commercial crew. 
Why don't you summarize before I ask a few questions about how 
you see the progress in relationship to this exciting effort to 
engage American enterprise in helping to carry on low-Earth 
orbit, interactions with the Space Station on a routine basis, 
and the like.
    Mr. Bolden. Congressman Fattah, I feel very good about 
where we are. In spite of the low amount of funding in this 
fiscal year's budget, we still have what I would call a very 
good stable of potential proposers for the commercial crew 
system that we hope to have in place by 2017. We know, because 
they have been active with us through Space Act agreements, 
that we have no less than seven, but we anticipate that there 
will be many more than that, who will ask for an opportunity to 
be considered for funds from the Space Act agreement that we 
choose to use to develop the system to take humans to space. I 
am very confident in what we have going right now.
    If I may add, while it is different, we will see this 
spring and summer the demonstration of private industry's 
capability of doing what NASA used to do. That is taking cargo 
to the International Space Station. As I have testified in 
previous hearings, that is a big deal. That is an incredibly 
big deal. When we have two private companies--one I think is 
publicly traded, the other is not, so one in personal 
investment and the other is corporate investment. When we see 
them successfully put a capsule into space, rendezvous, and be 
berthed to the International Space Station and become a part of 
the International Space Station, that is a huge deal for the 
United States of America.
    Mr. Fattah. Obviously, the leadership to move this forward 
when there was so many dollars, but you are referring to Falcon 
9 and the efforts that are under way by SpaceX and some of the 
other companies. As we move forward, the Administration's 
request for commercial crew is a lot more significant this 
year, at least based on active numbers from last year. Will you 
explain where these dollars would fall in play?
    Mr. Bolden. Congressman, if the committee will think back 
to the Augustine report, at that time, the amount that was 
deemed necessary for a viable commercial space program I want 
to say was $6 billion. When I started asking questions of 
industry themselves and others about what would it take for a 
company to mount a successful effort to take humans to low-
Earth orbit, the answer that I got was about $2.5 billion per 
company of NASA investment. That is not total cost. That is 
NASA investment. And I still believe that number to be in the 
ballpark.
    Our original request was significantly more than the 
request that we submitted in this year's budget of $830 
million. It was $1.2 to $1.5 billion, because we felt that was 
what was necessary. As we briefed previous hearings, if we got 
less than that, it would stretch the time out.
    We now find out, unfortunately, with the gap between 
shuttle and an American capability to send humans to orbit 
widening because we have less money, the ability to close the 
gap is directly proportional--well, not directly proportional, 
but it is proportional in some respect to the amount of money 
that the Nation puts forth for that effort. So less money, more 
time.

                          ASTROPHYSICS PROGRAM

    Mr. Fattah. Let me shift gears to astrophysics, going to 
some of the issues that the chairman was focusing on in terms 
of planetary science. If you can give us an overview of the 
astrophysics request, the $657 million or so, which includes a 
number of the missions that are ongoing, if you can give the 
committee an overview of what you are doing there and what you 
intend to do?
    Mr. Bolden. As I mentioned in my statement, we have a 
number of telescopes currently on orbit, currently operating, 
to include Chandra, Hubble, and others. If you look at Kepler, 
the planet finder, we have now discovered that, where we 
thought there were hundreds of planets, there are now millions 
of other planets in our solar system, in our universe; and in 
those families of planets there are some that potentially are 
Earth size, Earth like, and could actually harbor life.
    So the excitement from our astrophysics missions has 
exploded, and a lot of that has been due to the accomplishments 
of less-well-known missions like Kepler. SOPHIA, which is 
flying out of Dryden and Ames now, it is a 747 with an airborne 
telescope. SOPHIA is now into its science phase, and the 
returns on information from SOPHIA is, in some ways, mind-
boggling.
    The other part about SOPHIA that I think is incredible is, 
when we talk about education, education is not just the money 
that we put onto the university campuses or into high schools, 
junior high schools and elementary schools. It is what we call 
indirect education. We take teachers on the SOPHIA spacecraft 
and we allow them to look at the data that is being gathered by 
an airborne telescope. They couldn't do that before. That 
doesn't come out of the education budget. That comes in the 
SOPHIA budget in their educational outreach program.
    So as we talk about education, there are a lot more ways to 
educate the public than by putting direct money on it. 
Sometimes we find that direct money doesn't have the result 
that you want, and that is one of my concerns about education, 
that we have metrics that demonstrate, as I mentioned in my 
opening statement, demonstrable results in our education 
programs.
    When I became the NASA administrator, I can tell you I 
don't think we had the ability to show anybody demonstrable 
results on what we were getting for our dollar, and I think we 
are getting to the point now where we can do that.

                          AERONAUTICS PROGRAM

    Mr. Fattah. Two last questions. One on aeronautics, the 
Boeing Dreamliner. We see a lot of advances in aviation 
generally. A lot of this is based on NASA-related technology 
and research, and I just want to give you an opportunity to 
crow about it. Because a lot of times when the public is 
flying--and we have the safest system of air travel anywhere in 
the world--I don't think they have the benefit of knowing that 
a lot of this is directly related to the research that you and 
your team at NASA have done. So if you want to comment on that.
    Then I have an actual more challenging question about the 
fact that the Chairman and our counterparts in the Senate, at 
the end of the day, we are going to have to wrestle with some 
pretty tough decisions between the Multi-Purpose Crew Vehicle, 
the Webb, planetary science issues, and so on. And we have got 
your testimony and we have the Administration's request, but, 
to some degree here, we are not going to be able to fit all of 
these priorities within what might be the available dollars.
    So if you want to close out on that, that would be fine.
    Mr. Bolden. Congressman, I would love to. I would love to 
talk all day. You picked the plane. I didn't. Boeing may even 
have some disagreement with my statement. It is a NASA 
airplane. When you look at the technology in the Boeing 787, my 
chest was sticking out when I visited the Boeing Everett plant 
about a month ago and had an opportunity to get aboard the 
airplane and look at the controls and displays. And they will 
tell you, as you approach the airplane from the outside, it is 
largely a composite structure that is developed from NASA 
research. Critical wing.
    You look at the engines themselves, the back of the engine, 
you see it looks kind of funny because it looks like sharks' 
teeth. We call them chevron nozzles. It is something that sat 
on the shelf at the Glenn Research Center in Ohio for probably 
10 years until General Electric and other engine manufacturers 
came and picked it up.
    It has significantly decreased the noise level from the 
Boeing 787. I was told by the test folks at Boeing they are 
restricted in running engine tests after 11:00 at night except 
with the Boeing 787. The chevron nozzles have made the engine 
so quiet that the community doesn't even know that they are 
running engine tests. That is NASA technology.
    We have done things with NASA aeronautics research that 
have continued to make air travel safer and more efficient. We 
anticipate--and this is in talking with industry, airline 
industry, with United, Southwest, and other airlines who have 
flown some of the tests on our new air traffic management 
system for routing--potentially $300 million in fuel savings 
just by using the new air traffic management systems, constant 
climb, constant descent, where you don't have to level off all 
the time. Those are things that NASA has done in our 
aeronautics program.
    For those of you who are fans of the military, as I am, the 
Marine Corps flies an incredible aircraft called the Osprey, 
the MV-22. It went through some rocky times, but that 
originated with the XV-15, which was a NASA build.
    Mr. Fattah. It is made in Philadelphia.
    Mr. Bolden. Yes. Parts of it are made in Philadelphia.

                        NASA'S BUDGET CHALLENGES

    Mr. Fattah. Thank you very much. I know your son is serving 
in the Marines.
    Talk to us about these budget challenges. What do you think 
about the big ticket items for NASA?
    Mr. Bolden. These are very difficult fiscal times. I know I 
am preaching to the choir when I say that. Because of that, the 
President and the leadership of the Congress, back in late 
2010, came to a decision that we were going to establish three 
priorities for the Agency. That doesn't say we are not going to 
do other things, but we are going to really, really, really 
promise that we will focus on these three priorities. Those 
three priorities were a heavy-lift launch vehicle and the 
Multi-Purpose Crew Vehicle for exploration, underpinned, 
however, by a NASA priority for technology development. We 
cannot do exploration without enhancing our technology 
development.
    The second priority was enhanced utilization and expansion 
of utilization of the International Space Station as an 
incredible national laboratory. Critical for the success of 
that, however, is another NASA priority, which is commercial 
crew and cargo. Without having an American capability, we will 
continue to pay the Russians a minimum of $450 million a year 
for seats on Soyuz to get to the International Space Station. I 
want to reduce that requirement as quickly as I can.
    And the third priority in the area of science is the James 
Webb Space Telescope, which is the most advanced, the most 
critical scientific instrument for the world, not just the 
Nation, in development today that will expand our understanding 
of the universe many, many folds.
    Those are the top three priorities. We tried to fully fund 
all of those. And the remaining funds, we tried to balance 
across our portfolio so that we could take the taxpayers' money 
and spend it wisely.
    I don't think that we have lost the effectiveness of 
anything that we have planned in prior years. People keep 
talking about efficiencies. If you don't gain from 
efficiencies, which you have to do when you have less money, 
then it is kind of hopeless. I think we are gaining 
efficiencies in the way that we operate, the way we manage 
programs.
    James Webb is a great example. We have met every milestone 
in the last year and a half on our replanned James Webb Space 
Telescope effort. Some of it is efficiencies, some of it is 
discipline, and some of it is just deciding that we are going 
to take a different course of action than we took before. We 
are trying to do the same thing with the robotic Mars program.
    Mr. Wolf. Mr. Austria.

                        UNMANNED AERIAL SYSTEMS

    Mr. Austria. Thank you, Mr. Chairman.
    General Bolden, we thank you for all of your hard work with 
NASA.
    I would like to follow up a little bit on Congressman 
Fattah's questioning on aeronautics research. I was pleased to 
see in your testimony that NASA is continuing to work with the 
Department of Defense to maximize efficiencies, current assets, 
investments, and increase partnerships to accomplish common 
goals.
    One of the emerging industries that I think holds great 
promise for both our national defense and also our State of 
Ohio is the unmanned aerial systems. You brought that up in 
your testimony. You discussed NASA's work with NextGen and the 
future aviation of America, as well as the administration's 
request for $104 million for the integrated systems research 
program within the aeronautics research budget.
    Again, I was very pleased that NASA is working to integrate 
UASs into the National Airspace System. Can you go into a 
little more detail as far as NASA's work with the UAS systems, 
the industry technology, as well as the work, the partnership 
you are doing with the Department of Defense?
    Mr. Bolden. We are very closely tied to the FAA and the 
Department of Defense in trying to come up with the software 
and traffic management systems that will facilitate the 
integration of unmanned aerial systems into the National 
Airspace System. That is easier said than done. Most pilots 
don't like having unmanned aerial vehicles flying around them. 
Part of it is education.
    As late as yesterday afternoon, in trying to give Secretary 
Donley, the Secretary of the Air Force, a heads-up on what I 
was going to talk about in this hearing, he and I agreed that 
we should, in the next few weeks, have a joint NASA-DOD meeting 
on unmanned aerial systems and the efforts under way to improve 
the technology to integrate them.
    If you go to the Dryden Flight Research Center right now, 
we have a test that we are developing in conjunction with 
Northrop Grumman, the producer of the big UAV--and I apologize 
for having a brain poo and forgetting the name. It will come to 
me.
    But it is used right now for multiple purposes. We have 
developed the capability of putting scientific instruments on 
it. We do studies at both poles now that we could not do before 
because we have systems that enable it to fly up in the polar 
regions where navigation is difficult. We are now getting ready 
to do an in-flight refueling test where we use one UAV to 
refuel the other one.
    So these are some of the things that we are doing that will 
advance the integration of UAVs into the National Airspace 
System.
    Mr. Austria. I appreciate that, and I appreciate the fact 
that you are working with Secretary Donley on this and also the 
FAA. Clearly, they are in the middle of all of this and have 
some tough decisions to make.
    Mr. Bolden. Global Hawk, by the way. It is age.
    Mr. Austria. One of the concerns and one of the challenges 
that I have had in this area is that we have had several 
agencies working to advance the unmanned technologies, but 
there doesn't appear to be a comprehensive, administration-wide 
strategy for moving the industry forward. And I think this is 
especially true when it comes to issues of airspace and 
integration, the UAS systems, if you want to call it UAVs or 
RPAs.
    For example, many agencies are supporting research on 
various UAS technologies, but the airspace and regulation 
standards needed to deploy the technology doesn't seem to be 
ready or doesn't seem to be a comprehensive plan to move that 
forward from this administration. Is that one of the hurdles 
that you are facing? Are you working together to try to 
overcome that, to try to put together a comprehensive plan?
    Mr. Bolden. Congressman Austria, I think there is a 
comprehensive plan on the part of the administration to try to 
move it forward. When I talk about collaboration among the FAA, 
DOD, and NASA in integration of UASs into the National Airspace 
System, the Department of Homeland Security also gets involved 
in it. So we have executive committees that are responsible for 
trying to develop a comprehensive policy for UAS use. What 
Secretary Donley and I were talking about is a senior-level 
meeting that we need to have to make sure that the 
administration's policy promotes exactly what you are talking 
about.
    Mr. Austria. I would like to see that comprehensive plan, 
if there is a plan. That would be very helpful as we look at 
this in Ohio.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
                      SHUTTLE ORBITER DISPOSITION

    Mr. Austria. Let me go back--and I know you knew I was 
going to ask you this question with the shuttles and that whole 
process. We are still trying to understand that. Questions 
still get raised back home, and there are still frustrations 
back home. I know you had a very difficult decision.
    Let me start with I am sure you are aware of the report 
language that was put in the conference report that came out of 
this committee as far as NASA being directed to submit 
quarterly reports to the committee on the status of its 
disposition of the four space shuttle orbiters. Help me 
understand what is going on in New York with Intrepid and that 
situation. Because, as I read about what is going on, as I get 
information about what is going on, it raises concerns on our 
end that we happened to have a facility that was ready to go, 
and now we are seeing what is going on in New York. So I want 
to better understand that situation and whether you were aware 
that they did not have a site that was ready to house the 
shuttle and that this would have to be pushed off to 2014?
    Mr. Bolden. Congressman, a couple of things. We are 
required to submit a report to you. The latest one we submitted 
was January of this year. It is a regular report on the 
status--in fact, it is called the ``quarterly report regarding 
status of space shuttle orbiter distribution.'' We have been 
delivering that, I have to check with the committee--but I 
think we have reached an agreement that the submissions have 
been sufficient and we may be relieved of the responsibility to 
do that. But I don't know yet. That was the last conversation I 
had.
    At that time that I made the decision on where the orbiters 
were going to go, to my knowledge, there was only one facility 
in the country that had completed a structure specifically to 
house an orbiter. Unfortunately, that facility did not get an 
orbiter.
    So there was no facility in Ohio, no facility in New York, 
no facility in California, no facility in Texas, no facility 
anywhere ready to put the orbiter on display, not even at the 
Kennedy Space Center. Every one of the locations that received 
an orbiter now has a plan that has been reviewed by NASA, an 
engineering plan, a funding plan in place that has passed the 
muster for us, and we are confident they will be able to do it.
    I think the middle of next month we will make delivery of 
Discovery to the National Air and Space Museum. That will begin 
the consecutive movement of orbiters. When we deliver Discovery 
to the National Air and Space Museum, we will put Enterprise on 
top of the 747 and transport it to JFK, where New York's plan 
is to take it by barge across the river. It will be temporarily 
displayed on board the Intrepid while the final facility across 
the street is prepared for it.
    The facility at the Kennedy Space Center groundbreaking 
took place about a month ago, and that is expected to be ready 
I think in 2013-2014.
    The California Science Center already has their facility 
underway, and they have an elaborate plan for transporting 
Endeavour from LAX through the streets of Los Angeles with a 
parade. They have quite extensive things that they have to do 
to get it there.
    But every place has a plan in place and a funding plan, and 
we have received all monies that are due in transfer for the 
orbiters.
    Mr. Austria. I appreciate that, Mr. Administrator.
    The concern that we have not just in Ohio but throughout 
the Midwest--and I have also submitted a letter with my 
colleague, Congressman Olson from Texas, on how this criteria, 
what was known and what wasn't known prior to the choice, the 
criteria. I am looking at a criteria sheet that came back to us 
on the transportation risk criteria, and it turns out there was 
a mistake on NASA's part when they went through this criteria 
stuff, a cut-and-paste mistake where they put the wrong number 
in, for example, the National Museum of the United States Air 
Force which lowered our score. That is coming from the 
Inspector General's report.
    Then when you put that in, we had an equal score with two 
of the recipients. That raises concerns on my end as to how 
this choice was made, who was making the decision, and what 
criteria was used. When you have a mistake as a result of a 
cut-and-paste error during the finalization of the chart and we 
don't find out until 4 months later through the Inspector 
General that, yes, there was a mistake; and, by the way, you 
were rated as high as, if the right number was in here, as two 
of the sites that received a shuttle. That raises concerns on 
my part as to the integrity and also how accurate this criteria 
choice was. It is not just Ohio.
    Mr. Bolden. Congressman, I won't disagree or challenge 
anything you say, but I will ask my staff to come over and 
brief you. I know what you are talking about. I think what you 
will find when the staff comes over and briefs you is that 
there were significant shortcomings on the proposal from the 
National Museum of the Air Force, not the least of which was 
funding. So I will have the staff come over, and we can brief 
in detail and discuss it with you.
    To be quite honest, I asked each of the facilities to brief 
their congressional delegations first so that they would be 
able to share with you what they thought their shortcomings 
were. They could tell you--and I do not want to get into a 
public debate about the shortcomings of any of the places that 
were not selected to receive an orbiter.
    The three locations, because I am not counting the National 
Air and Space Museum, that is funded by the government, by 
NASA. But the other locations, they have provided funds. They 
had funds either promised or on hand. They provided designs for 
facilities to display, and they were shown to be in some cases 
objectively but in some cases subjectively superior to the ones 
that did not get them. But I will have my staff brief you.
    Mr. Austria. My question is more in the broader sense, the 
process that was used. The reports, you said that you submitted 
one in January. I am anxious to take a look at that. I haven't 
seen that. As to the status in New York, and again when 
information is brought after the fact to us that there was a 
mistake, that is a concern.
    Mr. Bolden. Congressman, I think you will probably find 
that the mistakes that were made--and there were mistakes--
affected every single site that was a competitor, to include 
some of those that received them.
    Mr. Austria. How have you responded to that?
    Mr. Bolden. I have responded to each person or each entity 
that had a complaint. I met with some who came in personally 
and explained my choice. Why, even after I looked at the 
corrected information, why I had made the decision to stay with 
the entities that were awarded the orbiter. So there was 
nothing subjectively that changed significantly that would have 
made me pick one other over some of the others that already had 
it.
    Mr. Austria. So what you are saying is, had you known that 
information prior to the decision, you would have made the same 
decision?
    Mr. Bolden. What I am saying is, had everything been 
totally accurate the way that I told the IG when I testified 
for the IG investigation, I said, once I found out there were 
mistakes, I went back and I looked at where those mistakes were 
made. I reevaluated the relative standing of all of the 
entities that were being considered, and there was nothing of 
significance that caused me to want to change my mind about a 
location. That is all that I am saying.
    Mr. Austria. I appreciate that. Thank you.
    Mr. Bolden. Congressman, almost every facility that 
requested an orbiter, put in a request and a proposal, has 
subsequently received significant artifacts from the space 
shuttle program, some to include full-scale mock-ups, 
simulators in which the astronauts trained. Granted, everybody 
wanted an orbiter, but I think you will find, if you talk to 
some of them who got some of the other artifacts, from a 
practical perspective, while they didn't capture an orbiter 
that people can look at, from an educational and an outreach 
perspective, they won the prize.
    Because the Museum of Flight, for example, has a fuselage 
trainer. They can put kids in and out of that thing. They can 
do exactly what astronauts did. No one who got a flown orbiter 
can do that, because none of the flown orbiters are going to be 
opened up. There are going to be there for display, still 
incredible, but not what you can do with a trainer that you can 
actually use and let children, students, climb all over and go 
through.
    Mr. Austria. I appreciate that.
    Mr. Wolf. Before we go to Mr. Schiff, we are going to go to 
Mr. Aderholt because he has to chair a hearing at 10:00.

                      SPACE LAUNCH SYSTEM FUNDING

    Mr. Aderholt. Thank you, Mr. Chairman.
    Mr. Bolden, it is good to see you today. It was good to see 
you last night at the event honoring Dr. von Braun on his 100th 
birthday, which we are celebrating this week.
    Just a couple of things. As the chairman said, I have to 
slip out. I have to chair another subcommittee in just a few 
minutes.
    There are some concern by many of us about the slow 
development of SLS. But I do want to say that I appreciate the 
recent help to my staff from your personnel on that matter. 
Given the fact that you once said that SLS needs to catch up 
with the capsule program, the Orion, why is the request for 
fiscal year 2013 so far below the authorized level?
    Mr. Bolden. Congressman, the funding for SLS--and I think 
we have tried to work with your staff to show you how the 
funding for vehicle development, now that we have broken out in 
separate budget lines vehicle development from exploration 
ground systems and 21st century plus construction of 
facilities, four different accounts, the funds for SLS meet the 
authorized level, if I am not mistaken. We have $1.3 billion 
set aside for SLS, and that is strictly for vehicle 
development.
    If you look at what is going on with the vehicle, the 
testing, we have fired the upper stage, and we have fired the 
J2-X engine that is in development for SLS a couple of times 
now. So we are actually beginning to pick up the pace, and we 
are doing testing and development continuously.
    Glenn has some cryogenic propellant storage test and work 
right now that will contribute to lowering the weight of the 
eventual 100 metric ton SLS that will enable it to take more 
payload to deep space. We are looking at a new fuel tank that 
is lower in weight because it is a different composite tank. 
There is quite a bit of work in terms of technology development 
that is ongoing for the SLS that you won't see in phase one in 
the 70 metric ton version that will launch in 2017 but that you 
will see down the road.
    So I think we are doing as much if not more on SLS right 
now than we are actually doing on the Multi-Purpose Crew 
Vehicle, because MPCV was so far along. MPCV has completed 
water drop tests. It has done its vibration testing. It is well 
along compared to everything else. So we are ramping up the 
work on the SLS.

                        COMMERCIAL CARGO PROGRAM

    Mr. Aderholt. Let me switch gears. What is the total cost 
so far spent on commercial space beyond the $500 million for 
COTS, especially the CRS account and resupplying the Station?
    Mr. Bolden. Yes. I will take that question for the record, 
but the amounts that have been spent on COTS and CRS so far are 
documented. We have essentially spent nothing on CRS except for 
some of the additional milestones that we added to the COTS 
program to buy down the risk on cargo resupply. So we did 
advance those companies some funds from the CRS contract that 
they would not ordinarily have gotten until they actually got 
into CRS because we are not into that yet. We are still in the 
COTS program.
    The end of the COTS program will be the demonstration 
flights that are coming this spring and summer. SpaceX has one 
more, and right now their forecast is to launch on April 30. 
That will be two demonstration flights in one. They will do 
demo two and three, provided everything goes well. And they 
will be finished with the COTS program, and then they will move 
into CRS hopefully by the end of summer and hopefully fly one 
CRS mission in fiscal year 2012.
    Orbital is a little further behind. We are hoping they will 
fly their demonstration mission to close out COTS, and then 
they will begin to fly their CRS in early 2013.
    Other than what we spent in the Commercial Crew Development 
CCDev Program, those are the only funds that NASA has spent 
toward commercial crew to date. We have not selected a vendor 
yet, so we have not spent any money on development of a system. 
That is what we are trying to decide now with the extension of 
the Space Act Agreements and selection of competitors that will 
come this summer.
    [The information follows:]

                        Commercial Space Program

    The total spent on commercial space in support of the International 
Space Station is $1.8B, including the original $500M for COTS ($1.3B 
without the original $500M). Please see the detailed support below. It 
should be noted that NASA pays from $200-400M a year to purchase 
commercial launch services for other science related NASA missions. In 
addition, since FY 2005, NASA has paid Russia approximately $1.7B for 
crew and cargo transportation services.

                Commercial Orbital Transportation System

                     TOTAL AMOUNT OF FUNDED MILESTONES PAID FOR COTS PARTNERS AS OF 2/29/12
                                                 [In $millions]
----------------------------------------------------------------------------------------------------------------
                                                  Original $500M   Augmentation    Total budget      Payments
----------------------------------------------------------------------------------------------------------------
Total COTS Payments.............................           500.0           287.4           787.4           723.9
Space Act Agreements............................           480.1           236.0           716.1           674.6
Commercial Resupply Services (CRS) *............              --            17.5            17.5            17.5
Other Management and Support....................            19.9            33.9            53.7            31.8
COTS Without CRS ($17.5M).......................           500.0           269.9           769.9           706.4
----------------------------------------------------------------------------------------------------------------
* Please note that COTS has funded demonstration activities on the CRS contract for both Orbital Sciences and
  SpaceX. These activities allow Orbital Sciences and SpaceX to fully demonstrate the delivery of cargo to ISS
  (``over the hatch'').

                          Commercial Resupply

  TOTAL AMOUNT OF FUNDED MILESTONES PAID FOR CRS PARTNERS AS OF 2/29/12
                             [In $millions]
------------------------------------------------------------------------

------------------------------------------------------------------------
SpaceX..................................................          $337.6
Orbital.................................................           497.9
                                                         ---------------
      Total Cost........................................         835.5 *
------------------------------------------------------------------------
* 17.5M was paid using Commercial Transportation Systems (COTS) funding.
  The remaining payments used ISS funding.

                            Commercial Crew

                    PAID FROM FY 2009 THROUGH 2/29/12
                             [In $millions]
------------------------------------------------------------------------

------------------------------------------------------------------------
CCDev 1 Space Act Agreements............................           $49.8
CCDev 1 Other Management Support........................             0.3
CCDev 2 Space Act Agreements............................           201.2
Human Rating Requirements...............................             0.9
CCDev 2 Other Management and Support....................            24.9
                                                         ---------------
      Total Commercial Crew.............................           277.1
------------------------------------------------------------------------

    Mr. Aderholt. Okay. I have to slip out to chair another 
subcommittee, but thank you, Mr. Chairman. Thank you, Mr. 
Schiff.
    Mr. Bolden. Congressman, thank you very much for your 
remarks last night.
    Mr. Aderholt. It was good to be there, and I know that 
everybody appreciated your attendance as well.
    But I will submit some more for the record.
    Mr. Wolf. Mr. Schiff.

              MARS PROGRAM AND THE FLAGSHIP MISSION FUTURE

    Mr. Schiff. Thank you, Mr. Chairman.
    Mr. Administrator, as you know, I am deeply troubled by the 
NASA budget in which science is cut overall by $162 million and 
planetary science by $300 million, resulting in the 
administration's shortsighted proposal to walk away from the 
ExoMars program with ESA that would have put an orbiter around 
Mars in 2016 and a lander on the surface 2 years later to begin 
the process of catching samples for a later return to Earth. I 
don't need to tell you that a Mars sample return is the top of 
the scientists' list and that the 2018 mission is ranked at the 
top of the current planetary decadal.
    I also don't need to remind you that the number two mission 
is the Europa orbiter that will give us insight into one of the 
solar system's most mysterious bodies.
    And if there is any questions about the priorities of this 
committee, as the language Mr. Culberson proposed last year 
makes clear, those planetary decadal priorities are our 
priorities as well. No element to the American space program 
has generated more public excitement and interest over the past 
decade than our robotic exploration of the Red Planet. In the 
days following Spirit's landing in January of 2004, NASA's web 
servers crashed under an assault from literally millions of 
people worldwide who wanted to see the latest pictures from the 
Martian surface.
    These proposed cuts not only threaten the most successful 
exploration program in NASA history, they also imperil what is 
certainly the world's most specialized workforce, the engineers 
and scientists at JPL who specialize in entry, descent, and 
landing on other planets.
    I do not need to tell you how difficult it is to do this 
kind of work. There have been more failures than successes at 
landing vehicles on Mars, and ours is the only country to have 
yet succeeded. But this is a workforce and a capability that 
cannot survive long periods of inactivity. If we adopt your 
reconfigured Mars program, a drastic scaling back of our 
capacity to do this kind of edge-of-the-envelope science will 
be the inevitable consequence.
    I think cannibalizing the Mars program, which gets closer 
to unlocking the secrets of Mars' past with each mission and 
discovery, is a major step backwards for NASA and the Nation. 
While human space flight has been stuck in low-Earth orbit for 
three decades and now is reliant on the Russians and with James 
Webb still years away from launch, the Mars program is the key 
driver of public support for the space program. In short, I 
think the budget proposal is a disaster for our leadership in 
space.
    I want to thank the chairman sincerely for calling a 
timeout to give us a chance to fully explore this proposal and 
I hope come up with something much better.
    I am perplexed at the responses that you gave to the 
chairman's questions at the outset of this hearing. When he 
asked you why the disproportionate and devastating cuts to 
planetary science and particularly the Mars program and your 
response was ``the Mars program was in the best shape,'' I 
don't understand that answer. That is an answer that says, in 
order to make budget cuts, we savage the most successful 
program we have.
    I do not think you can come here and tout MSL, because this 
committee is about the future. It is about what we are going to 
do in the future, and to rely on MSL is to rely on our past. 
That was a program that was developed largely under the Bush 
administration, and for this administration at NASA to say that 
this is proof of our ongoing commitment to Mars just falls 
desperately short to me. Because if you were before this 
committee while MSL was still on the drawing board, you would 
be coming before us to tell us to pull the plug on MSL, and I 
think that is a tragic place to be.
    We now have a decadal survey, a top priority that will not 
be undertaken if your proposal is accepted. It will not be 
taken by the United States. It will be taken by the Europeans 
now in partnership with the Russians, and I think it is a sad 
state of affairs when we are already reliant on the Russians to 
get a lift to the Space Station. We are also going to tell the 
Europeans that they can't count on us any more. They need to 
count on the Russians for the top priority of our own 
scientists.
    And I also don't understand the response you gave to the 
chairman about the decadal when he asked you, isn't this 
inconsistent with the decadal priorities? And your answer was 
something to the effect of, no, canceling the ExoMars missions, 
canceling the top priority of the decadal, which is to catch 
those samples this decade, is somehow advancing the decadal 
priorities.
    That is a very Orwellian answer, in my view. That says that 
the way to go forward is to go backward. The way to go up is to 
go down. And just by saying so doesn't make it so. If we walk 
away from the decadal, we are walking away from the decadal. No 
amount of spin or rhetoric can change that fact.
    What I would like to try to understand is, when you came 
before our committee last year, when you met individually with 
members of this committee and you said that we could do a 
flagship mission to Mars, that we had the budget to do a 
flagship mission to Mars, and we agreed with you on doing a 
flagship, even though it meant condensing some of what had been 
planned, when did you make the decision during the last 12 
months that that was no longer the case? Was that a decision 
you made, or was that a decision OMB made?
    And if it was a decision that OMB made, why is OMB deciding 
what the planetary decadal priorities ought to be? I understand 
they can give you a top line, but the thing I don't understand 
is the top line for the NASA budget is essentially flat from 
the year before, and I don't think you or we on this committee 
expect it to be any different. None of us thought that the NASA 
budget we dramatically improve, so there is no surprise in 
going from last year to this year in terms of what the top line 
is.
    What I would like to know is, did this proposal to abandon 
the flagship missions, did that come from you or was that 
proposed by OMB?
    Mr. Bolden. Congressman, the decision came from me.
    Mr. Schiff. I am not asking where the decision came from. I 
am asking where the proposal came from.
    Mr. Bolden. The decision came from me.
    Mr. Schiff. I understand the decision came from you. Where 
did the proposal come from? Did you propose this or did OMB 
propose this?
    Mr. Bolden. I asked the question because I spend time with 
my counterpart in the European Space Agency, Mr. Jean-Jacques 
Dordain, who has the responsibility for managing the 19 nations 
that are part of ESA.
    As we talked from 2009, when I signed my first letter of 
intent with him, to continue to talk about the ExoMars 
mission--and I think if you look at documentation, if you talk 
to him, we never committed to the ExoMars mission. We always 
had difficulty trying to determine that we would have the 
funds.
    Mr. Schiff. Let me get back to the question, which is, did 
the proposal come from you, or did it come from OMB?
    Mr. Bolden. The question that led to my decision came from 
me. I asked, how are we going to do a Mars sample return based 
on the budget that we have currently? And this was not this 
budget. This was the budget in place for 2012, even the budget 
for 2011. What is the level of detail in the 2018 mission? And 
at that time, when I was told, well, we are developing the 2018 
mission with ESA, I said, well, okay, what about the sample 
return? Well, that will come on subsequent missions. That is 
not something that I was----
    Mr. Schiff. Mr. Administrator, the sample return was always 
going to come on subsequent missions. No one was ever proposing 
that we were going to go and catch the samples and bring them 
back on the same mission. That was always the proposal.
    Mr. Bolden. Well, the only person who did not understand 
that was me.
    Mr. Schiff. My question, Mr. Administrator, I still have 
not gotten an answer to, which is, where did the proposal to 
cancel the flagship missions come from? Did that come from you, 
or did it come from OMB?
    Mr. Bolden. The proposal came from coordinated efforts 
between my science experts, the people in NASA, our talks with 
the White House, with OMB and OSTP, and our talks with our 
international partners.
    Mr. Schiff. And when did this happen?
    Mr. Bolden. It started happening actually as early as 2009 
when I signed the letter of intent.
    Mr. Schiff. Then when you came in here last year and you 
told us we had the resources to do the Flagship----
    Mr. Bolden. At the time, I thought we had the resources to 
do that because the budget was $2 billion higher than it is 
right now.
    Mr. Schiff. But now you are telling me back in 2009, you 
decided you did not have the resources?
    Mr. Bolden. I did not decide I did not have the resources. 
I began to question whether we had the resources then. Because 
as I said, you and others fully understood that ExoMars was not 
a sample return. I was not that smart. I thought ExoMars was a 
sample return so that is what the Decadal Survey said.
    Mr. Schiff. You understood from us last year that our 
priority was to do the top of the Decadal Survey?
    Mr. Bolden. Yes, sir.
    Mr. Schiff. And as the NASA budget has not changed, I can 
only conclude that you and OMB and the White House had already 
made the decision you were going to cancel the Flagship mission 
and just did not want to tell us, or apropos of the chairman's 
question about why you want to remove the language limiting the 
cost overruns on Webb, that it is now your view that those 
costs are going to continue to increase, and therefore, you 
need to come in and cannibalize the successful Mars program, 
because something changed over the last 12 months?
    Mr. Bolden. A number of things changed over the last 12 
months. And my growth into this job and my understanding of the 
complexity of the missions we were doing and our ability to 
mount a sample return mission changed; my understanding of that 
changed. And I could not----
    Mr. Schiff. So it is not a change in Webb from last year?
    Mr. Fattah. Let him finish his answer.
    Mr. Bolden. There is. There is a change in Webb from last 
year. Last year, Webb was gone. And I felt that the James Webb 
Space Telescope was so critical to this Nation and the 
international science community, we could not make that 
shortsighted decision. And so I fought to get funding for the 
James Webb Space Telescope. As I told the chairman, what I 
would like to have done was asked for enough money to launch 
James Webb in 2014. That would have been irresponsible because 
that would have decimated the science budget.
    Mr. Schiff. When you came to this committee to argue for 
Webb and the chairman raised the concern about Webb, you did 
not tell the chairman or any of us that you want to do Webb, 
but by the way, we are not going to be able to do Mars if we do 
this?
    Mr. Bolden. I did not know that at the time.
    Mr. Schiff. And when did you have this epiphany that you 
could not afford Mars anymore?
    Mr. Bolden. Congressman, it wasn't an epiphany. It was a 
successive understanding of our posture fiscally and a 
successive understanding on my part of our technical capability 
that told me that I could not--and as I told Jean-Jacques 
Dordain, I cannot in good conscious allow them to continue to 
think that the United States is going to be there for them on a 
sample return mission in 2018 that we cannot support, we cannot 
afford. So I said we need to step back. And as I told them--
most of this happened before Christmas. Because we had people 
in Paris, France, in negotiations with Roscosmos and the 
European Space Agency. And I finally decided, I called Jean-
Jacques, and I said, I cannot in good conscience allow our 
folks to continue to sit there discussing something that we 
know we will not be able to support.
    So if we want to be able to launch in the 2018-2020 window, 
and that is what Dr. John Grunsfeld is trying to do now, is 
find a series of missions that are decreased in scope but 
accomplish the basic objectives of setting up a subsequent Mars 
sample return mission, and I think we will do that.
    Mr. Schiff. Mr. Administrator, I cannot in good conscience 
support a budget that says that America's days of leadership in 
space science are limited; that, Europe, you cannot count on 
us; that China is ascendent in its Mars program; that you got 
to go to Russia and later China; that we are going to walk away 
from our own decadal priority, our own top priority of our 
science community; that when we are this tantalizingly close to 
finding the building blocks of life on another planet, that we 
are going to walk away and that we are going to rest on the 
laurels of the administrations and the generations that went 
before. I cannot in good conscience support that kind of 
proposal.
    And I yield back.
    Mr. Bolden. Congressman, as I mentioned to you once before, 
I would hope that you would not put MSL in the past when you 
communicate with people at the Jet Propulsion Lab. We have the 
hardest part of that mission coming, and for them to believe 
that their Representative feels that that is something in the 
past, the most difficult part of that mission----
    Mr. Schiff. I don't think the mission is in the past. And 
no one has greater respect for the work that those brilliant 
people are doing than I do. But what I resent is coming in here 
and using MSL as a justification to cancel the future of the 
Mars program and the flagship missions.
    And I can tell you, Mr. Administrator, there is no one at 
JPL working on MSL or any other program that will accept the 
argument that because they are working so hard and had such 
great success with MSL thus far, that we should cancel our 
future flagships.
    Mr. Bolden. And Congressman, we have not given up on 
flagships. We have not given up on future flagships. What I 
have Dr. Grunsfeld doing is trying to come up with a plan that 
will allow us to strategically approach the next flagship 
mission to Mars that will enable us to do a sample return 
mission. That is still a primary objective of our Mars 
exploration program. We are trying to accomplish the science 
objectives of the joint ESA-NASA collaboration that was going 
on in ExoMars, and we intend to facilitate their success to the 
greatest amount we can to also accomplish the priorities of the 
planetary decadal, which said a Mars sample return mission is 
our number one objective.
    They did not say ExoMars. They said ExoMars is an example 
of a mission that will facilitate that success. There are more 
ways to do that than participating in ExoMars. We will 
cooperate with the Europeans and maybe the Russians, but it 
will be an international effort that brings us a sample return 
mission. And it will happen in the foreseeable future.
    We are not giving up on Mars. We are not decimating the 
Mars program. We have what I think is a very ambitious Mars 
program. We have not given up on Europa. We have three studies 
under way right now just looking at how we can attack the 
planet Europa, the moon. And we have got to figure out how we 
prioritize our science budget so that we can accomplish as many 
of those goals as possible. We cannot do them all. We cannot do 
them all, so we are trying to prioritize such that we will 
achieve the objectives that are set out.
    Mr. Schiff. The last thing I am going to say, and I 
appreciate the indulgence of the chairman because I know I have 
taken more than my time, those are all fine words, but they do 
not make it so. And defunding Europa does not mean that you are 
pushing forward with Europa; canceling the flagships does not 
mean you are pushing forward with an aggressive Mars program. 
It is exactly the opposite. And I wish that we could all get by 
on good words, but what matters is the deeds. And the deeds 
right now are canceling the flagship missions; they are 
canceling Europa; they are ceding to Russia the role with ESA 
meeting the number one priority of our scientists and the 
Decadal Survey. And that is a very sad proposal and one that I 
cannot accept.
    And I yield back.
    Mr. Bolden. And Congressman, I promise, we will discuss the 
status of the Mars program after we land on Mars in August. And 
I think you will see the interest in Mars explode. So I think 
we do not have the program in place that I would like to have, 
because I do not have endless money, but we have a program in 
place that I think will bring great results. And we have not 
given up our leadership on exploration of Mars, whether human 
or robotic. So I think we respectfully disagree on the status 
of the program right now, but I think we have the same 
objective in mind, and we will get there.
    Mr. Wolf. Mr. Yoder.

                  AMERICA'S LEADERSHIP IN EXPLORATION

    Mr. Yoder. Thank you, Mr. Chairman.
    General, I appreciate you being here today. I appreciate 
you coming back. We had you here last year and had a good 
conversation, this committee and all of your hard-working 
staff, and I have had a chance to interact about the future of 
space exploration and the United States continuing to be a 
leader in that endeavor. I am a big fan of what you do at NASA, 
not only from the economic and scientific issues, but just from 
your ability to inspire Americans to dream. And I know you have 
had a long career in service. And there are probably a lot of 
things you could be doing with your time, and I appreciate the 
fact that you are dedicating your interest to trying to help 
inspire Americans and to continue to help the United States be 
a pioneer in space exploration.
    I note in your budget that there has been a decline in 
resources that Congress has provided, and that is kind of rare. 
I have been on Appropriations now--this is the second year. 
Mostly we look at big increases on the discretionary side, 
requests for even more. Washington's version of a spending cut 
is not as big of an increase as you requested for many 
agencies.
    So you are actually dealing with constrained resources. You 
are really trying to be creative looking at what you are doing 
with commercialization of space exploration and trying to 
continue to pioneer under restricted resources. And so I 
thought I might just give you an opportunity to give us an idea 
of what we could do if we had additional resources, what the 
potential is for the United States space exploration if we had 
the ability to find additional resources, what we are, you know 
certainly when we are looking at shortening the distance 
between Earth and Mars in terms of the speed, some of the 
things that it is just a matter of getting to the technology, 
and where are we in terms of those types of things? What is on 
the horizon? What is on the 25, 50-year plan? And are these 
things that we are trying to get to some day a function of 
resources, or are they a function of capabilities that we are 
not sure we will ever obtain? You know, we have dreams, but can 
we get there. If you had unlimited resources, say, what could 
we actually be doing at this point?
    Mr. Bolden. Congressman, I will not conjecture on what we 
could do with ultimate resources.
    Mr. Yoder. Additional resources.
    Mr. Bolden. You asked two questions. The first question I 
will answer. The biggest challenge is capabilities, and 
resources do bring capabilities. But the shortcoming for us 
right now as the Agency responsible for maintaining America's 
leadership in exploration is capabilities. That is why when we 
talk about priorities, while not one of the top three, 
technology development is a critical priority for NASA. It is 
only through the technology development, whether we are talking 
about cryogenic propellant and storage, cryogenic propellant 
transfer, solar electric propulsion, those things will help us 
answer the questions that you talked about speed in going from 
Earth to Mars. Those are capabilities that we have in 
development.
    Our space technology program has over 1,000 projects right 
now that are funded. The increased funding I would like to see 
is full funding for the budget that the President requested. 
Because we have crafted that budget such that it fully supports 
the three priorities agreed to by the President and the 
Congress. But it also enables us to take care of the internal 
priorities that we have, which are trying to craft a strategic 
program for robotic exploration of Mars, as Congressman Schiff 
talks about, that will facilitate achievement of the science 
objectives going there, that will enable us to fulfill the 
priority of the Decadal Survey, which is to facilitate a future 
Mars sample return mission, all of which support the 
President's challenge to us to put humans in orbit or in the 
martian environment by the mid 2030s.
    It is critical for us to get the President's budget request 
funded to the level he requested or we do stand an opportunity 
or a chance of relinquishing our leadership, and I don't want 
to do that. Anyone who thinks we are not the leader today, I 
would beg to differ. Everyone still looks at us. Our European 
partners, in spite of the differences that we have had over 
ExoMars, that is not the only thing that we do with our 
European partners. Our European partners are really dependent 
upon us for James Webb because they are a partner. They are 
providing the launch vehicle. They are providing some of the 
instruments. The Europeans work with us on aeronautics. They 
are dependent on us being there, and we are there. You can go 
through and look at what we are doing with South American 
nations.
    We are the leaders in the world in exploration, whether it 
is human or robotic. We have not relinquished that leadership. 
To give up and not fund the President's budget would be to say, 
we have decided that we are okay being a follower. So that is 
why I am fighting for this budget. We have done the absolute 
best we could do to prioritize and make sure that we retain our 
leadership.
    Mr. Yoder. Well, and I think reassuring the country and the 
world that the United States is going to continue to be the 
pioneer in this endeavor is something we have to continue to 
do. Your statements are critical to that. I know certainly when 
we are back in our districts and we are talking to regular 
folks who are inspired by space exploration, young people in 
our district, without having the shuttles now and seeing 
American astronauts go to Russia to be able to head to space 
does not provide I think that assurance that you are also 
saying that you want the country to have. And so partly the 
shuttle program was a great symbol. And every time the shuttles 
went up, it was a reassurance I think to Americans that we were 
charting the course. And so however we continue to get to that 
point, I think we want to be supportive.
    Are there things that Congress is doing besides the funding 
issue that would be helpful to stop doing either on the 
regulatory side, or are there things that make it more 
difficult for NASA to achieve its mission because of another 
factor?
    Mr. Bolden. Congressman, there are issues that we are 
working on with the administration right now to bring proposals 
to you. I think the Secretary of State, the Secretary of 
Defense, all of us have talked about modification or relief 
from some of the restrictions that we have that impede the 
Americans' ability to do trade or to do development in some 
fields of technology with other nations. But that is beyond the 
purview of NASA. But those are things that I think I would echo 
what other people in positions of leadership in this 
administration have said.

                        SPACE COMMERCIALIZATION

    Mr. Yoder. I think certainly going forward, the concept of 
the commercialization of space is going to continue to be a 
part of, space exploration, is going to continue to be a part 
of NASA's mission. And that utilization and partnership with 
private industry appears to be a very successful way to 
approach some of these cost constraints we have in harnessing 
the creativity of the free market, the entrepreneurs, the 
innovators out there that come up with their own ideas. And all 
those programs I think have been helpful. We might speak about 
that a little bit. We were trying to look at some data back in 
the office and the commercial cargo program, my understanding 
is that NASA's cost models would have had SpaceX's Falcon 9 
launcher cost $4 billion where SpaceX developed it for $400 
million. Are there other examples where we have been able to do 
things in a more efficient way utilizing commercialization?
    Mr. Bolden. Congressman, there are countless--let me not 
say countless. There are examples that I can provide for you 
that show where reliance on private entities to do the 
development with us as a partner have resulted in cost savings. 
We are not done with commercial cargo and crew to the 
International Space Station, so I would not be one that would 
want to hang laurels on where we are yet.
    But so far, the trend and the subjective indication is that 
we are definitely saving funds. When you look at the commercial 
crew program we have spent hundreds of millions instead of 
billions in getting to the point where we are about to have 
private companies deliver cargo to the International Space 
Station. At this point of development in a human capability, we 
have spent hundreds of millions as opposed to billions as we 
would have done or as we did in the past NASA programs. The 
only difference being that we have relied on industry to do the 
development at their pace and using their brain power with us 
as consultants as opposed to making it our project that we 
dictate to them the pace and the content. We are not dictating 
pace and content; they are.

                          PLUTONIUM PRODUCTION

    Mr. Yoder. Well, I appreciate that, and something certainly 
we are going to have to continue I think all to work together 
going forward to determine what that best balance is. But I 
think you continue to try to find ways to be creative within 
the resources available to remain a pioneer there, so I 
appreciate that. I want to talk to you a little bit about 
plutonium. As I understand it, plutonium is a critical fuel 
source that NASA relies on. Where are we at in terms of the 
amount of plutonium available? Are there steps that we need to 
take to make sure that we have plutonium available for NASA 
going forward?
    Mr. Bolden. Congressman, I will get you the exact amounts, 
but I think we have adequately funded our portion toward start 
up again of plutonium production that would take care of 
missions that we, NASA, envision we will be doing in the 
foreseeable future. But I will get you the exact answer on 
that.
    [The information follows:]

                             Plutonium-238

    Plutonium 238 (Pu-238) is a critical fuel source for NASA. The 
Department of Energy's stockpile of available Pu-238 is dwindling with 
usage and aging with the passage of time. As that material age, it will 
become important to blend with new material to maintain its properties 
per flight specification. Given NASA's plan for planetary science 
missions, it is very important for the United States to re-establish 
the domestic production of Pu-238. Congress included $10M in NASA's FY 
2012 appropriation, and NASA's FY 2013 budget request includes an 
additional $14.547M to begin planning the restart. NASA has been 
working closely with the DOE on this effort. DOE has started the 
project definition phase of the Pu-238 restart effort. This assessment 
is necessary to understand how facilities can be used to begin the 
production of Pu-238. We expect that the study will be complete by the 
end of calendar year 2013. At the end of project definition phase, we 
will have a better estimate of the schedule and cost to reestablish Pu-
238 production and will have demonstrated the key technologies.

    Mr. Yoder. Thank you, General. I appreciate your testimony.
    Thank you, Mr. Chair.
    Mr. Fattah. If the gentleman will yield for a minute. This 
is in concert with Air Force Space Command and others, right, 
that you feel comfortable in terms of where you are, right?
    Mr. Bolden. In terms of plutonium production?
    Mr. Fattah. Yes.
    Mr. Bolden. I am comfortable where we are, other than the 
fact that nobody wants to spend money. If you want to ask me 
who, I would like to see some other agency pay for it all. That 
is not going to happen. So I am satisfied that we are--we have 
been asked to pay our fair share. But I will get the exact 
numbers on that.
    Mr. Yoder. Thank you.
    Mr. Bolden. I have got numbers running around in my head, 
but I do not want to give you one that may be old.
    Mr. Yoder. Thank you, General.
    Mr. Chairman, I yield back.
    Mr. Wolf. Mr. Culberson.

                           PLANETARY PROGRAM

    Mr. Culberson. Thank you, Mr. Chairman.
    General Bolden, I am sitting here listening to the 
testimony and quietly grieving for our country. I am a naive 
Houstonian. I grew up with the Apollo program and got my first 
telescope when I was 12. I have been an amateur astronomer 
since I was a boy. And NASA has been an important part of my 
life, an important part of the life of this country.
    And when a major public relations firm that specializes in 
public opinion of private companies did a survey for Sean 
O'Keefe, they discovered that NASA had the highest positive 
perception public image of any Federal Agency, a popularity 
rating that was equivalent to that of the Marine Corps. Thank 
you again for your service to the country, sir.
    I could not agree more strongly with the comments of my 
good friend Mr. Schiff that the President's budget is clearly 
putting the best days of planetary exploration behind us. It is 
visionless. I just grieve for my country. I grieve for NASA to 
see the utter lack of vision and have utter lack of interest of 
the administration in our magnificent space program. All the 
men and women who put their heart and soul into exploring other 
worlds, into putting men and women into space need to know that 
the Congress stands behind them, even though the President does 
not have any interest in our space program. It saddens me to 
see this lack of interest in the agency in pursuing the 
exploration of the planets.
    The Congress is completely committed to support you, sir. I 
know you are here carrying a message from the administration. 
You are trapped. I know, General, you are not able to really 
speak as freely as you would like. I am very reluctant to pick 
too much on you because you really are here on behalf of the 
administration. I know you are probably not thrilled in your 
heart of hearts with this budget proposal. We face a terrible 
dilemma as a country because of the size of the debt and the 
deficit. The budget which the House is likely to pass, and 
necessarily so, is going to have to reduce spending below even 
what the President has suggested. Our subcommittee is going to 
have terribly difficult choices to make as well.
    But there is arm-in-arm agreement among all of us here, you 
are among friends, who we are all passionate in our support for 
NASA, and for the space program. The planetary program has 
taken a substantial and Adam is exactly right, you can say 
otherwise, but it does not make it so. It is a devastating cut 
to the planetary program.
    The administration's budget proposal walks away from 
America's leadership role in planetary exploration, it 
essentially cancels the Mars program. I think it comes from 
OMB. I think it does come from the administration. The 
cancelation of the European Space Agency agreement is going to 
make the Europeans distrust us deeply in the future. There is 
no way that you can say the Mars program survives. There is no 
way you can say the planetary program can survive a cut of 21 
percent.
    I want to circle back to a fundamental fact that Congress 
makes the laws; we are the ones that have to set policy. It is 
the President's job as chief executive officer to execute the 
law, by ensuring that it is carried out.
    The law, statutory law, enacted by the Congress and signed 
into law by the President on November 18th, just a few short 
months ago, says, ``NASA shall implement the recommendations of 
the most recent National Research Council planetary decadal 
survey and shall follow the decadal survey's recommended 
decision rules regarding program implementation, including a 
strict adherence to the recommendation that NASA include in a 
balanced program a flagship class mission, which may be 
executed in cooperation with one or more international 
partners, if such mission can be appropriately de-scoped and 
all NASA costs for such mission can be accommodated within the 
overall funding levels appropriated by Congress.''
    The law is unambiguous. This is not optional. This is not a 
recommendation of the Congress; it is mandatory. Just as with 
the construction of a 130-ton rocket to go beyond low-Earth 
orbit. What do you recommend? What should the subcommittee do? 
I mean, what amendment should Mr. Schiff and I put together? 
What portion of NASA funding should we withhold in order to 
ensure you follow the law, as the chairman unfortunately had to 
do with the heavy lift launch vehicle?
    Mr. Bolden. Congressman, I think we are following the law. 
The language that you just read said we shall follow to the 
best extent possible the recommendation of the Decadal Survey. 
And it also says that we should do the best we can do to 
collaborate with our--I do not know whether it said European, I 
think it said international partners--if the missions can be 
descoped. That is exactly what we are trying to do.
    Mr. Culberson. And the missions have----
    Mr. Bolden. We are attempting to descope in our discussions 
with the Europeans on ExoMars. I will give you an example of 
incremental descoping. The original 2018 mission was an 
American lander, a European lander. That I knew right away we 
could not do. Neither of us could afford that. That we descoped 
and said, let's do one lander; you guys can do it; we will 
provide the landing system. We are continuing to try to descope 
what was the ExoMars mission into a series of strategically 
planned incremental missions that will lead to an ultimate 
flagship mission to do a sample return. That has not gone away. 
We are still working to that.
    So two things I will say: Marines are never surrounded in 
the first place, so I am not surrounded, I do not feel 
surrounded. The second thing is, and I need to make sure people 
understand, I am excited about this budget. I do not take 
direction from any other agency. I take direction from the 
President. And so for people who think that OMB tells me what 
to do or OSTP tells me what to do, that does not happen. I go 
in and I argue just like any other head of agency or just like 
any other Secretary. And we come out of meetings where we are 
discussing priorities. Sometimes I win; sometimes I lose. If I 
ever won every argument, then something is wrong with our 
system of government.
    We are not trailing any other Nation in exploration, 
contrary to what some people may feel. Every Nation in the 
world wants to work with us, to include the Europeans. And I 
emphasize again, we have far more that we are doing 
cooperatively with other Nations in the world than our Mars 
program.
    Mr. Culberson. No question. We really sincerely appreciate 
your service to the country and appreciate the dilemma that you 
find yourself in. But the Decadal Survey language that this 
subcommittee enacted and the Congress followed through on 
passed by both the House and the Senate and signed by the 
President, makes it mandatory that NASA follow the 
recommendations of the Decadal Survey. You have got a plan for 
planetary exploration; it is called the Decadal Survey. 
Congress has formally adopted it as the vision for the future 
for the Nation, because that has always been the vision for the 
future for the Nation is in the Decadal Survey. The planetary 
scientists get together of course and pool their talent and 
resources and their opinions and make a series of 
recommendations that NASA has always flown, by the way, among 
those recommendations the flagship missions in each decade's 
Decadal Survey. This is not optional.
    Now, I understand about the descoping. That is being done. 
The members of this subcommittee, Mr. Schiff and I in 
particular, birddogged this pretty relentlessly. We are aware 
that the missions have been descoped. Both the Europa mission 
and the Mars mission have been descoped, and can be 
accomplished within affordable levels within the confines of 
what has always been the planetary science budget. So, 
obviously, the missions can be descoped. As Mr. Schiff said 
funding for NASA has been essentially flat. We are in a tough 
budget environment. We are going to work very hard to find 
additional funding. What is it that--what does the subcommittee 
need to do to make NASA follow the law here.
    Mr. Bolden. Support the President's budget request.
    Mr. Culberson. But the President's budget request walks 
away from----
    Mr. Bolden. No, sir.
    Mr. Culberson. Well, of course, it does. Mr. Schiff is 
right; You can't say it and make it so.
    Mr. Bolden. Congressman, I am not trying to make anything. 
What I am saying here is we have an effort under way right now 
with the Mars planning group that is trying to find a descope--
a method to restructure our Mars robotic and human exploration 
program to put synergy in the science and human exploration 
that we have not had before, to try to find a number of smaller 
missions that we can mount that will accomplish the scientific 
objectives that a flagship mission would have done such that 
when the funding is available for a flagship mission, we can 
mount that speedily and bring samples back to Earth.
    That is what we are trying to do. That is the exact 
guidance in the terms of reference for the Mars planning group 
that is presently beginning to work under the mentorship or the 
consultation of Mr.----
    Mr. Culberson. That is not consistent with reality, I am 
sorry. It is not consistent with reality. The President's 
budget walks away from the Mars program as well as Europa--
these are unacceptable cuts to the planetary mission, and I 
find this very disheartening.
    Mr. Bolden. Congressman, you and I just have to 
respectfully agree to disagree. I disagree. I do not think we 
are walking away from anything. I do not think the President 
has walked away from Mars. The President talks about Mars every 
time I go and listen to him talk.
    Mr. Culberson. Talking about it does not make it so.
    Mr. Bolden. Nothing makes it so except performance. And so, 
on August 5th, I think you will see the first level of 
performance from NASA on our Mars program. We will land the 
Mars Science Laboratory, Curiosity, on the surface. We will 
begin to core. We will begin to get samples. We will begin to 
analyze those samples. Humans around the world will begin to 
see color 3-D images from the surface of Mars. That has never 
been done before. That is performance. If I do not do that, you 
are not going to want to give me any money. Once I do that, 
hopefully, you will be as excited as I am about our Mars 
program.
    Mr. Culberson. Well, we really appreciate your service to 
the Nation, Administrator. We thank you and all the men and 
women in NASA. I want all of them who are listening and 
following this hearing to know that the members of this 
subcommittee are united arm-in-arm in support of America's 
space program. We are going to make sure to restore the vision 
and the excitement that the program has always had, despite the 
best efforts of this administration to throw a wet blanket over 
it.

                        COMMERCIAL CREW PROGRAM

    Mr. Wolf. Thank you, Mr. Culberson.
    I have a number of questions. I want to kind of spend a 
little time on the commercial crew issue, which I think is an 
area of a lot of concern with regard to the cost. NASA's 
commercial crew development strategy has a total price tag of 
about $5 billion. Under current assumptions, that money would 
produce crew transportation in 2017 to serve a space station to 
which the administration is only currently committed through 
2020. From a purely fiscal perspective, why does it make sense 
to invest so much money in a capability that might only be used 
for three years?
    Mr. Bolden. Congressman, we think that, provided the 
international partners and the scientific and technological 
community of the United States are willing, a space station can 
be extended well beyond 2020. We have already completed the 
engineering certification. So we are not planning--I mean, I do 
not have it funded yet, but I am not planning to end 
utilization of the space station in 2020.
    Mr. Wolf. Well, you probably will not be here.
    Mr. Bolden. But my job is to----
    Mr. Wolf. I doubt it.
    Mr. Bolden. My job is to facilitate the ability of future 
administrators to do the things that I cannot do given the 
current constraints. And that is, for example, to be able to 
execute a robust flagship mission that will include the outer 
planets, whether it is Mars or Jupiter. You know, we have got 
Pluto New Horizons on the way. That will give us information we 
do not have right now. We have got Juno on the way to Jupiter, 
so we will learn things about that planet.
    Mr. Wolf. Okay. Coming back to the commercial crew. It 
would not be unusual for a program of this complexity to 
experience engineering challenges that could cause the schedule 
to slip significantly, as we have seen in the commercial cargo 
program. How much did the commercial cargo program slip?
    Mr. Bolden. Congressman, I think if you look at what the 
original assessment was, it is probably a couple of years.
    Mr. Wolf. A couple of years. What are the chances that 
technical issues could delay a commercial crew capability 
beyond 2017, and how does that impact your answer to the 
previous question?
    Mr. Bolden. When we looked at the date that we thought we 
could bring in a commercial crew program, the funding that we 
had gave us assurance that we could do it by 2017. So we are 
confident that given the things that can go wrong, that we have 
anticipated, we think we can bring in a program by 2017.
    Mr. Wolf. So you think there are no----
    Mr. Bolden. No, sir. I think there are unknown unknowns out 
there, and we know about how much time it generally takes to 
deal with issues that you don't understand.
    Mr. Wolf. Keeping the 2020 date in mind that people are 
talking about----
    Mr. Bolden. Yes, sir.
    Mr. Wolf. Last month's Space News reported that NASA's 
Director of Commercial Space Flight Development Phil McAlister 
said that the commercial crew program does not really make 
sense, if it does not receive the full $830 million request 
this year and in the future. Do you agree with that comment? He 
said, this is Phil McAlister, who works for you, that the 
commercial crew program does not really make sense if it does 
not receive the full $830 million request this year and in 
future years. Do you agree with that comment?
    Mr. Bolden. I am not sure how Phil characterized his 
comment or where the quote was taken from, but the commercial 
crew program makes all the sense in the world.
    Mr. Wolf. I understand that. I just wanted to know if you 
agreed. He said it does not really make sense if it does not 
receive the full $800 million.
    Mr. Bolden. I would not agree with that statement.
    Mr. Wolf. Given that the administration is asking for a 
commitment of nearly $4 billion more in development subsidies 
over the next five years, does it make sense to continue this 
program if it does not receive the full funding? So you, in 
essence, have kind of answered that.
    Mr. Bolden. Congressman, what I am saying is we have 
requested an amount that is significant.
    Mr. Wolf. I understand that.
    Mr. Bolden. But I am just saying, we have agreed, because 
of the fiscal challenges, we have agreed to come down on the 
amount of money that we requested for commercial crew. Our 
original request was in the neighborhood of $1.2 billion to 
$1.5 billion annually to support that program when we were 
trying to close the gap between shuttle and the availability of 
an American capability. We did not get that funding. And as I 
told you all last year, if I did not get, I think I had said an 
arbitrary floor of $500 million. We did not get that, and so we 
are now stuck with a 2017 availability date for commercial 
crew.
    All I can say is if we are fully funded to the amount 
requested by the President, I can bring in commercial crew by 
2017. And depending on what the unknown unknowns are, we may be 
lucky and we may bring it in sooner than that. But it is too 
early to tell. This summer, we will get an opportunity to look 
at the proposals from industry on what they see as a system. We 
have not looked at systems before. We have looked at modules. 
We have looked at launch vehicles but not an integrated system.
    Mr. Wolf. Well, I think it is helpful that you did not 
agree with Mr. McAlister. That was the point.
    Mr. Bolden. I do not agree that any amount of money says 
that the program is not worthwhile. That is not true.
    Mr. Wolf. What is the primary goal of the commercial crew 
program, to close the gap during which we have to rely on the 
Russians or to seed as many commercial companies as possible 
with development subsidies?
    Mr. Bolden. The commercial crew program has multiple 
objectives. My number one objective as the NASA administrator 
is to put a program into place that supports the International 
Space Station, that gives us an American capability to get our 
own crews to orbit and not have to be reliant on the Russians. 
But also, because I am the NASA administrator and I am 
compelled to support the national space policy, it is also to 
grow the economy. It is to build a viable commercial space 
industry that brings jobs to this Nation and helps increase 
funding in our economy, and it is doing that already.
    Mr. Wolf. I would think most members up here would agree 
that the top priority is closing the gap and not seeding the 
companies, but maybe I am just speaking for myself.
    During your testimony before the House Science Committee, 
Congressman Costello from Illinois asked you about the 
commercial crew program and whether it was worth the investment 
given the lengthy development. You responded, and this is your 
quote, ``we are going to develop a commercial capability for 
the benefit of the American economy, but it may not make it in 
time to serve the International Space Station''. Did you say 
that?
    Mr. Bolden. Congressman, I probably said that when we were 
talking about--as again, I said I do not like to deal in 
conjecture about funding. And I think the question sort of, if 
I remember correctly, it talked about what happens if you get 
less money? And a statement that I would make if you asked me 
the question, if we get less money, the gap is going to widen, 
and we probably will not make 2017. You could fund us to a 
level that we could not have commercial crew available by 2020, 
but that still does not make the program worthless, useless.
    You know, if the primary objective of some is to produce or 
facilitate the success of a commercial industry that brings 
jobs back to this country and feeds the economy, then you could 
do that over any period of time. That is not my primary 
objective. As I said before, my primary objective as the NASA 
administrator is closing the gap so that I do not have to rely 
on the Russians to take my crews to the International Space 
Station.
    Mr. Wolf. You know a lot about this, and I have great 
respect for you. I think people say that sometimes when they 
are ready to put a dagger in somebody.
    Mr. Bolden. That is okay.
    Mr. Wolf. No, I do. I think you are a good person. You are 
one of the nicest people that I have ever met in this business, 
and I appreciate your service to the country. But if we are 
talking about 2020, and we are talking about 2017 maybe, then 
it may not make it in time to serve. Then when Mr. Schiff is 
talking and Mr. Culberson is talking, I tend to feel their 
concern because I want America to be number one.
    So if we are even reasonably concerned that the commercial 
crew program may not deliver in time to serve the International 
Space Station, I guess the question somebody would have to ask, 
and I am not saying I am opposed to it, but why should 
taxpayers spend an additional $4 billion subsidizing companies 
to develop these systems when other programs that are 
meritorious have to be cut? So is it time to revisit some of 
the assumptions about the commercial crew program?
    Now, the commercial crew people, and they are probably out 
there now, have hired a lot of lobbyists in this town. This is 
a big job enhancer for the lobbyists downtown. But that is not 
necessarily what is in the best interest of the American 
people. So do you have a plan B option for the Space Station?
    Mr. Bolden. Do you mean if commercial crew is not available 
before the agreed upon time for a station is reached?
    Mr. Wolf. Right.
    Mr. Bolden. You know, plan B for us is to make sure that we 
select more than one alternative this summer to carry forward. 
That is our plan B. It is plan A and plan B. If we end up with 
one provider, the chances of being able to get to 2017 
successfully and affordably is diminished. So the reason we 
selected $830 million is because it provides more than one 
candidate provider. And I do not even want to talk about the 
numbers. The numbers depend on what the level of funding is.
    Ideally, you would like to have three or four American 
competitors vying for a contract to carry American crew members 
to space, such that you would have a minimum of two when you 
ended up with who are available to do that. So it is such that 
you have redundant reliable routine access to space via 
American companies. If we go down to one at the end of the 
game, that is okay, but now our redundant backup is where we 
are today, and that is Russia, and I do not want to be there.
    Mr. Wolf. Well, will we be relieved of the cost of 
purchasing Soyuz seats as soon as the first commercial crew 
capability enters into service?
    Mr. Bolden. As soon as the first commercial crew capability 
enters into service, I am done.
    Mr. Wolf. So there will be no overlap services?
    Mr. Bolden. To my knowledge, we have no plans to go back 
and forth once we have American capability.
    Mr. Wolf. We have heard there may be an overlap period of 
time. So you are saying once this is over, it is over?
    Mr. Bolden. Congressman, what you may be referring to is 
because we need relief INKSNA, the Iran, North Korea and Syria 
Nonproliferation Act, in order to get relief from that, it goes 
beyond the period that we anticipate an American capability 
will be available. So that may be what people are talking about 
when you say will there be overlap. The INKSNA waiver will 
overlap the time that American capability becomes available. 
But I have no intention of using Soyuz once I have an American 
carrier that can get us to ISS.
    Mr. Wolf. How much is it per trip?
    Mr. Bolden. $450 million per crew member right now with 
Soyuz.
    Mr. Wolf. $450 million.
    Mr. Bolden. To train a crew member and get them to the 
International Space Station. And that is money that is going to 
Russia, that is taxpayer money going to Russia, not going to an 
American company, not going to jobs in the United States of 
America, not going to any of your districts. Because unless 
somebody there is contracting as a subcontractor to Roscosmos 
or to Energia. It is not coming here.
    Mr. Wolf. I think there is a misunderstanding. That is a 
year; that is not per seat?
    Mr. Bolden. Well, it is a year that we paid them.
    Mr. Wolf. What is it per seat?
    Mr. Bolden. I think it is $63 million per seat.
    Mr. Wolf. And is the price locked in?
    Mr. Bolden. It is locked in for now. But there will come a 
time if we do not close the gap----
    Mr. Wolf. When is it locked in until?
    Mr. Bolden. Congressman, let me get back to you. I think it 
is 2016, but I will verify that.
    [The information follows:]

            Crew Transportation, Rescue And Related Services

    In March 2011, NASA signed a $753M modification to the current 
International Space Station contract with the Russian Federal Space 
Agency for crew transportation, rescue and related services from 2014 
through June 2016 (through Soyuz landings in spring 2016). The firm-
fixed price modification covers comprehensive Soyuz support, including 
all necessary training and preparation for launch, flight operations, 
landing and crew rescue of long-duration missions for 12 individual 
space station crewmembers.

    Mr. Wolf. The administration believes that maximizing 
competition is a cost-control measure. However, it also ensures 
that we will spend hundreds of millions of dollars on companies 
who will never take crew to the International Space Station, 
either because they fail to develop a capability or because 
there is not enough demand for International Space Station 
transportation to award multiple contracts. How do we know the 
value of this competition is worth the added cost of adding so 
many firms who will not make it to the end? Could adequate 
competition be provided through down selecting to two companies 
and maintaining the option of using the Soyuz services?
    Mr. Bolden. Congressman, our intent is to eventually select 
two or more, as you say. I do not think there is any 
competitive advantage, price advantage or schedule advantage to 
selecting one at this time, or to selecting two before we have 
the proposals from industry so that we can tell who is serious, 
who is following the design requirements that we have laid out 
and provided to everybody, and that will take us awhile, 15 to 
20 months.
    Mr. Wolf. We defeated the Nazis in four years, so is there 
no effort of making this basically a wartime proposal bringing 
together the very best minds in the four companies or the three 
companies or the two companies now, knowing that everyone would 
get something and be a participant in some future? But, the end 
result is like musical chairs, there is only going to be one 
that gets to sit down on the chair. So there is no 
consideration of bringing the companies together.
    Mr. Bolden. Congressman, we have encouraged companies to 
collaborate to the greatest extent possible. If you look at--
there is one potential entrant that is a collaboration of an 
American company and a European company. I think there is one 
that is potentially a collaboration between two American 
companies. I cannot mandate that the companies come together. 
And I referred you to the, you know to one of our American 
companies. I am not even sure if they are planning to propose. 
But I felt it would be prudent to have someone from industry 
say what their thinking was about collaboration. And I think--I 
am not sure what he told you, but what he has told me and what 
others have told me is the time to do that has passed, that 
nobody wants to come together right now.
    Mr. Wolf. Okay. I have a lot other questions, but I will go 
to Mr. Fattah.
    Mr. Fattah. Administrator, I think a number of things. One, 
I think the administration has set the Nation on a course 
through commercial cargo and crew that will benefit us for 
decades to come in terms of reduced costs and building a 
commercial space capacity that will mean jobs and the like.
    The resistance to it is notable. You know, the idea that we 
would not believe that American industry has the ability and 
the ingenuity to take on something that the government has been 
doing on a regular basis, on a routine basis, to shuttle 
flights. I do not really understand. I know that I think it can 
be done.
    And I do note that Virgin Galactic has just sold their 
500th seat in terms of space tourism. So the idea that private 
companies cannot do this and that we cannot use competition as 
a way to drive down costs, I think we can, so I am a big 
believer.
    I do agree with the chairman, however, that what we see in 
the private sector and some of the most successful work that is 
done, at some point competition gets you to a certain point, 
and then cooperation gets you to the kind of gold medal. And so 
there will be a time in which through this process, I believe, 
some of these companies will work together. I think we got to 
get the politics out of our space exploration efforts.
    I totally agree with my colleague from California about 
these cuts in planetary science. But when the gentleman from 
Texas brings in these attacks on the administration, I think it 
is nonproductive. What we need to be focusing on is the fact 
that we have an administration that even in the toughest of 
times is prepared to commit American tax dollars to our 
continued global leadership in space.
    And we may have differences about how we ought to proceed. 
I have differences with my wife on almost any day I want to go 
out and play golf, that she thinks I should be doing something 
on her list. So there are going to be disagreements. But what I 
think that the chairman is trying to do is move us on the 
substance of these issues. There is no politics in our 
competition with emerging countries like China and others. This 
is not between Democrats or Republicans here; this is about the 
United States of America and our leadership in the world. And I 
know that the gentleman from Texas has really helped lead the 
way in terms of space and does not mean to bring this kind of 
down to a partisan thing.
    The President is committed. The only difference that I can 
figure out is that he wants to use American companies through 
commercial crew as one of the important issues here, and that 
rather than go back to the moon, he wants it to go to Mars, 
right. He wants NASA to return to its mandate of exploring, you 
know like really pushing the envelope here.
    So I think we ought to work together. And we can fully 
disagree with the administration or anyone else, but I think we 
should keep the politics out of this as best as we possibly 
can. This is not an area where I understand why we would have 
politics in it. So I want to thank you for your work.

                            EDUCATION BUDGET

    And I do want to ask you about the education budget. One of 
the hits in your proposal is in this education frame. And I am 
very concerned about this. One of the reasons for NASA, ever 
since President Kennedy's speech at Rice University in 1962, 
was to inspire more engineers and scientists. And so I think we 
ought to be doing more, not less. I know that you are trying to 
integrate educational activities throughout the agency, but I 
would like you to speak to what these proposals will mean from 
the education budget.
    Mr. Bolden. Congressman, what the reductions mean in the 
education budget is that in the classic manner, we would reach 
fewer schools or fewer museums or fewer students if we did 
business the way we have always done it. What we are trying to 
do is we have an education design team in place that is looking 
at revamping the way that we conduct our educational programs.
    Leland Melvin, who is the head of education for me, co-
chairs what is called CoSTEM or Cooperation in STEM Education, 
that is under the auspices of the Office of Science and 
Technology Policy. And there are representatives from every 
agency of government that has educational programs. We are 
trying to find synergies among our programs such that we spend 
less but we achieve more. We now are demanding metrics, what I 
call measurable results from what you do. Unfortunately, two 
years ago, I couldn't tell you what was accomplished from my 
education budget. I could tell you that we reached 10,000 kids, 
but I can reach 10,000 kids out here on the street, and I have 
no impact on them whatsoever. Am I giving them something that 
goes into their brain that makes them want to get into science, 
technology, engineering and math fields? And that is what we 
are trying to do now.
    I have to tell you, a program that I helped introduce 
called the Summer of Innovation, I now have questions as to 
whether that is the way that I want to continue to do things in 
the future now that I have begun to work more with industry. 
And I find that they like that idea, and they can do the same 
thing on their dime. It may be that I find ways to collaborate 
with them. So there are untapped ways that we can collaborate 
with industry as well as other agencies to get more bang for 
our buck, if you will. So I am not concerned presently that the 
impact of our education program is being decreased.
    Mr. Fattah. I want to thank you. And I am concerned a 
little bit about it and will explore with the staff a little 
bit more.
    Mr. Bolden. I understand.
    Mr. Fattah. But I do want to thank you for your personal 
commitment. I was over at a school here in D.C., and you had 
been there the week before me over at Cornerstone. And it was 
great that you had been there, and I saw the pictures of you 
interacting with the kids. So thank you very much.
    Thank you, Mr. Chairman.
    Mr. Wolf. Thank you. We are going to go into a couple other 
areas. We have a lot of other questions on aeronautics.
    But before we do, I just ask you, because you are going to 
reach a certain point when it cannot be done, to bring the 
companies in and see we are not taking competition out. We beat 
the Nazis by coming together. And we are in a war. It is a 
different type of a war, but it is a struggle for dominance 
with regard to America being the dominant power in space. You 
want that as much as anybody else.
    Mr. Bolden. Yes, sir.
    Mr. Wolf. But I think it would be helpful to bring them 
together and give them the opportunity. Because some are going 
to get zero, when they could get all for one and one for all. 
So you might just do that.
    Now, in checking around, there will be a point when people 
have so many investments and different processes that cannot be 
connected, and therefore, it is too late. But I would ask you 
to look at that. At least give them an opportunity to express 
whether or not they could. And by getting any savings that we 
could would also allow us to continue the Mars program and 
programs like that. But I would ask you to do that.

                      AERONAUTICS BUDGET PROPOSALS

    The administration says it places a high priority on R&D 
programs that develop and transition technical innovations from 
Federal agencies into industry. You had mentioned that earlier 
with regard to Boeing. Your aeronautics program has developed a 
dozen new technologies and processes that are used in aviation 
manufacturing and airline operations today and is at work on 
others that will emerge in the next five to ten years. And yet 
the aeronautics program is slated for a decrease in the budget 
request. Why isn't your program being considered a budget 
priority like other R&D programs with direct ties to 
manufacturing and job growth, since you mentioned job growth 
with regard to the commercial crew?
    Mr. Bolden. Congressman, because we now have a Space 
Technology Program and an Office of Chief Technologist, which 
we did not have before, we are able to take some of the 
programs that used to be in the aeronautics portfolio, for 
example, hypersonics. The entry and descent landing that 
Congressman Schiff mentioned. Entry and descent landing up 
until was carried as a part of the aeronautics budget, and it 
is now in the Office of Chief Technologist because that is more 
in keeping with technology development to support a planetary 
mission, a Mars mission, if you will.
    We are also collaborating with other agencies to find out, 
because some of our aeronautics research does not benefit NASA. 
It benefits the Nation. It benefits the Department of Defense. 
And so we are trying to say, okay, if this is something that is 
good for the Nation, we need to look at different ways to 
collaborate on the funding. NASA should not pay the whole bill 
for this particular capability if it is not for civil space. 
And we are doing that. In my meetings with senior leaders in 
DOD and senior leaders in DARPA and other places, we are trying 
to decide how we better appropriate the funding, responsibility 
for funding for some of our aeronautics programs, such that we 
can do more with what we have.
    Mr. Wolf. The aerospace industry has consistently run trade 
surpluses for the United States, with a surplus in 2010 of $60 
billion. A big driver of these surpluses has been the export of 
aviation technology, much of which had its roots in research 
done by NASA's aeronautics program years ago. By pulling back 
from the aeronautics program now, do you run the risk of 
failing to produce the technical innovations that will fuel our 
exports in the next decade and beyond, and can we sustain 
America's leadership in aerospace technology with decreased 
investments in aeronautics research?
    Mr. Bolden. Congressman, what we are trying to do actually 
is we are not pulling back from aeronautics. I think in many 
cases, what I am asking them to do is look at programs that we 
have had on board for many years that may have reached the 
maximum return on investment, and what are some of the 
innovative things that we should be doing now? We are involved 
in, for example, water ice testing to help industry to prevent 
engine shutdowns, undesired engine shutdowns at altitude and 
clear air because they accumulate clear ice on the stators in 
an engine and cause it to flame out. Those are important things 
that we do. And we were not doing that before.
    We have reconfigured a wind tunnel at the Glenn Research 
Center in order to be able to do that kind of testing. So 
gradually what I am asking them to do is look at new things 
that we can do in the portfolio that bring direct return on 
investment to American industry. We are trying to do exactly 
what you say.
    Mr. Wolf. The budget request essentially eliminates your 
hypersonic research program. What is the effect of that? And 
will DOD pick that up?
    Mr. Bolden. That is a question that I am asking. And again, 
I hate to keep going back to collaboration with Secretary 
Donley and Dr. Dugan over at DARPA. But when the decision was 
made that we were no longer going to fund mainly air breathing 
hypersonic research, because we retain what we called entry and 
descent landing portion of hypersonics. There are a number of 
different things. Air breathing hypersonic research is critical 
for the Nation because it is critical for defense. That is not 
something that the civil space community, at least some people 
do not believe the civil space community has a need for right 
now. But we have the expertise. So what we are trying to 
collaborate with DOD and DARPA and others on is, okay, you pay 
for it, I will continue to do the work, so we will do it as 
reimbursable work. That is underway. It is just too early to 
tell.
    Mr. Wolf. Did the country make a mistake by canceling the 
SST years ago?
    Mr. Bolden. Congressman, I don't know. We keep trying to go 
back to supersonic transport. I think we will get there one of 
these days.
    Mr. Wolf. And what is your opinion? You were a pilot at 
that time.
    Mr. Bolden. As a pilot, I would say, yes, we made a 
mistake. But that is a--purely pulling it out.
    Mr. Wolf. I respect your opinion.
    Mr. Bolden. My humble opinion as someone who is totally 
uninformed of where the SST program was at the time----
    Mr. Wolf. It was flying. It came into Dulles.
    Mr. Bolden. It is easy for us to go back and point out 
mistakes that we made in terminating programs.
    Mr. Wolf. I was just wondering. And that is why I was 
hoping you would tell me what the lesson is. Did we miss an 
opportunity or was that a good decision?
    Mr. Bolden. In hindsight, because I am not informed, but 
based on what I know now, it probably was a good decision at 
the time because NASA is now involved in research to help 
minimize the effect of sonic booms on communities.
    Anytime you go supersonic like a supersonic transport had 
to do, you disturb communities unless you can find a way to 
minimize the impact of that sound wave traveling to Earth. We 
are a lot smarter today than we were back then. We have not 
abandoned it. We are coming back to it. In the future, I think 
you are going to see a successful supersonic transport.
    Mr. Wolf. Was that in the late '70s when that was 
abolished?
    Mr. Bolden. I will have to get you that information.
    Mr. Wolf. No. That is okay.
    Mr. Bolden. But the research we are doing now at the Glenn 
Research Center, Langley, and mainly at Dryden, the flight 
test, we have actually demonstrated that we can minimize the 
impact of sonic booms. But that is in its formative stage. We 
are not there yet. But that is the kind of new research we need 
to do in our aeronautics support portfolio.
    Mr. Wolf. The National Research Council, which is part of 
the National Academy, just released a report saying that NASA 
has not been sufficiently investing in aeronautics flight 
research and that this will inhibit NASA's technology from 
being readily accepted in the marketplace. How do you respond 
to that? This is a leading question, but should NASA spend more 
on flight research even if it means reducing other priorities 
as the NRC recommends? Do you respect the NRC?
    Mr. Bolden. I have high respect for the NRC.
    Mr. Wolf. Who is the chairman?
    Mr. Bolden. I will get that information for you, sir.
    I don't remember who the chairman of the study was, but in 
talking with Mr. Jaiwon Shin, who heads my aeronautics mission 
directorate, we do not fully agree with all of the findings of 
the committee. In principle, we do. And where I agreed that I 
just alluded to you is we do need to take a look at our 
portfolio and abandon programs that have been on our plate for 
years, that continue to give marginal return.
    Russ Harris.
    Mr. Wolf. Did you read the report saying that NASA has not 
been sufficiently investing in aeronautics flight?
    Mr. Bolden. Yes, sir. That is why I am saying I disagree in 
some respects with the findings of the report.
    I agree that we need to be much more aggressive in looking 
for new technologies that we can develop that will bring 
speedier results. One of them that they gave is supersonic--is 
mitigation of supersonic--of sonic booms. We are working on 
that.
    There were a number of things that they called out that 
NASA should be doing that we are doing. So that is why I say I 
don't fully agree with the report. They didn't fully appreciate 
the research that is presently going on in NASA.
    Mr. Wolf. Will NASA be doing a rebuttal to that?
    Mr. Bolden. As a general rule to an NRC report, if we are 
asked, we write a comment. And we will respond, because our 
aeronautics mission directorate has already been meeting with 
the committee, the people who delivered the report, because we 
asked for it. So we will have to go back and respond to them 
and say, okay, thanks very much, here is what we are going to 
do, here is what we can't do, and here is what we need to think 
about. So we are going to try to do this.

                        CHINA'S SPACE ACTIVITIES

    Mr. Wolf. Have you read China's five-year plan for space 
activities issued in December? And, if so, what is your 
assessment of the likelihood that they will achieve the goals 
laid out in the plan, especially with respect to human space 
flight?
    Mr. Bolden. Congressman, I am remiss. I have not read it 
since you told me to stay away from bilateral activities.
    Mr. Wolf. You can read books about it.
    Let me say, I love the Chinese people. I probably meet with 
more Chinese people than any other Member of the House, any 
other Member. I probably have a deeper and greater relationship 
with more Chinese than any other Member of the House. Period. 
That includes the members of the International Relations 
Committee and wherever they are.
    We had a whole group that came over here in February. All 
of the dissidents that come. I love the Chinese people. They 
are marvelous people.
    So you can read about it--in fact, if you want to have some 
of the books that I read, I can send them over to you to read. 
That doesn't mean that you can't read or talk. This is not 
against the Chinese people.
    Mr. Bolden. Yes, sir.
    Mr. Wolf. My concern is the people who have the Chinese 
bishops under house arrest or have the pastors in jail or have 
Liu Xiaobo, the Nobel Prize winner, in jail or have his wife 
under house arrest or are spying against it. The Chinese people 
are wonderful. It is that little group.
    Mr. Bolden. Yes, sir.
    Mr. Wolf. So you haven't read it. You should. I would like 
to get your comments on.
    If the Chinese were to successfully achieve the goals of 
that plan--but since you have not read it, I will submit this 
question for the record.
    Mr. Bolden. I will take a look, and I will give you an 
answer. But, congressman, if I can, I will say, you know, I do 
know vaguely what their objectives are, and they have different 
objectives. They focus on the Moon, and we focus on Mars.
    Mr. Wolf. My question that I will submit is, if the Chinese 
were to successfully achieve the goals of that plan, how would 
the quality and quantity of their achievements compare to what 
NASA expects to do over the same time period? And what will our 
relative position in terms of space leadership at the end of 
the five years be?
    [The information follows:]

                      China's Five-Year Space Plan

    It is difficult to compare China's proposed space program 
objectives with NASA's likely accomplishments over the next 5 years. 
The current development path of China's emerging space program appears 
to mirror the progress made by the United States in the 1960s and 
1970s, Advances will potentially be marked by historic technological 
milestones, such as demonstrating short-term habitation of an orbiting 
space laboratory, completing a regional GNSS constellation and perhaps 
even landing a robotic rover on the moon, but China's level of 
technological sophistication remains behind that of the U.S. today. In 
contrast, as a mature space program, NASA's likely achievements in the 
next 5 years will reflect more consistent innovation and progress 
across a broader range of space exploration and science activities that 
currently include dozens of complex active and planned human and 
robotic missions throughout the solar system.
    The NASA FY 2013 budget request and associated out-year budgets 
will allow the Agency's human spaceflight, exploration, science, and 
aeronautics programs to maintain their pre-eminent status at the top of 
global science, engineering, and technology. The International Space 
Station will continue its strong role in showcasing the advantages of 
long-term international human presence in space for microgravity-based 
research. NASA's efforts to foster commercial crew and cargo 
capabilities to low-Earth orbit (LEO) will allow U.S. industry to 
conduct many of the same activities being undertaken by the Government 
of China for the very first time. In parallel, NASA will continue to 
focus its efforts on the development of the next generation of heavy-
lift launch vehicle and a multipurpose crew vehicle for use beyond LEO. 
NASA's planned upcoming science missions will expand our existing 
global Earth observation system and push the boundaries of our 
knowledge in space science.

    Mr. Bolden. I will look at the plan, but I can tell you I 
can almost guarantee that, after I read it, I will tell you 
that the quality of what they produce will be dwarfed by what 
we do. They have a long way to go to be as capable as we are.
    While we should not rest on our laurels, one of the reasons 
why we need to continue to fund technology development is so 
that we stay way ahead. As we decrease our funding in 
technology development, we will still be ahead, but the gap 
will close. I can tell you that without reading the report. 
That is the same for any nation.
    I use the Tiger Woods analogy. Tiger, his game is still 
good, but when you look at what other players have done in the 
gym and other places based on his example, the world is 
catching up. That is the same way we are. We are really good, 
but if we stay out of the gym, if we don't put sufficient funds 
into technology development, into education, as you have 
mentioned, into commercial crew, others will catch up with us.
    Mr. Wolf. One of the major goals outlined in the Chinese 
space plan is to increase international cooperation. Of course, 
you are limited in the amount of bilateral activity you can 
engage in with them, but you can and do participate in 
multilateral activities. Is it your expectation that NASA's 
multilateral engagement with China will increase? And, if so, 
in what context and for what purposes?
    Mr. Bolden. Congressman, I don't presently see that any of 
our activity with China will increase in the next year or two 
because we just don't have any discussions that are going on.
    As I told you in my phone call after the heads of agency 
meeting, we do know that our international partners are 
actively engaged on a bilateral basis with the Chinese. 
Hopefully, we will benefit by whatever they do with the 
Chinese, but we do not have any intention of cooperating or 
participating.
    Mr. Wolf. Good. And our international partners will share 
with you?
    Mr. Bolden. They have been very candid. The transparency 
among the international partners has been incredible. None of 
them have tried to hide the level of their relationship with 
the Chinese, and I don't expect that they will. They know our 
situation. They tell us as much as they can.
    Mr. Wolf. Good.
    Last month, the Defense Intelligence Agency chief, General 
Ron Burgess, testified before the Senate and said, ``China's 
ability to track and identify satellites is enhanced by 
technologies from China's manned and lunar programs as well as 
technologies and methods developed to detect and track space 
debris. Beijing rarely acknowledges direct military 
applications of its space program and refers to nearly all 
satellite launches as scientific or civil in nature.''
    He also noted, ``In recent years, more cases of economic 
espionage and theft of dual use and military technology have 
uncovered pervasive Chinese collection efforts.''
    Do you agree with General Burgess' assessment of China's 
efforts to acquire U.S. space technology?
    Mr. Bolden. Congressman, I don't have the advantage that he 
does, but my guess would be yes.
    Mr. Wolf. Have you been out there for the FBI briefing?
    Mr. Bolden. I have not had a briefing recently. I have been 
trying to get one lately. But we are working on it.
    Mr. Wolf. I would ask that we help set that up.
    Mr. Bolden. They are perfectly willing. It has been my 
schedule that has been the hold-up.
    Mr. Wolf. It is pretty important.
    Mr. Bolden. I intend to do that.
    I would say, dual use technologies and dual use things in 
general, everything is a two-edged sword. There is nothing 
today that we do that doesn't have an up and a downside.
    Prior collaboration with the Chinese, for example, was in 
the area of debris mitigation and debris detection. Everybody 
wants to know how to find stuff out there. That has a bad side. 
In terms of certain communities in this country, that is not 
good--for people to be able to detect everything out there.
    So there are things that I can't do that I am asked not to 
do because they would put our national security at risk. So is 
there a risk, yes, there is. But we do need to know what they 
are doing.
    I think the area where you and I respectfully disagree--and 
we have discussed this at length--my belief is it is only 
through collaboration and engagement that I am able to know 
better what they are doing.
    But I rely right now on other agencies helping us 
understand that. I rely on my international partners helping us 
to understand where they are technologically, and that is why I 
can say with confidence that, even if their five-year plan 
works, yes, they are like all of the kids chasing Tiger Woods, 
but we are still--we are okay.

                           COMPUTER SECURITY

    Mr. Wolf. Speaking of engagement, NASA's Inspector 
General--different types of engagement--recently testified that 
over the past two years NASA had more than 5,000 computer 
security incidents resulting in the installation of malicious 
software on or unauthorized access to NASA systems. Do you have 
a sense of how this compares to experiences in other major 
agencies?
    Mr. Bolden. Congressman, I just had a meeting with my IG 
yesterday, and I am not privy to the report that is presently 
ongoing. But I do know--what he told me, and I will only repeat 
that, is that my folks say we are woefully deficient compared 
to other agencies, and that is something that concerns me 
greatly.
    You will see from the day that the NASA IG was here 
testifying with my chief information officer, we have put 
things into place. We now have a policy that I am about to sign 
out that will require us to encrypt all portable IT devices. 
That is iPads, laptops, smartphones.
    Do I find it incredible that we weren't doing that? Yes, I 
do. Whose fault is that? It is mine. I should have known that.
    Mr. Wolf. That is why I think it would be helpful to do the 
briefing. China was the result of most of these impacts.
    Mr. Bolden. Congressman, I take your word.
    Mr. Wolf. I will go with you, again. But it is really 
important.
    Mr. Bolden. You have more to do with your time.
    Mr. Wolf. No, I will be glad to do that. Mr. Fattah is 
going to come next week. But I think when you go out there and 
see it, you will be like, wow, I can't believe it.
    Mr. Bolden. I haven't talked with the DIA or anybody else, 
but my guess is that the vast majority of the hits that we get 
are kids. They are hackers who are doing it because they can. 
They want to demonstrate that they are better than we are. They 
don't think what they are doing is malicious, but it is 
malicious. Because as soon as somebody finds a way to break 
into something, it gets out. So we have to find ways to protect 
ourselves against our own people who do not have any malicious 
intent.
    Encrypting our devices is one way to do it. We guard 
against anything getting to the International Space Station or 
satellites on orbit because that is heavily encrypted as 
commands are sent, so we are comfortable there.
    Mr. Wolf. This may be more than kids, though. Your IG 
raised a number of incidents--thefts of laptops containing 
Space Station control codes, unauthorized access by hackers to 
mission-critical JPL systems, and the electronic theft of 
employee credentials. So I guess the question is, have you 
fully mitigated the losses associated with the events discussed 
in that testimony? And I saw that Senator Nelson raised that.
    Mr. Bolden. Congressman, we are making every effort we can. 
We are expediting our efforts to take mitigating actions 
against the things that have occurred that we don't want to 
reoccur.
    Mr. Wolf. Well, the IG said that 75 percent of the cyber-
related recommendations made by his office have been 
successfully closed. For the remaining recommendations, are 
they outstanding simply because NASA is still in the process of 
implementing them or is it because you don't agree with them?
    Mr. Bolden. Oh, there is nothing that I don't agree with. 
The main reason that they are not fully implemented yet, cost, 
difficulty of accomplishing it. And a discussion the IG and I 
had yesterday was he assumed that to encrypt all of the 
equipment under his responsibility would be very simple. He is 
the IG, and he has people all over the country, and he should 
just tell them to do it.
    However, each of his people is resident at a NASA center 
that has its own IT system and system of control. That is 
another thing. That is a governance issue that may not seem 
like a big deal, but it is a governance issue that I am working 
on right now, and that is to make sure that my chief 
information officer has oversight of these types of issues 
across the agency. That has not been the case before. In the 
millions of dollars that are available for IT and IT security, 
the chief information officer only has control of a very small 
portion of that, and that may need to change.
    And I would correct one thing. ISS was never in jeopardy. I 
tried to emphasize that. There were no commands that could be 
sent that were not sent. So ISS has never been in jeopardy. The 
interference we got with Terra and some other satellites, their 
control has never been in question.
    Mr. Wolf. Rather than going into the deep question, but 
NASA's CIO lacks authority to impose security policies. Would 
you want the committee to carry language?
    Mr. Bolden. No, sir. I do not.
    Mr. Wolf. But we urge you to address the problem. Do you 
want us to direct you?
    Mr. Bolden. Congressman, you have directed me. When it 
became known to me the deficiencies we had, that is direction 
enough.
    Mr. Wolf. OK. Could I ask, please, if the CIO would also 
join you then out there at the briefing?
    Mr. Bolden. Sure.
    Mr. Wolf. OK. I have a few more. Do you want me to go, Mr. 
Fattah?
    Mr. Fattah. Please. I am done.

                SPACE SHUTTLE TRANSITION AND RETIREMENT

    Mr. Wolf. According to the budget request, fiscal year 2013 
will be the last year of shuttle close-out payments. However, 
the request is predicated on the assumption that NASA will be 
able to meet a substantial pension liability payment later this 
year. If the liability is unexpectedly large, some shuttle 
retirement work may have to be deferred. What is NASA's most 
current estimate for its pension liability needs? If this 
estimate turns out to be correct, can you stay on schedule for 
completing shuttle closeout?
    Mr. Bolden. Congressman, we feel confident we will stay on 
schedule for shuttle closeout. The funding that is required to 
take care of the USA pensions is in place; and the final 
determination, as your information says, is partially dependent 
on where the market is on the day the final payments are made. 
But we are okay financially in order to be able to meet that 
obligation on the part of the government, and hopefully we will 
not have this discussion after this fiscal year.

        NEGOTIATING WITH RUSSIA FOR SPACE STATION TRANSPORTATION

    Mr. Wolf. OK. On the Space Station again, NASA will need to 
begin negotiation soon to increase the number of Soyuz seats it 
has purchased to maintain International Space Station access 
while waiting for commercial capability. How are you estimating 
the number of additional seats you need to procure when you do 
not know when the commercial capability will become available?
    Mr. Bolden. Congressman, what we have done is we have made 
an assumption that we will have private American commercial 
capability available in 2017. So we know how many seats we are 
going to require through 2016. So that is the way we base our 
requests for funding for payments to Roscosmos.
    I will add, because it goes back to a question that I was 
asked earlier, we are working within the Administration on the 
language that will come in that will request the appropriate 
INKSNA extension that will support our requirement for 
additional Soyuz seats that will take us through 2017.
    Mr. Wolf. The additional Soyuz purchases for crew rotation 
and rescue will require an extension of the exception to the 
Iran, North Korea, Syria Nonproliferation Act?
    Mr. Bolden. Yes, sir.
    Mr. Wolf. Last time that was done in an appropriation bill. 
Do you have a legislative strategy to seek that waiver? How are 
you going to do that?
    Mr. Bolden. I will take that for action and get back to 
you.
    [The information follows:]

             Iran, North Korea, Syria Non-Proliferation Act

    Some modification of the Iran, North Korea, Syria Non-proliferation 
Act (INKSNA) provisions will likely be required for the continued 
operation of ISS and other space programs after 2016. The 
Administration plans to propose appropriate provisions and looks 
forward to working with the Congress on their enactment.

    Mr. Bolden. Right now, as far as I know, we are going back. 
Because the State Department has concerns, the whole 
Administration has concerns about extension of INKSNA, and that 
is being worked through the interagency process.
    Mr. Wolf. Because Russia is aiding the Syrians, as you 
know. The Syrians are killing their own citizens.
    I am jumping around a little bit.
    Mr. Bolden. Yes, sir. And I will say, because Russia is a 
partner on the International Space Station, we will always be 
reliant on the Russians for certain aspects of operation of the 
International Space Station.

                     RESEARCH ON THE SPACE STATION

    Mr. Wolf. Sure.
    The cost of maintaining the International Space Station and 
transporting astronauts to it won't be worthwhile if you don't 
do a better job of maximizing the research potential. Out of 
the $3 billion that we spend annually on International Space 
Station, only $229 million is for research, and more than half 
of that is for supporting infrastructure and administrative 
costs. Are our investments in the International Space Station 
research and the returns on those investments enough to justify 
the continuing expense of running the station?
    Mr. Bolden. Sir, there are a couple of things there. There 
is a governing body called the Mission Control Board that is 
subordinate to the heads of agency, the five of us who oversee 
the International Space Station from the five member agencies. 
Bill Gerstenmaier, who heads my human exploration program, 
chairs the MCB, and they are looking at ways to reduce the 
ongoing operational costs for station. Simultaneously, what we 
are doing in the United States is we have awarded a contract to 
an organization called CASIS.
    Mr. Wolf. That hasn't worked out very well?
    Mr. Bolden. It is going through growing pains, but we are 
confident it will work.
    Mr. Wolf. What are some of the others that applied?
    Mr. Bolden. I will get back to you. Bechtel I know was one 
of the competitors. I will get back to you on who the others 
were.
    [The information follows:]

            International Space Station National Laboratory

    On April 1, 2011 NASA received the proposals from the following:
    <bullet> Center for the Advancement of Science in Space (CASIS), 
submitted under the auspices of Space Florida
    <bullet> Columbia National Lab (CNL) from the University of 
Missouri
    <bullet> Space Laboratory Associates (SLA), a joint venture between 
Battelle Memorial Institute and the Universities Space Research 
Association
    <bullet> International Space Station Institute (ISSI) from the 
Massachusetts Institute of Technology

    Mr. Bolden. But the intent of that, the concept, was to 
take NASA out of the business of funding all research and 
putting it in the hands of an independent, nongovernmental 
organization that would go out and recruit people and 
organizations for research on the International Space Station, 
and the funds that they earn will come from the investors and 
not from NASA.
    So I would not pay--this is just a fictional number--I 
would not pay CASIS $200 million to just pay us through to 
researchers. I will pay them a management fee of $15 million a 
year to take care of running the International Space Station. 
They will go out and as they bring business in--so it is a 
business proposition for them. They go out and recruit, manage, 
and select the participants. And the funds that come into them 
replace what NASA would give them to fund researchers.
    Mr. Wolf. It doesn't seem like they have done very well so 
far.
    Mr. Bolden. They have just started, and I am not trying to 
defend anything.
    Mr. Wolf. I just heard they lost their top person.
    Mr. Bolden. Their executive director did resign.
    Mr. Wolf. They just started. That is kind of like the 
captain of the ship leaving before----
    Mr. Bolden. But they have a new captain. They are going 
through growing pains. We are not telling them what to do. We 
have provisions in place. They have milestones that they have 
to meet. And we have sent them or we are in the process of 
sending them another letter to remind them of the milestones 
and remind them of the plan, and then we will see how they go.
    Mr. Wolf. NASA seems to be utilizing its own International 
Space Station research space, but the National Lab portion of 
the space station is underused. If you looked at it from--and 
this is not a very good analogy--but if there were 50 
apartments open for lease there that you could be leasing out 
to the drug companies to find a cure for cancer or for 
Alzheimer's or autism, how many of the apartments are leased? 
That is not a very good way to ask it, but how much capacity is 
being used and how much is still available for people to come 
in?
    Mr. Bolden. Congressman, quite a bit of the capacity is 
being used, but there is room for people to come in, and that 
is the purpose for bringing in an outside organization, to try 
to find people that we would not find, to try to find 
organizations that do different types of research than we did.
    Mr. Wolf. How many work for them?
    Mr. Bolden. For CASIS?
    Mr. Wolf. Yes.
    Mr. Bolden. I will get that information for you. I don't 
know how large they are.
    [The information follows:]

             Center for the Advancement of Science in Space

    As of March 2012, CASIS employed 19 people full time, in addition 
to some part-time employees and consultants. The estimated operating 
full-time head count will approach 36 for the next couple of years, 
with potential growth to around 50.

    Mr. Wolf. Was that a legislative decision or was that a 
decision that you all made?
    Mr. Bolden. I will find out for sure, but I think it was 
collaboration between us and the Congress. We always wanted to 
have an independent entity, a nongovernmental entity. I will 
take it for the record to find out whether there was 
legislation involved in the stand-up of the organization.
    [The information follows:]

          International Space Station as a National Laboratory

    In the NASA Authorization Act of 2005 (P.L. 109-155), Congress 
designated the U.S. segment of the ISS as a National Laboratory, and 
directed the Administrator to seek to increase the utilization of the 
ISS by other Federal entities and the private sector.
    In the NASA Authorization Act of 2010 (P.L. 111-267), Congress 
directed that the Agency enter into a cooperative agreement with a not-
for-profit organization to manage the activities of the ISS National 
Laboratory. To this end, NASA issued a cooperative agreement notice on 
February 14, 2011, and on August 31, 2011, the Agency finalized a 
cooperative agreement with the Center for the Advancement of Science in 
Space (CASIS) to manage the portion of the ISS that operates as a U.S. 
National Laboratory.

    Mr. Wolf. Now, you fund them, correct?
    Mr. Bolden. Yes, sir.
    Mr. Wolf. So how do you balance their need for an 
independent board and executive leadership with your ability to 
ensure that their funds are well managed?
    Mr. Bolden. Because we have oversight. They are just like 
any other contractor. As I mentioned, they have milestones that 
they have to meet. They have to present their plan.
    Mr. Wolf. If you had to give them a grade now, what grade 
would you give them?
    Mr. Bolden. It is too early to give them a grade.
    Mr. Wolf. Quite honestly, when I went to Patterson 
Elementary School in southwest Philadelphia we got an interim 
grade. What would Mrs. Patterson give them? A ``C'' or an 
``A''? Where would their grading be now?
    Mr. Bolden. Congressman, I would have to consult.
    Mr. Wolf. The reason I ask--and I am not going to make you 
give them a grade then if you don't want to give them a grade--
but it is $100 billion that we spent on the ISS, and I think we 
all have an obligation to the American taxpayer to make sure 
that it is utilized.
    Mr. Bolden. Yes, sir. And that is our intent. In fact, we 
are so intent on having it be successful because what we would 
then like to do is expand its capability to manage not just the 
U.S. segment but perhaps the entire space station. That would 
be ideal, because that would help all of the partners get their 
costs down, and that is what everybody is looking for.
    Mr. Wolf. How many people do you think they are going to 
be? When they get up to full strength, what will they be?
    Mr. Bolden. Congressman, I will have to get you that.
    [The information follows:]

             Center for the Advancement of Science in Space

    As of March 2012, CASIS employed 19 people full time, in addition 
to some part-time employees and consultants. The estimated operating 
full-time head count will approach 36 for the next couple of years, 
with potential growth to around 50.

    Mr. Wolf. Where are they based?
    Mr. Bolden. They are based out of Florida.
    Mr. Wolf. Where in Florida?
    Mr. Bolden. Cape Canaveral.

                        WALLOPS FLIGHT FACILITY

    Mr. Wolf. Wallops Island. I understand you visited Wallops 
Island for the dedication of the new Horizontal Integration 
Facility last year. Virginia is very excited about using this 
facility and the upcoming test flight of Orbital Sciences' 
rocket and subsequent launches to the International Space 
Station. The Virginia commercial space flight authority is 
currently conducting an RFI to look at bringing a heavier 
rocket to Wallops to increase use of the launch site.
    I have two questions: One, can you tell me if and how 
funding for NASA's 21st Century Launch Complex program is being 
used at Wallops to support future development, and what other 
steps is NASA taking to encourage a more robust use of Wallops?
    Mr. Bolden. Congressman, 21st century space launch does not 
include specific funds for Wallops. However, we spend funds in 
other ways on the Wallops facility. And some of our 
expenditures are not in money. It is in people and talent. If 
you look at the work that is going on right now for the 
development of the launch complex for Orbital Sciences, over 
the last year plus, we have lent expertise and people power 
from Langley, Stennis, Kennedy, Marshall, to help MARS, which 
is the developer of the launch facility for the State of 
Virginia. We have been helping them try to get that facility up 
and running, because we need for Orbital to be able to launch.

                             NASA WORKFORCE

    Mr. Wolf. On the workforce. NASA has carried several lines 
in its budget over the past few years whose purpose was to pay 
for civil servants who were not allocated to a program at the 
time. This was due to a combination of major programmatic 
transitions within the agency and restrictions on how you can 
manage your workforce. Have you finally reached a steady-state 
on civil service labor such that all of your FTEs are allocated 
to an actual program now?
    Mr. Bolden. Congressman, we do not have all civil servants 
relegated to a specific program. That is an issue of 
flexibility that center directors have, for example, that is 
frequently misunderstood, and it is a stumbling block.
    If an employee wants to do something innovative, they have 
to be assigned to a program that is doing that innovation and 
it is something that we don't even have yet, that means nobody 
does innovation. We are trying to follow a model that we see in 
industry where a center director can allocate a certain amount 
of funds within his or her budget so that employees can go and 
spend 10 percent or 20 percent of their time and that would not 
come from a program.
    That is an area that we continue to work right now, and 
there is quite a bit of study going on among the leadership of 
the agency to find out how we--we pay all of our FTEs, our 
civil servants. We are trying to determine how we can give 
flexibility to the centers that they can do innovative things 
even though it is not covered by a specific program or project 
that has a cost code.
    Mr. Wolf. NASA has been making use of buyout and early 
retirement authorities to adjust its workforce and expects to 
do so again in fiscal year 2013. Are you making these 
adjustments to reduce the size of your workforce or to update 
the mix of skills within it?
    Mr. Bolden. I am sorry, sir. Can you repeat that?
    Mr. Wolf. NASA has been making use of buyouts, as other 
agencies have, and early retirement authorities to adjust its 
workforce, and I expect you are going to do the same in 2013?
    Mr. Bolden. Yes, sir.
    Mr. Wolf. Are you making these adjustments to reduce the 
size of your workforce or to update the mix of skills within 
it?
    Mr. Bolden. Congressman, the primary reason is twofold. It 
is to give us the flexibility to get the right skill mix, to 
have the right people for programs going forward. You know, 
shuttle is gone. There are a number of our workers, that is 
what they did. That is all they knew. So we try to cross-train 
them to the greatest extent possible.
    In order to bring in fresh blood and new ideas, we need to 
be able to hire our interns and co-ops. So if people are not 
leaving at a pace that allows us to bring in co-ops and interns 
at the rate that we want, then we offer them an opportunity to 
leave sooner than they would think.
    Everyone should understand, some people who were planning 
to retire are not retiring because of the state of the economy. 
So we are looking at all of the innovative ways we can to help 
our employees, even if it is training for something else. In 
the case of contractors, for example, who left the shuttle 
program, it varies by geographic region. People in the Johnson 
Space Center area, they went right over to the petrochemical 
industry because they were looking for engineers for the oil 
industry. Florida was not quite as fortunate.
    We were really worried we were going to lose people, civil 
servants even, at Marshall because of the buildup of the 
Redstone arsenal. We are somewhat relieved that they didn't 
take all of our people. But it varies from region to region.
    If I may correct one thing for the record, because I may 
have misanswered your question. When you asked about 21st 
century funds, we are not prohibited from spending 21st century 
funds on Wallops or other NASA flight facilities. There are 
provisions in the law for us to use 21st century launch complex 
funds for other flight facilities, and sometimes we will do 
that. But, to my knowledge, we don't have specific money 
designated right now that will go to Wallops for construction 
because we think that the funds that we are putting there out 
of other accounts is sufficient for right now, the Human 
Exploration and Operations Mission Directorate.

                         JWST--LESSONS LEARNED

    Mr. Wolf. Just a few more questions on cost control for 
large missions. While the cost overruns in the James Webb 
program have been deeply disappointing, I hope that some good 
lessons were learned from the experience to help avoid a repeat 
of this situation in the future. Do you have a formal process 
in place to identify such lessons from the James Webb debacle 
and apply them to other large missions that are at risk of 
overruns? And, if so, what are the most important lessons 
learned?
    Mr. Bolden. Congressman, we have a number of lessons 
learned from James Webb. Some of them had to do with management 
and management oversight. We changed out people in the 
management chain at Goddard, at headquarters.
    No one was as disappointed when I found out about James 
Webb than me. I have taken on some responsibilities that I did 
not have before with James Webb. I took its funding out of the 
astrophysics division because I could not expect them to take 
on that big a task, so it became an agency imperative, an 
agency priority. That is why we have had some of the discussion 
we have had here. If I had had to depend on the astrophysics 
division to eat everything, we would have had no astrophysics 
program.
    We are looking at reporting frequency. I have my previous 
associate administrator, Chris Scolese, monitoring James Webb 
every single day. And he and I talked about it every week. He 
has been replaced by Robert Lightfoot. Chris is now out at 
Goddard where he can watch it even more closely because now it 
is his responsibility as the center director.
    So we are getting increased oversight over JWST, increased 
reporting. We have milestones that are laid out, and I get a 
copy of the milestone report on a routine basis. That is why I 
can tell you with surety that we have met every milestone over 
the last year and a half, cost and schedule.
    We now utilize something called Joint Confidence Level 
analysis, JCL. We applied it to James Webb. But, to be quite 
honest, it was too late. But, still, we applied the principles 
of JCL to James Webb, and what it did was it gave me assurance 
that the replan was valid.
    We utilized what we call their independent review boards. 
In the past, the independent review board didn't come to the 
administrator. They went to a center director or they went to a 
program manager or something. So now I look at all of the 
independent review boards for all major projects. And, if I 
want, I ask them to come in and brief me. So they know that if 
they have a problem and they are having trouble getting the 
program manager to hear or the center director to hear, then 
their recourse is to come to the administrator.
    Those are different things, and we learned all of that from 
JWST.

                        DESTINATION-BASED GOALS

    Mr. Wolf. On goals, many members have urged you to set 
specific destination-based goals for human exploration beyond 
Earth's orbit. The administration prefers instead to pursue a 
``capabilities-based approach'' in which our exploration goals 
are determined primarily by what capabilities are available at 
the time. Why do you believe this is a preferable approach?
    Mr. Bolden. Congressman, I think what you state is a 
misunderstanding of what we do. We have definitive goals. The 
President has established the ultimate goal is Mars in the mid-
2030s for humans, an asteroid in the 2025 time frame for 
humans. What you speak of as capabilities, it is a 
capabilities-based approach to exploration which says we will 
go as fast as our emerging capabilities allow us to.
    If we have some incredible breakthrough in in-space 
propulsion, for example, we may even speed the time that we 
realize the capability of going to Mars with humans. That is 
the only capabilities-based thing. It is a capabilities-based 
approach, but the destinations are well defined.
    Mr. Wolf. Mr. Fattah, do you have anything?
    Mr. Bolden. Let me add this. If you go to the astronaut 
office, since I used to be there, and you ask them, okay, where 
should we be going? My guess is, out of the 65 or so 
astronauts, they would say the Moon. Why do they say that? 
Because they want to fly to some other place in the universe. 
They see 2030 as out of reach for some of them. Whereas if we 
went to the Moon, they might be able to do that.
    What they don't consider that I do is I can't do 
everything. So we will rely on the Moon for research and 
technology development. And we may in fact--it is not out of 
the realm of possibility that somewhere along the road of 
getting to Mars in the mid-2030s we put two astronauts on the 
surface of the Moon on a rover that we have under development. 
But they won't stay there. We are not colonizing. We are not 
doing any of that stuff.
    These are the flexibilities that I would like to have in 
developing the capabilities of getting us to Mars. Mars is 
hard, as is an asteroid. If I had known how hard it was, you 
know, when I became the NASA administrator----
    Mr. Wolf. I think it is the need for something that is more 
inspirational.
    Go ahead, Mr. Fattah.
    Mr. Fattah. I think it was President Kennedy, when he gave 
his speech in 1962, who said that the reason we do this is 
because it is hard. The whole design of NASA--I know you have 
done many hard things. We thank you for your testimony today.

                         SPACE HEALTH RESEARCH

    Mr. Wolf. Just one or two other questions, and we will have 
a lot of questions for the record, too.
    I saw a study, a brief article with regard to the health 
impact on the brain of astronauts. Do you want to talk a little 
about that?
    Mr. Bolden. The impact that we have recently discovered--
and we have consulted with our Russian partners because they 
have a lot more experience.
    Mr. Wolf. Who is the person who has been out longer, 
probably a Russian?
    Mr. Bolden. No.
    Mr. Wolf. How many days?
    Mr. Bolden. I will find out for you.
    [The information follows:]

                        Astronaut Health Impact

    The person who has had the most total number of days in space is 
Russian cosmonaut Sergei Krikalev, who in 6 flights has been in space 
for 804 days (including 2 missions to the ISS, the longest being 178 
days on Expedition 11).
    The longest single trip in space was by Valeri Polyakov, a Russian 
cosmonaut, who flew for 438 days aboard the Russian Mir Space Station 
returning in 1995. Polyakov's first flight (in 1988) lasted for 241 
days. He has been in space for a total of 679 days.

    Mr. Bolden. But we have a couple of astronauts--the 
longest-serving person in space today is my old crew member 
Sergei Konstantinovich Krikalev, without a doubt. Sergei has 
spent about two years in space.
    Mr. Wolf. How is he doing today?
    Mr. Bolden. He is doing well, but I haven't talked to 
Sergei to find out what his latest MRI showed about his optic 
nerve or whether he suffers from increased inner ocular 
pressure.
    When Sergei and I flew together in 1994, we didn't even 
know what increased inner ocular pressure is, and this is a 
recent discovery. We have had some of our researchers who have 
known about it. But in the case of medical science researchers, 
they don't like to talk about things until they have enough in.
    Mr. Wolf. Are we asking the Russians----
    Mr. Bolden. Yes, we are. The Russians initially said, no, 
we don't know what you are talking about. We have not seen it. 
But, in hindsight, they went back and said, you know we have 
seen that.
    Mr. Wolf. Are we having our doctors examine?
    Mr. Bolden. We collaborate. What we are talking about is 
increased pressure behind the eye. If you want to talk about 
things that it has done, it causes some flattening in the area 
of the retina that impacts vision, decreases vision in some, 
not all. We are noticing that it is increased pressure on the 
optic nerve. We are concerned that it could result in blindness 
if it got to the point that it is extreme. We don't see that 
yet.
    When talking to my chief medical officer, Dr. Rich 
Williams, he is not to the point yet where he thinks this has a 
long-term impact on long-duration human exploration.
    One of the things that people need to understand, these are 
microgravity phenomenon. One of the reasons we might go to the 
surface of the Moon quicker than we thought is to put people 
there for an extended period of time, 30 days or something, to 
see if we are seeing the same thing in the space station. The 
station is zero G. The lunar surface is a sixth of Earth's 
gravity. Mars has gravity. So these problems may not even 
materialize themselves in an astronaut that is resident on 
another planet or on a Moon.
    Mr. Fattah. Now you are talking about a subject that I am 
quite interested with the work of NASA related to this. We had 
some briefings earlier, this week in fact, on the neuroscience 
work and studies that NASA has been doing. And one of the 
things, Mr. Chairman, I notice it is not only this issue around 
the optics but also in terms of, in the human brain, these 
Alzheimer-like effects that happen for astronauts while they 
are in space and disappear when they return. NASA has been 
doing a lot of work in this regard.
    Along with some of the international partners, I understand 
there has been some surgical research done in terms of 
neuroscience surgery-related tests that have been done on the 
space station. This is an area where they have done a 
tremendous amount of work over a number of years, and it is 
very, very important. So I want to commend you.
    We have had personal conversations about this. The Chairman 
and I collaborated around getting OSTP to launch a working 
group, bringing together agencies that are doing work in brain 
research. I am quite impressed with the work that NASA is 
doing.
    Thank you, Mr. Chairman, for bringing that up.
    Mr. Bolden. Congressman, if I may make one statement, 
because we talk a lot about value. I can't put a dollar value 
on the research at the International Space Station. The fact 
that we now know much more than we ever knew about 
osteoporosis, which effects women--and men, by the way. The 
fact that we now have discovered this problem with increased 
inner ocular pressure, I don't have a way to put a dollar value 
on that.
    So if you ask me is $100 billion of investment in the 
International Space Station worth it, you bet. If I could put a 
dollar value on the medical returns here on Earth. I tell 
people I go home every day, and I feel great because I have 
made life better for somebody on this Earth.
    And I apologize for being so passionate about this, but I 
would hate to see the Nation become shortsighted with reference 
to the money that we spend on space exploration. You cannot 
place a value on the benefits that come from the International 
Space Station.
    We have--I forgot to bring it--but we have a book called 
International Space Station Benefits For Humanity, and it is 
only biomedical benefits from the last few years. You can't put 
a price tag on anything that is in that book. But I would bet, 
if you could, we are talking about trillions of dollars.
    So I am concerned in these tight fiscal times that the 
Nation will lose its way, and those of us, you on this 
committee and others, who have to make hard decisions decide 
that we are going to not invest in human exploration because we 
will do it later.
    As Congressman Schiff stated, some of the things we do, you 
cannot walk away from. He is absolutely right. You cannot walk 
away from entry descent and landing expertise on Mars, and we 
are not doing that. And that is the message I am trying to 
bring. I know better than anybody, we cannot walk away from 
those, and I don't intend to do that.
    Mr. Wolf. Well, I don't think anybody up here wants you to. 
In fact, I think we are probably pushing more--and that is why 
I am a little bit concerned this group CASIS hasn't produced 
maybe as much.
    Mr. Bolden. Yes, sir. I understand.
    Mr. Wolf. Maybe if CASIS had done a better job last month, 
something would have taken place that would have been 
discovered next week--so they have to get with it. And if they 
are not with it in 30 or 45 days, we ought to pull them and 
give it to the National Science Foundation or the National 
Academy or somebody else.
    But to have the opportunities with the investment, I don't 
think Mr. Fattah and I are saying we shouldn't do it.
    Mr. Bolden. Congressman, I assure you, if they don't meet 
milestones, then we will find another way.
    Mr. Wolf. With that, we thank you for your testimony.
    We have a number of other questions that we will just 
submit.
    Mr. Wolf. I am not checking up on you, but I will be glad 
to go out when you get the briefing, take your CIO.
    Mr. Bolden. I will do that.
    Mr. Wolf. I would ask you to bring the crew development 
companies in and see with regard to the commercial crew 
program. I think we are going to have a problem here. Mr. 
Fattah and I, we didn't have any problems working with the 
numbers we had, but now it is getting harder and harder, and we 
would like to be able to continue and for you not to retreat.
    So, with that, the hearing is adjourned.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                            Tuesday, March 6, 2012.

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

HON. SUBRA SURESH, DIRECTOR, NATIONAL SCIENCE FOUNDATION

                      Mr. Wolf's Opening Statement

    Mr. Wolf. Good morning, the hearing will come to order.
    I want to welcome everyone to the hearing on the fiscal 
year 2013 budget request of the National Science Foundation. 
Our witness is Dr. Subra Suresh, the Director of NSF. We 
appreciate you being here.
    This subcommittee is a big supporter of basic research and 
has worked hard to ensure that we are giving our scientific 
agencies adequate support even in times of fiscal restraint.
    In fiscal year 2012, for example, we provided NSF with a 
2.5 percent budget increase even though overall spending levels 
required many other programs in our bill to be reduced or even 
eliminated.
    That is why I think it is important to make sure that there 
is no overlap or duplication at NSF, because some of the 
programs we would have rather not had to cut we did cut because 
we wanted to give to NSF because of the economy, creating jobs, 
and things like that. So really I think you almost have a 
greater burden to make sure that there isn't any duplication.
    Our interest in basic research stems from the direct 
connection between research and innovation, which is itself a 
driving force behind the economy.
    The investments we make in research today will hopefully 
pay off tomorrow in new technologies that can revitalize our 
manufacturing sector, improve the efficiency of existing 
commerce, or even lead to the creation of whole new industries.
    In addition to our economy, basic research plays a key role 
in national security. For example, NSF is an active player in 
networking and information technology projects that will lead 
to increased cybersecurity, which is desperately needed both 
within and outside of the government.
    In fiscal year 2013 NSF is once again seeking a budget 
increase to continue expanding its basic research and STEM-
related human resources program. The budget request would add 
another $340 million to NSF research and education accounts, 
and our primary task today is to discuss the details of that 
request and how NSF proposes to execute and manage those funds.
    In a moment Dr. Suresh, we will give you an opportunity to 
summarize your written testimony, and we will have questions. 
Before that, I recognize Mr. Fattah, the ranking member of the 
committee.

                     Mr. Fattah's Opening Statement

    Mr. Fattah. Thank you, Mr. Chairman.
    I want to thank the chairman again for his leadership in 
making sure that in the fiscal year 2012 budget we did achieve 
I think an appropriate balance to make sure that important 
efforts of the National Science Foundation were moved forward.
    Now this is a request for something approaching $7.4 
billion. It is a relatively low number, a little under 5 
percent for the agency, and you have a number of new 
initiatives that I am excited about, and I think the Congress 
will be excited about, particularly the K-16 math program.
    There is going to be a report issued later on today at 1 
o'clock by Secretary Duncan which shows, across the country, 
that in many of our high schools calculus is not being 
provided, which is obviously a significant problem when we 
approach the development of future scientists and creating a 
workforce that has capacity relative to STEM-related fields. 
But I am also interested in your work related to manufacturing 
and the CEMMSS program, because obviously manufacturing is 
something that the committee has put a priority on.
    Thanks to the leadership and cooperation of the chairman we 
are working very, very hard in other aspects of the bill to 
make sure that we are doing what needs to be done in regards to 
manufacturing, but the National Science Foundation has played a 
critical role in developing our economic viability in this 
area.
    So I want to welcome you to the committee today. Thank you 
for your leadership. The OneNSF mantra that you have put into 
place has I think really unified the agency around critical 
issues facing the country and you lead today the premier 
science research entity anywhere in the world.
    I welcome you and look forward to your testimony.
    Dr. Suresh. Thank you.
    Mr. Wolf. You can proceed. Your full statement will appear 
in the record, and thank you.

                     Dr. Suresh's Opening Statement

    Dr. Suresh. Chairman Wolf, Ranking Member Fattah, it is my 
privilege to be here with you today to discuss the National 
Science Foundation's Fiscal Year 2013 Budget Request.
    Today science and technology are the new frontiers of 
American prosperity. The Nation's well being and global 
competitiveness depend more than ever before on the steady 
stream of new ideas and the highly skilled science, technology, 
engineering, and mathematical talent that the National Science 
Foundation supports, and particularly the young researchers 
that NSF so skillfully nurtures.
    NSF supports the full breadth of science and engineering 
research and education. We seek emerging ideas with the 
potential to transform the world, establish new paradigms, and 
foster new industries.
    NSF has helped to make the U.S. an undisputed world leader 
in science, technology, and innovation. Our universities rank 
among the best in the world, our scientists and engineers have 
led the world in discovery and innovation. Our transformative 
discoveries have created a vibrant private sector and great 
jobs.
    Worldwide frontier research and technological innovation 
driven by a creative and skilled science and engineering 
workforce are the new engines of economic growth.
    Science and technology are improving the prospects for 
economic prosperity and a rising standard of living around the 
globe. The U.S. can both be a partner and a leader in this 
global enterprise, and it is a measure of our success that many 
other nations are emulating the NSF model.
    The NSF budget request moves America forward by connecting 
the science and engineering enterprise with benefits for 
Americans in areas critical to job creation, a growing economy, 
and a higher standard of living.
    The Administration and Congress have conveyed their clear 
determination to build on our Nation's history of success in 
leading edge discovery and innovation. That is the unmistakable 
message of the President's 2013 budget request for NSF of 
nearly $7.4 billion, an increase of nearly 5 percent.
    Bipartisan congressional support for the 2.5 percent 
increase in our 2012 budget, and especially the strong 
leadership of this subcommittee reinforces that message.
    NSF has identified critical funding priorities that will 
provide long-term benefits for the Nation.
    As good stewards of the public trust we have also reduced 
or eliminated lower priority programs, identified opportunities 
to leverage resources for maximum impact, and held the line on 
NSF's operating expenses.
    This budget represents a well-targeted portfolio of 
innovative investments that provides increased support for 
fundamental research in all fields of science and engineering.
    This core research, which constitutes the largest share of 
NSF expenditures, lays the foundation for progress in science 
and technology and enhances our ability to address emerging 
challenges.
    NSF investments in advanced manufacturing, clean energy 
technologies, cybersecurity, and STEM education will support 
the Administration's government-wide priorities in these 
critical areas.
    In 2013 NSF will support across the agency advanced 
manufacturing, national robotics, and materials genome 
initiatives by investing in research that makes manufacturing 
faster, cheaper, and smarter.
    I look forward to presenting this area in greater detail 
before this subcommittee on March 28th.
    Working in concert with other federal agencies, NSF will 
advance research to ensure that the Nation's computer and 
network infrastructure are secure and reliable and to support a 
cybersecurity workforce.
    NSF will support clean energy research as a component of an 
initiative to address national challenges and environmental 
sustainability.
    As the ranking member just mentioned, the Administration's 
new K-16 mathematics education initiative combines NSF's 
expertise in mathematics education research with the Department 
of Education's ability to scale up successful programs at State 
and local levels.
    NSF's large suite of educational investments builds on the 
recognition that science and engineering talent is the 
foundation of America's future. Areas of educational 
investments span early learning to college completion.
    NSF brings its strength in supporting fundamental research 
and education to each of these broad areas of collaboration.
    Mr. Chairman, Ranking Member Fattah, I draw great strength 
from the knowledge of our close working relationship and I 
value it greatly.
    I am extremely grateful on behalf of my colleagues at NSF, 
to you, and to your staff for your efforts on our behalf last 
year both in the increases you provided the foundation in 
extremely tough economic times and in the flexibility you 
provided to us.
    I greatly look forward to continue working with this 
subcommittee as we strive to ensure that the U.S. remains at 
the epicenter of research, innovation, and learning that are 
driving the 21st Century economies.
    More than ever the future prosperity and well-being of 
Americans depend on sustained investments in science and 
technology.
    I will be pleased to answer any questions you may have.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                THE STATE OF THE U.S. SCIENCE ENTERPRISE

    Mr. Wolf. Thank you, Doctor.
    Before I get to the other questions, I hope you are going 
to have some really significant things for the subcommittee at 
the March 28th hearing. We do have Niall Ferguson testifying. 
If you get a chance you might want to get a copy of his book, 
particularly read the conclusions, but he has a whole series of 
recommendations. And I think at the end he pretty much says, 
and I am paraphrasing, that the greatest threat to the Nation 
may be its small thinking, its lack of vision. We don't have to 
get into the hearing now, but hopefully you will give us some 
good ideas so that we can move ahead, and ideas that are not 
going to divide us but will kind of bring Republicans and 
Democrats together and the country together. As we argue over 
other things we can really make sure that we put the country 
first here, so we are looking forward to that hearing.
    NSF's National Science Board issues a biennial report of 
indicators representing the scope, quality, and vitality of 
America's science and technology capabilities. These indicators 
cover a wide range of factors from Federal spending to STEM 
workforce composition to research outputs.
    What indicators do you believe are most important for 
assessing the strength of our science and engineering 
enterprise relative to our major international competitors?
    Dr. Suresh. Thank you, Mr. Chairman, for your question.
    I pay a lot of attention to these indicators and I actually 
went through them with a fine-tooth comb even just before they 
were publicly released. There are a number of things that we 
want to watch. Let me start with the positive side.
    On the positive side no matter whose--and it is not just 
the NSB indicators, but various surveys that have come out--no 
matter whose ranking you look at, if you take the top ten 
universities in the world, seven or eight American universities 
by anybody's metric are still in the top, and I think one of 
the challenges for NSF is to make sure that we remain that way 
and not lose the leadership. So that is something we pay a lot 
of attention to.
    I also pay a lot of attention to--again on the positive 
news--what other countries are doing with increased funding 
with respect to their science and engineering enterprise.
    Mr. Chairman, you know this very well, a number of 
countries have started funding agencies that are modeled after 
the National Science Foundation. So going back a decade 
Ireland, South Korea, and many other countries did this. Just 
in the last two months three countries are creating new 
agencies that are modeled after NSF. Very different countries. 
Nigeria, Indonesia, and India. They call them by different 
names, but their model is the National Science Foundation. So 
that is again good news.
    In terms of competition, sustained funding for science and 
engineering is something that other countries are doing.
    I was in Germany last fall and I even had an opportunity to 
talk to Chancellor Merkel about her vision for science funding. 
My counterpart agency in Germany, the German National Science 
Foundation, will receive a five-year budget increase, with an 
annual increase of about 5 percent. So that is the kind of 
competition that we face.
    So in terms of funding NSB data show that the pace of 
scientific research in different parts of the world has 
accelerated significantly in the last decade. If you look at it 
globally, approximately one-third of science and engineering 
research is in North America, a little less than one-third is 
in Europe, and about a third, maybe slightly more than one-
third is in Asia, but the Asian part is increasing very 
significantly. Asia also includes Australia and New Zealand, 
which are small parts of it.
    In terms of troublesome data: if you look at the number of 
college freshman in the U.S. across all States, after that the 
number of college freshman in all of Europe combined, and after 
that the number of college freshman in Japan, take the total 
sum, that equals the number of college freshman in China. So 
that is one.
    Twenty years ago the U.S. was number one in the world in 
terms of graduation from college with a college degree or an 
associate degree. Today we are number eight in the world.
    Mr. Wolf. Do you remember who is one through seven?
    Dr. Suresh. Number one is South Korea, 57 percent of South 
Korean population receives a college degree or an associate 
degree. I think some of the Scandinavian countries are probably 
there. I don't remember the full list, but South Korea is 
number one.
    Mr. Wolf. And where are we?
    Dr. Suresh. We are 42 percent.
    Mr. Wolf. Forty-two. And what were we 20 years ago and 30 
years ago?
    Dr. Suresh. We were something on the order of about 40 some 
percent or something in that range. We have dropped.
    Mr. Wolf. Have we dropped in percentage as well as----
    Dr. Suresh. I don't remember the exact data, but we have 
definitely dropped from number one to number eight, and you 
know, the difference is about 16 percent.
    There are other things that are very troublesome. So one is 
the number of undergraduates. A fraction of the population that 
gets a college degree to begin with.
    Mr. Wolf. Whether they are in sociology, science, whatever, 
it is just a college degree.
    Dr. Suresh. College degrees: now if you break it down to 
science and engineering, and within that you can break it down 
into natural sciences and engineering, you look at all of Asia, 
about 20 percent of all the college graduates in Asia get their 
undergraduate degree in the natural sciences. About 13 percent 
get their undergraduate degree in engineering, so that is 33 
percent in the natural sciences or engineering on a high number 
to begin with. In Europe about 18 or 19 percent get their 
degree in the natural sciences, about 12 or 13 percent in 
engineering. In the U.S. about a little more than 10 percent in 
the natural sciences, four and a half percent of all college 
graduates in the U.S. get an undergraduate degree in 
engineering and one and a half percent of all the college 
graduates in the U.S. are women engineers. Half the population, 
one and a half percent of all the college graduates with an 
engineering degree.
    I think this is something I have talked to the president of 
the National Academy of Engineering about and he is galvanizing 
a lot of activities.
    And by the way, this is not a new trend, we were always 
lower, but you know, it is not showing signs of increase and 
this is something that we need to pay a lot of attention to 
especially at a time when other countries are rapidly 
increasing their investments in science and engineering.

           KEEPING SCIENCE AND ENGINEERING TALENT IN THE U.S.

    Mr. Wolf. Well, you anticipated the next question. It was 
which one gives you the most concern, and they are very, very 
troubling.
    Dr. Suresh. If I could add one point, Mr. Chairman.
    You know, one of the things--so one can ask the question, 
if the U.S. always had very low numbers of undergraduates in 
colleges who are engineers, trained as engineers, how did we 
manage to remain the world leader in innovation, science, and 
engineering for many decades?
    And one of the data points suggests that, you know, we have 
been very successful after the Second World War in attracting 
talent from all over the world.
    I will give you one data point. In former job as dean of 
engineering at MIT, we had 375 professors in my school, 43 
percent of them were born abroad and they came to the U.S., and 
many of them had their first degree abroad in engineering, and 
that was very--myself included--and that has really helped us.
    Now one of the things--we don't have any trends yet. It is 
too early to tell if we still are managing to attract top 
talent from abroad. But one of the worrisome trends for the 
future is people who come here, unlike my generation, will they 
become American citizens, make this their home and contribute 
to the scientific enterprise from here?
    I think this is a question that remains to be answered, 
especially when there are major opportunities for people 
abroad.
    Mr. Wolf. So do you think that is happening now? That many 
are coming and now are going to be leaving?
    Dr. Suresh. Well, I don't think we have enough data to say 
it is happening yet. We still receive a record number of 
graduate students from different parts of the world who come to 
the U.S., who do their graduate work, Ph.D. work in the U.S., 
and that is still happening. We don't know yet if in the future 
because of greater opportunities abroad more and more of them 
will leave.
    Mr. Wolf. Are you seeing any signs that they are?
    Dr. Suresh. It is too early to tell. It is true that there 
are greater opportunities, it is true that, you know, there are 
students who are going back, but we don't know if they go back 
permanently or they go test the waters and then come back 
because things don't work out.

 U.S. FUNDING FOR SCIENCE AND ENGINEERING RELATIVE TO MAJOR COMPETITORS

    Mr. Wolf. The Administration used to promote the goal of 
doubling NSF's budget as a major component of our response to 
international competition in the fields of science and 
technology. Although the fiscal year 2013 budget does propose 
an increase for NSF, the rate of growth is no longer consistent 
with achieving that doubling during the originally planned time 
frame.
    Do you believe the rate of growth as laid out in the budget 
is still sufficient for keeping us competitive with other 
nations that have invested heavily in science and technology? 
And you know, don't pull any punches, tell us what you really 
think of it.
    Dr. Suresh. Okay. So again let me go back to the NSB 
indicators that were just released about a month ago.
    You know, we are still the largest economy in the world 
even though we don't fund science and engineering as a fraction 
of GDP as highly as some of the other countries do. In fact ten 
years--we were number one in the world ten years ago in terms 
of investments in science and engineering research as a 
fraction of GDP. Now about ten years ago several countries 
surpassed us. Germany, South Korea, several of the Scandinavian 
countries, and Japan surpassed us.
    So in terms of fraction of GDP our competition is very 
high. But if you take countries that started from a very low 
point in terms of investments in science and engineering, the 
NSB indicators give some examples.
    For example, between 1996 and 2007 the average annual 
increase in basic science and engineering funding in China was 
22 percent, 22 percent per year. You look at countries like 
Singapore, it was 10 or 12 percent. Malaysia was very high. 
Europe on average was 6.5 percent. The U.S. was 6 percent. 
Among major countries, the only country that was below us was 
Japan, and the NSB indicators point out that the Japanese 
scientific enterprise is actually contracting. So just barely 
being above Japan is not cause for celebration. So that is one 
of the competitions that we face with respect to funding.
    Now with a significant increase in funding in some of these 
countries, they are also having significant increases in GDP 
growth compared to us.
    So looking ahead to the next 10 years, 20 years I think we 
are going to face very severe competition.
    The third thing that I think is somewhat problematic for us 
is, you know, we have an annual budget cycle. Many of these 
countries have a five-year plan. So science which is 
intrinsically long term you can plan three years ahead of time, 
four years ahead of time with respect to funding of major 
facilities and other activities, whereas here we not only have 
an annual process, with continuing resolutions, we are 
retroactively planning for our process. So this makes it very 
difficult for agencies like ours to keep pace with our 
competition.
    Mr. Wolf. Well, I hope--you know, we have tried to avoid 
politics here as much as we can, but I think this whole thing 
has become so politicized. I think the whole Solyndra thing and 
those other things have just kind of stirred this up, and I 
would hope that once we have an election, no matter who wins, 
we are able to get the science and some of these things set 
aside and do it in a way that really doesn't get into 
Republican and Democrat. Have you read Ferguson's book?
    Dr. Suresh. I am getting a copy of it. In fact I will have 
read it before I see you on the 28th for the manufacturing 
event.
    Mr. Wolf. I think he says in 2016 China surpasses us. I 
have seen other numbers at 2021. And you know, we know what the 
competition is. On the universities, I think the new president 
of China, his daughter goes to Harvard, and you know, they all 
come over here but I think these are really important issues 
for our children and our grandchildren. And I think the 
difference is--I am going to go to Mr. Fattah--freedom in 
America. My grandparents came from another country. They 
weren't scientists, they were bakers, they ran a bakery, but we 
are different from China in the sense of freedom of religion 
and democracy and openness.
    I saw a demographic study, which we will share with you, 
given to me by a prominent university president. I won't 
mention the person's name because I don't know if they want it, 
but China is really having demographic problems that are so 
difficult both from an age point of view, and Ferguson mentions 
that, but also there are 50-some million Chinese men who can't 
find wives because of the aggressive nature of their one child 
policy. I mean they are having a lot of problems.
    I had a prominent Chinese person come in who is connected 
to the government and doesn't want their name known and so we 
don't discuss it, but he laid out to me: this is not a country 
that is doing everything well. They have a lot of problems.
    And so we see them as these ten-foot giants, but America is 
still strong because of its creativity, openness, the ability 
for somebody that works in a factory to go on to be president. 
You don't do that in other countries.
    And so as we compare these, I don't know how you quantify 
the other problems that they are having in those countries. But 
even with those, I think we have to do everything we can do 
make sure we develop bipartisan--well, maybe that is not a good 
word--a nonpartisan agreement on the sciences and 
manufacturing, engineering and all so that whatever party is in 
control, that issue is not stopped and started and stopped and 
started.
    And I think your point on the CR is good. Because we may 
fund this year on a CR. I hope not, but it may very well be 
that way, and so if you don't have a long-range view of it, it 
is very hard to plan. So your points are important points.
    Mr. Fattah.
    Mr. Fattah. Well, let me say first of all I totally agree 
with the chairman, and we have worked because of his leadership 
in a bipartisan fashion on this committee and we have come 
forward with bills that we can support, and have particularly 
focused on this issue of science and science development.
    Let me start a little bit away from home. Speaking of five-
year plans, I met with Judith Rodin who leads the Rockefeller 
Foundation. She told me that China had in its last five-year 
plan a few years back a program to set up some science only 
universities and they now have 100--five years later 100 
science only universities and 200 math and science 
laboratories.
    I contrast that to today's report at 1 o'clock where we 
have 50 percent or more of the kids in our high schools not 
getting calculus, period. I mean it is not in the curriculum, 
let alone talking about the quality of the teaching staff and 
the like in terms of content, knowledge, and so on. So we have 
a lot of challenges.
    Now we have advantages. We have in this field advantages 
that are very significant, but they used to be absolute and 
they are no longer absolute, they are relative. We are not 
shadow boxing. We have competition on the field, and we have to 
do better as a nation.
    And it is difficult I think to reconcile this, but we have 
to do two things. We have to get the fiscal house of the 
country in order, but we have to make the investments necessary 
that position the country for a global leadership in areas that 
are critical to our future. And the work that you are doing is 
vitally important in that regard.

      ATTRACTING U.S. STUDENTS TO SCIENCE AND ENGINEERING DEGREES

    So let me get to my questions. One, we have to get more 
American students to pursue terminal degrees in the hard 
sciences if in fact we are not going to be able to retain very 
bright students from abroad to come to stay, right? They are 
still coming and they are pursuing terminal degrees in the hard 
sciences, but many more are returning home to base their 
efforts and to take their considerable intellectual capital to 
join forces with people we are competing with, which is great. 
I mean we are all for a competition. It is going to bring the 
best out of everyone. But we have to either get more of the 
home team to pursue these degrees and this knowledge or we have 
to hold onto more, or in actuality we are probably going to 
have to do better in both areas.
    So you are doing a lot of work in this space, and if you 
would just take a minute and not talk about the great work that 
you are doing but talk about where you see the holes, where you 
see the need for us to do more, based on the empirical evidence 
from what you know about how we can do more. Because if you 
look at the percentage of American students who are American 
citizens getting terminal degrees in computer information and 
science or in chemistry or in mathematics and so on, it is just 
something that should bring great pause to the Nation about how 
we are positioned over the long term.
    Obviously you can tell us the great things NSF is doing, 
but tell us where you think more could be done, where we can 
actually gain results. And these are not things that happen 
overnight, so obviously we have to do the hard work to get 
there.
    Dr. Suresh. Great. I will be happy to do that, Mr. Fattah.
    So you know, the questions you raise are very complex 
issues, and I can point to three or four things that we have 
started recently which we hope will move the dial significantly 
in the future.
    One of the efforts thanks to the chairman's initiative, you 
know, we had looked at successful K-12 practices where we had 
an NRC report and we rolled it out. As you know we had an event 
last fall and identifying what works and how to bring it to the 
attention of a large cross section of the country is very 
critical. And I am very pleased to report that the initial 
indications are that this effort which actually--the chairman 
deserves the most credit initiating it--is really catching on. 
So we had an event in Pennsylvania.
    Last week there was a major event in the State of 
Washington. In fact the entire congressional delegation from 
Washington requested that we organize this and it was fully 
subscribed a month before the event. We printed 5,000 copies of 
the report and all 5,000 are sold out and we are looking at 
printing more copies. The latest we checked as of yesterday 
there are 8,600 downloads of this.
    There will be another event in Chicago coming up soon.
    There is an event in Maryland.
    There is an event in Texas as part of something that we are 
organizing in partnership with U.S. News and World Report. We 
are bringing it to the attention of school districts, teachers.
    One of the things about the event last week is that there 
were a lot of teachers, people representing different school 
districts.
    So I think it has generated interest on what works. Rather 
than stating the problem I think one of the nice things about 
it is, I think again your leadership was very critical to 
launching it this particular way, it talks about what are the 
things that work in different parts of the country and how do 
we broaden the scope of that.
    It is also being brought to the attention of the National 
Governors Association. So these are a lot of things we are 
trying to do.
    Now we are looking at new programs, the K-16 mathematics 
partner initiative that is in the budget. I have met twice now 
with Secretary Arne Duncan, he is going to be visiting NSF on 
April 9th. So we are trying to see how we can coordinate our 
respective roles much better than perhaps what we have done in 
the past. That is another step in the right direction.
    Yet another step is for the first time we have an inventory 
of all the K-12 programs across 13 federal government agencies, 
and I co-chair that National Science and Technology Council 
Committee on STEM education with Dr. Carl Wieman, and we are 
trying to see again what different agencies are doing. And if 
you look at the data the two biggest players in the space are 
Department of Education and the National Science Foundation. 
And how do we bring that together?
    I am also having conversations with my colleagues from 
other agencies, mission agencies, how their activities in STEM 
education can help excite young people. So that is another 
area.
    Yet another example, we have a program called TUES, 
Transforming Undergraduate Education In STEM, and the goal of 
this is to try to identify best practices in different parts of 
the country, you know, from a scientific perspective.
    We have a new program which will be funded which started in 
2012, called WIDER. In 2013 the request is for $20 million and 
there the idea is to take one institution and scale up the STEM 
activity in that institution so that we can look at an entire 
cross-section of undergraduate studies. And the goal there is 
most of the students who have a desire to major in STEM drop 
out after their freshman year. So we want to target those 
students early on and look at evidence-based practices, tiered 
evidence, longitudinal studies.
    Mr. Fattah. Well, one of the things that we know is that 
students coming out of some of our best schools, you are 
correct, they will change their majors in the first year, but 
some students who come from more challenging circumstances 
actually persist through a little bit better. So the data is 
very interesting.
    Once of the areas that you mentioned was the issue of women 
pursuing engineering degrees. I know that the National Science 
Foundation has made some very significant efforts in 
university-based programs to develop more programs focused at 
women and engineering and with very significant awards over 
multiple year periods.
    Can you talk a little bit about how that project is going?

                   WOMEN ENTERING THE STEM WORKFORCE

    Dr. Suresh. So with respect to women in the STEM workforce, 
in the country it is a very interesting trend. I mean I don't 
have the exact numbers in my head, but approximately the 
numbers are something like this: Seventy-two percent of all the 
valedictorians in American schools in the most recent data are 
girls; 72 percent, and that fraction is increasing. Okay, so 
that is one.
    At the undergraduate level more women graduate from college 
than young men do, and that difference is increasing. Okay, so 
that is the second one.
    At the graduate level we have in the last ten years at the 
post-graduate level there has been a 10 percent increase in the 
number of Ph.D.s in science and engineering in the entire U.S.
    Mr. Fattah. All of it is women.
    Dr. Suresh. Most of it is women across fields.
    Mr. Fattah. Right.
    Dr. Suresh. So one of the good news stories is that women 
are coming increasingly into the STEM workforce.
    But then if you look at the most recent year which was 
2007, the fraction of women in the STEM workforce is 26 percent 
at the Ph.D. level. So 41 percent of all of the Ph.D.s in 
science and engineering are women, but only 26 percent of them 
stay in the workforce.
    So you can ask why the difference? There is a time lag 
factor because this is a more recent phenomenon, there are a 
lot of other factors, but one of the key factors is women 
leaving the STEM workforce because of family demands and the 
need to raise a family, and this disproportionately falls on 
women and there are a number of different factors.
    So your question about what NSF has been doing. NSF started 
a program about a decade ago called ADVANCE program. The 
ADVANCE program gives grants, and this has had a huge impact in 
the country.
    And I launched, and mainly thanks to the work of a working 
group within NSF that worked for about eight months, the group 
that I set up after I joined NSF, they looked at a number of 
best practices within NSF that were embedded in different 
corners of NSF. So what we did was to see if we can elevate 
those best practices in the spirit of OneNSF and we identified 
certain things that we could do.
    So two of our flagship programs are CAREER awards, which we 
give about 450 to 500 awards per year for young faculty 
members, these are bright young scientists, give them money for 
a five-year period so they go into research.
    Another program we have is the postdoctoral program again 
for young people. So we decided last year that we would provide 
opportunities, incentives for women to stay in the workforce. 
In fact a lot of these programs are gender neutral, it is not 
targeting women per se, and so that is one area.
    We actually launched this program in September last year. 
It is not something that NSF can do alone. We have to partner 
with other agencies, so I have had conversations with Dr. 
Francis Collins at NIH, I have had conversations with Charlie 
Bolden at NASA, with Pat Gallagher at NIST. We also talked to 
the presidents of AAU and APLU, we are talking to HBCU 
universities. We have identified segments in there, women of 
color who are severely underrepresented in the STEM workforce, 
how do we bring them in?
    So there are a lot of things that we can do, and I believe 
that it is a tone that we set, it is a priority that we set, it 
is the engagement and partnership that we create with our 
stakeholders like universities, colleges, community colleges 
that will have a huge impact.
    In fact one of my dreams is that ten years from now, so 
when we launch this NSF career life balance initiative, it is 
not just up to NSF. If we have a target maybe we can reach it.
    So last year we had 41 percent of all the Ph.D.'s in the 
country were women. Suppose we get very ambitious and say ten 
years from now in 2021 we want 41 percent of all the Ph.D. 
level STEM workforce to be women, can we reach it?
    So this is a goal that we articulated, and AAU and APLU 
presidents Hunter Rawlings and Peter McPherson signed a joint 
letter with me promising to work with NSF bringing their 
universities, 146 universities together so that we can try to 
reach that goal.
    This summer in July is the 150th anniversary of the 
creation of the Land Grants Colleges that President Lincoln 
created during the Civil War, and we hope to look at step two 
of our joint efforts. So we are really determined in taking on 
a leadership role.
    One of the other things we have done--this is my last 
point--it is not just for the outside. In the spirit of OneNSF, 
we had an NSF career life fair within NSF for our own 
scientific workforce and administrative workforce on what we 
can do.
    So these are some of the activities we are focusing on.
    Mr. Fattah. Thank you. I am going to turn it back to the 
chairman, but I will come back to some of these issues as we go 
forward. Thank you.

                      FAMILY FRIENDLY WORK PLACES

    Mr. Wolf. I am going to go to Mr. Austria, but before I do 
I just want to make a comment. That is exciting.
    I have four daughters and one son, we have 16 grandkids. 
There is nothing more honorable and more amazing than to be a 
mother though. In fact, the members who serve here should know, 
the only place they are ever going to be missed is not in the 
House. I never hear people say I really miss Jim Wright or I 
really miss Denny Hastert, but I really miss mom and I really 
miss dad. And so the only place you are really missed is in the 
house and not in this House.
    So that is why I think it is also important that the 
industry and you all--that is why we have pushed here for 
years--telework. There is nothing magic about strapping 
yourself in a metal box so mom can work at home and be with the 
children. Also companies and government have to be flexible for 
flex time, flex place, job sharing.
    And so I think as you are doing that, we want to maintain 
the integrity and strengthen the American family. The mom and 
the dad spending time with the kids is important, and so that 
is why I think government and industry and universities have to 
have programs so that moms and dads together can continue can 
make sure that they are meeting the needs of your children. And 
so----
    Mr. Fattah. Mr. Chairman, to belabor the point, but it is a 
very important point, you are absolutely right. What they have 
done-- because I was there for the launch of this--is a great 
effort to make it a very flexible process. When I was at the 
Inventors Hall of Fame, there was a young woman who got a 
patent for developing an implantable defibrillator, which 
requires obviously a battery that is dormant until it is 
needed, right? But when it is needed it is very, very important 
to keep one's heart beating.
    And so it is just amazing. What we need to do is, we need 
to make it available for people who need to work from home or 
need another year to finish their work or whatever. It is not 
just raising children, it is care taking for our parents, it is 
all kinds of other things. We don't want to be losing the 
talent that we need. Because again, we have students pursuing 
these terminal degrees so it doesn't make sense to have someone 
who gets one and then have them sidelined because they are 
doing more important work. We need to make that work available 
for them to do, but allow them to continue their academic work.
    Thank you.
    Mr. Wolf. Right, the flexibility. Exactly.
    Dr. Suresh. If I could just mention two things related to 
your comment, Mr. Chairman.
    I have two daughters and my wife, and other than me the 
only other male in the family is our dog, and so I fully 
subscribe to the sentiments that you just expressed.
    Regarding your point about telework. We have many more 
than--I don't again remember the exact numbers--but NSF has 
been a leader in telework. We have more than 70 percent of the 
staff have formal agreements in their respective units within 
NSF for various teleworking arrangements.
    Mr. Wolf. That is good. Mr. Austria.

            ATTRACTING AND RETAINING STUDENTS IN STEM FIELDS

    Mr. Austria. Thank you, Mr. Chairman.
    Director Suresh, thank you for being here today and thank 
you for NSF's support of science and engineering and the 
information that you are sharing with us today, it has been 
very helpful to me coming up with innovative ways to keep 
students in school, retain them, to get them to graduate, and 
the importance this has from a economic standpoint both 
nationally but internationally as you pointed out.
    Let me if I could, and I apologize, Mr. Chairman, I have 
got three boys at home, but I do have a lot of nieces and a 
wonderful wife who is at home and I certainly can relate to 
your comments and I agree with them, but I do have a son who is 
in engineer, who is a sophomore in engineering, and as I looked 
into his undergraduate program what I found was something you 
talked about earlier was the number of undergraduate students 
that are coming from China in particular, it was a large 
percentage in the universities. And what disturbed me even more 
or I should say caught my interest even more was the fact of 
how many of those students are largely privately funded now 
coming to the universities--not on scholarships but privately 
funded coming to our universities--and what is happening with 
those students afterwards. I mean to the point where one of the 
universities is now looking at what happens to those students 
when they graduate and also who are the students that are 
coming into the schools.
    So I guess, you know, you have touched on some of the 
areas, but I want to kind of take a step back.
    Number one, how do we get students at a young age, at the 
K-12 level, interested in math and science and STEM? And then 
how do we--you know, you touched on one program--but better 
retain and graduate, you know, more students in the engineering 
schools and then to be able to fill the jobs?
    I mean we can't fill the need for engineering jobs here in 
the United States so how do we get them through this process?
    And I can tell you that at one of the universities in my 
district, the University of Dayton, they have a good track 
record. The University of Dayton is near 70 percent graduation 
rate when nationally as you mentioned it is around 42 percent, 
and that looking at the numbers in front of me the graduation 
rate is approximately 30 percent for public schools and 
approximately 45 percent for private universities.
    So if you can speak to, you know, what role NSF plays in 
supporting. You brought up one program in helping to retain, 
but initiative, curricula, and programs to attract and again 
retain engineers and scientists, and even going back a step 
further from K-12 getting younger students interested in these 
areas that are important.
    Dr. Suresh. Let me start at the first point that you 
mention, Mr. Austria.
    If you look across the country, both private and public 
universities, roughly the fraction of foreign students at the 
undergraduate level is relatively small. So in private schools 
it is something on the order of 10 to 15 percent; most of the 
universities have a cap. Again, it varies from university to 
university, but typically it is mostly domestic with a smaller 
fraction for public university students.
    But for graduate school it is all over the map. In many 
universities most of the graduate students are actually foreign 
students.
    Mr. Austria. Okay. And I will check my numbers. My numbers 
came from one public university and one private university and 
they were still very high percentages.
    Dr. Suresh. So regarding--by the way the Dayton--I know 
Dayton quite well because I had a large grant with Wright 
Patterson Air Force Base for many, many years. I used to go 
there.
    Mr. Austria. And that is why STEM is important in our area.
    Dr. Suresh. That is right.
    And the problem of enticing students into science and 
engineering or exciting more than enticing is a very tricky 
one.
    In fact I had a conversation with the chairman some time 
ago, typically students get hooked to science by the time of 
the fourth grade, and after that it becomes more and more 
difficult to sort of encourage them to take a career. So it 
happens fairly early on. That is about the average, not that it 
cannot happen later. And so it is very important that we do 
everything possible to excite them about science.
    We had a conversation last week with Freeman Hrabowski, the 
president of University of Maryland in Baltimore County. In 
mathematics, which is his field, typically at the middle school 
level is where interest either peaks or dies for many of these 
students.
    One of the problems we have had, even though we have 
identified many best practices, is how do we scale them up in a 
way that we have not been able to do? You know, the programs 
that we are talking about is one way to do this. The 
conversation we are having with the Department of Education and 
the K-16 mathematics education program is another. The report 
that we produced in response to the chairman's request on best 
practices in STEM education is another step in the right 
direction. But there are newer opportunities that we did not 
even have a few years ago.
    For example, we have tools and technologies that are 
available now where not just 100 or 1,000 or 10,000 students 
can have access to the excitement of science, but tens of 
millions of students simultaneously can have access. An iPad 
can produce a terabyte of data per day.
    So whether we are talking about exciting experiments in 
Antarctica that NSF sponsors or telescopes in Chile or Hawaii 
or you know the Ocean Observatory Initiative that we have, how 
can we hook young minds to the excitement and possibility and 
opportunity of science early on so that they view this as an 
opportunity?
    In a previous job, one of the things I tried to do was to 
see if we can also articulate that science and engineering is a 
ticket to economic prosperity, because that also drives, you 
know. You take a university--a technical institution like MIT--
85 percent of all the undergraduate students come from middle 
class or lower middle class families. In fact two years ago in 
the freshman class 17 percent for the first time went to 
college in their families.
    And so one of the things I try to do is to try to gather 
data not just for one institution but broadly, look at people 
who have been enormously financially successful and show that 
science and engineering is a ticket to prosperity. And so it is 
a very complicated problem.
    Mr. Austria. And if I can, because of the limited time, 
going back to the STEM. We have a STEM school in Ohio in our 
area around Wright Patterson Air Force Base, but we also have 
another STEM facility for teachers.
    And let me ask you as far as faculty research and STEM, and 
you have got especially a lot of newer faculty, younger faculty 
who need seed grant funding, for example, in order to be able 
to compete for the larger grants. How is NSF dealing with that 
particular situation? Because I think both those areas are 
critical in dealing with what you just described.

                   NSF SUPPORT FOR YOUNG STEM FACULTY

    Dr. Suresh. So we do that through a number of mechanisms. 
Of course for the best and the brightest in the country, about 
450 to 500 new ones per year, so at any given time we have more 
than 3,000 of those young faculty, we give them a five-year 
grant. Relatively long term early on in their career, these are 
called CAREER awards that helps them.
    We also have seed grant mechanisms in a number of centers 
across the country in different places. So what they do is even 
though the institution may have received a grant from NSF, they 
have an internal mechanism if they hire a new young faculty 
member they give them $30,000 or $40,000 per year to 
demonstrate a particular idea, and once the experiments are 
demonstrated they can apply for funding from NSF or DOE or NASA 
or other agencies.
    So there are various mechanisms that are in place.
    Then we have opportunities in EPSCoR states. We have 27 
EPSCoR states plus Puerto Rico and the Virgin Islands where 
there are special opportunities for the faculty from those 
states to participate.
    So there are a variety of mechanisms to do this.

                      PUBLIC-PRIVATE PARTNERSHIPS

    Mr. Austria. One last question, Mr. Chairman, if I may: 
dealing with public-private partnerships.
    Now I am going to switch over to another university in my 
district, a public university that I think is doing some good 
work in this and you may be aware of what Wright State 
University is doing, but it has launched a collaborative effort 
with state authorities, especially during these difficult 
budget times as well as private partners to create a first-of-
its-kind neuroscience engineering facility in the Dayton, Ohio 
region, and they have successfully raised over $5 million in 
private investment towards this as well as secured $12 million 
in state funding to match that, and it is a public-private 
endeavor.
    Then I guess my question would be has NSF looked as this 
type of partnership during these difficult budget constraints? 
And if so, you know, how are you participating or what are you 
doing to encourage it?
    Dr. Suresh. Let me give you a few very quick examples of 
public-private partnerships.
    In our Biological Sciences directorate we have something 
called project BREAD, that is $24 million of NSF funding over a 
five-year period and $24 million from the Gates Foundation to 
look at biological issues, especially in agricultural 
development. That is one example of it.
    For the last ten years or so NSF and the semiconductor 
manufacturing association have partnered together. We fund 
Engineering Research Centers and they provide matching support 
to these research centers. That is the second one.
    Last year we launched a new program called the NSF 
Innovation Corps. It is still basic research. At the end of an 
NSF-funded project, we can give a very small amount of money in 
a short period of time so that NSF principal investigators can 
take the output of NSF-funded research with respect to basic 
discoveries and create new technologies, processes, or things 
which may eventually have economic value. And we engaged two 
private non-profit foundations for that: the Kauffman 
Foundation of Kansas City and a foundation in Massachusetts.
    And the last point that I want to make is in the area of IT 
we have partnerships with Google, IBM, Microsoft, to look at 
how we can leverage NSF funding of basic research within the 
country with infrastructure support, especially in areas like 
cloud computing that these companies are engaged in.
    Again, we have to be careful about profit and non-profit 
issues and so forth, but those are four examples of things that 
NSF is engaged quite a bit.
    Mr. Austria. And I thank you for your response and I would 
just say that seed money that you were talking about earlier, I 
don't know what the demand is for that or that program 
awareness is, but I think that--you know, that is an area that 
certainly I would encourage, you know, as far as it is critical 
through K-12 with teachers in particular in getting them 
engaged in STEM.
    So thank you for your testimony. Mr. Chairman, I yield 
back. Thank you.
    Mr. Wolf. All right. Mr. Culberson.

            ROLE OF PARENTAL SUPPORT IN STUDENT ACHIEVEMENT

    Mr. Culberson. Thank you, Mr. Chairman.
    We are delighted to have you here today, Dr. Suresh, and it 
is a great reflection of the subcommittee's unanimity and 
enthusiasm for the science education.
    You know, virtually all of our questions are focused in 
that area and you know that the fact that none of the other 
members are not here is obviously because they are trapped in 
other committee hearings. We are all equally committed in 
supporting you, sir, in the work that NSF does and it has been 
Mr. Fattah, Chairman Wolf, working arm and arm with every one 
of us that made sure that NSF was protected in this last 
difficult year for budgets.
    And I want to share this with Mr. Fattah. Just pass it 
down, forgive me. Chaka, let me pass that down to you. It is a 
marvelous article on how stable funding has been for the 
sciences through these last several years, particularly in this 
last difficult year that particularly because of the leadership 
of Mr. Wolf and Mr. Fattah, NSF has faired pretty well thank 
goodness, and we are going to continue to do everything we can 
to support you and the work that you are doing. And education 
is so vital that these kids with going into science and 
engineering and mathematics and physics. Marvelous that you are 
focused on it.
    Where in Texas are you going to be holding the meeting that 
you mentioned earlier?
    Dr. Suresh. In Dallas, Texas.
    Mr. Culberson. In Dallas, okay. And I look forward to 
seeing the report. I just asked my staff to make sure that I 
see it. I want to learn more about what you have been doing.
    Obviously as we talked about in the last hearing last year 
the report was you looked at various STEM techniques around the 
country to try to identify what are the most successful. I know 
I mentioned to you at the time you just needed to drive down 
the street to go look at Thomas Jefferson, and I hope they were 
a part of your calculation and figured prominently in your 
report.
    The chairman's comments earlier I want to reinforce. You 
mentioned as did Mr. Fattah about the importance of parents and 
moms in kids' lives and encouraging them to go on to become 
successful.
    We are very blessed, our daughter goes to Thomas Jefferson, 
and is a freshman there, and I am sure she would be mortified, 
I am glad there are no C-SPAN cameras here, but she would be--
but it is so true, she would be mortified to know that I was 
reporting this, but it is absolutely accurate. She told me this 
morning as I was driving her to school, which is why I was a 
moment late, I try not ever to miss a chance to take her to 
school and participate in everything that she is doing from the 
time that she was very, very little, from the time she was born 
frankly as we all love our kids devotedly, but she said this 
morning as we were going in in health class yesterday that they 
have got a substitute health teacher for PE and he asked every 
class at Thomas Jefferson--and you know, these kids are 
extraordinary, they--you know, the process they go through, 
they reject 85 percent of the kids that apply, these are the 
best and the brightest from ten northern Virginia counties--any 
way they asked the professor, Chaka, asked the teacher asked 
every class why is it that Thomas Jefferson has virtually no 
drug problem? Why is it that none of you all, there just is not 
a problem here? The joke is that she told me when she got there 
you can put a plate of brownies on the floor of the hallway and 
a plate of drugs and the brownies will be devoured instantly, 
but nobody will touch the drugs, God bless them. And without 
exception every single class answered, because our parents love 
us so much and support us and have helped us every step of the 
way, and because we are working so hard. Frankly we are too 
busy and too tired in order to mess around with drugs and we 
are too, you know, smart, we pay attention.
    So truly the chairman is right, it is that love as Mr. 
Fattah said as well, that you just can't substitute for that 
love and attention and devotion. I am sure that was a factor in 
your analysis.
    And in looking for best practices too is the collaboration 
between the really good high schools and universities.
    I would encourage you and I look forward to working with 
you outside of here, I want to get--come down and see you all 
and talk to you about the way your grant process works. I think 
there are great opportunities for collaboration between schools 
like Thomas Jefferson and university research facilities where 
you have got--you are awarding grants to universities. I hope 
you will look at finding ways to perhaps find ways to encourage 
collaboration between these best and brightest practices.
    Steve has got a STEM school in his area, I know you have 
got them in Philadelphia, Chaka, as the chairman does in 
Virginia, as we do in Texas, but where you have got a really 
good STEM science and technology education high school with top 
quality kids that are doing really first-class work I hope you 
will look at creating grant programs for universities to 
develop online partnerships, collaboration with high schools, 
and their research labs.
    TJ is about to do a $30 million expansion and they are 
going to actually have electron microscopes, mass 
spectrometers, extraordinary instruments in work that these 
kids are doing in their science labs it is equivalent to what 
is being done in universities.
    So I will obviously work with the chairman and Mr. Fattah 
and our whole subcommittee to help support you in your work in 
public education.

                           MAGELLAN TELESCOPE

    I wanted to ask about a couple of particular areas. You 
mentioned the Magellan telescope astronomy being something 
particularly near and dear to my own heart as an amateur 
astronomer and keenly aware of the Magellan project, which is--
I just quickly ran a calculation because I hadn't realized how 
huge it is, a 24.4 meter instrument to be built in probably 
Chile based on wherever the science tells us the clearest skies 
are. I know that the chairman of the Senate Appropriations 
Committee has a preference for Hawaii, but I think that the way 
you all have designed this it is going to be a scientific 
competition based on the clarity of the sky and stability of 
the atmosphere, et cetera, right? You are going to let the 
science direct where it is going to be built. And with all due 
respect to the chairman from Hawaii, I know he is partial, but 
you are going to let the science direct where it is built.
    Dr. Suresh. Well, so I can describe the process that we go 
through and the process is no different in this case.
    You know, in the case of astronomy we have the decadal 
survey, so this is 200 leading astronomers and astrophysicists 
get together through the National Academies and they produced 
their decadal survey three years ago, and the decadal survey 
had a number of recommendations.
    So one is to support a project called LSST, which is based 
in Chile. The second was mid-scale projects, you know, a few 
million dollar projects. The third one, the third priority 
according to them, according to the scientists and the experts 
in the field, was what they called GSMT, Giant Segmented Mirror 
Telescope.
    So NSF issued a solicitation and the decadal survey was 
based on the assumption that as the chairman mentioned earlier, 
that the NSF budget was going to be on a doubling path, by 2016 
NSF budget would have doubled compared to 2007. Obviously we 
are not on that path anymore, so if we take the reality into 
consideration and we made a number of projections, optimistic 
projections like the 2.5 increase in 2012----
    Mr. Culberson. Yes, sir.
    Dr. Suresh [continuing]. And pessimistic projections and so 
forth what we find is we are not in a position to be able to 
fund major projects of that scope which will cost $1 billion 
before too long.
    Mr. Culberson. Right.
    Dr. Suresh. So we have a solicitation out and it is due I 
think in April or so, and a panel of experts will decide. And 
what we said was, you know, we will down select based on that, 
but currently there are no funds until 2020.
    Mr. Culberson. Yeah, you anticipated my question. It looks 
like--and this is an article from the January 13th edition of 
Science, and NSF has pulled back, and essentially it says here 
NSF cannot provide construction funding until 2020 at the 
earliest. The private sectors can go forward with raising as 
much money as they can. I know Texas A&M University is an 
active participant in the project.
    What does this do to the timetable for construction of the 
Magellan? This thing is extraordinary. I remember the Hale 
telescope which we all grew up with as the largest optical 
telescope in the world until 1993, it was a 200 inch, this 
thing is extraordinary, 960 inches, and actually produces 
apparently images as sharp or sharper than the Hubble because 
of the ability of the computers to compensate for atmospheric 
turbulence and essentially real-time by moving these flexible 
mirrors. Is that correct?
    Dr. Suresh. That is right.
    Mr. Culberson. It is an extraordinary instrument.
    What does this do to the construction timetable of this 
revolutionary instrument that is going to let us probably image 
planets directly around other stars?
    Dr. Suresh. So the astronomy community always has been 
highly international and entrepreneurial in its activities, 
going back to 1956 when the American activities with respect to 
telescopes in Chile started. So there are two groups as you 
mentioned that are currently working on sending a proposal to 
NSF.
    We made it very clear in the solicitation that even 
assuming reasonably optimistic scenarios, the earliest that we 
will be in a position to fund something will be 2020 in the 
current situation. But that might not necessarily hold, because 
many of those projects take about a decade to launch and start. 
NSF is always interested in funding the science. So in fact 
half of our funding in astronomy is to do the science.
    Mr. Culberson. Sure.
    Dr. Suresh. So I think various groups, including existing 
telescope operators always look for partners.
    Mr. Culberson. What percentage would you have been of the 
total funding for this?
    Dr. Suresh. Well, we don't know. So in this climate, you 
know, we----
    Mr. Culberson. Sure, of course, I understand, this is a 
brutal environment. This year could be really, really 
difficult. And as the chairman said, we could be stuck under a 
CR depending on how this plays out.
    Dr. Suresh. So you know, historically if you look at the 
past we have funded telescope infrastructure, so there is a 
facility called ALMA which will officially open in Chile. There 
are too many acronyms so I won't bore you with that.
    Mr. Culberson. That is a radio telescope?
    Dr. Suresh. It is an optical telescope.
    Mr. Culberson. Excuse me, optical.
    [Clerk's note.--After the hearing, NSF submitted a 
correction noting that ALMA is actually a radio telescope.]
    Dr. Suresh. Yeah, in Chile, and the telescope will 
officially open next year. NSF provided one-third of the cost.
    Mr. Culberson. Okay.
    Dr. Suresh. The European community provided one-third of 
the cost, and the other came from other countries like Japan 
and Brazil and others.
    Mr. Culberson. What was the original--what I am driving at 
just is what was the original intention on Magellan that NSF 
would provide? What percentage? Ballpark. Just to help us for 
planning purposes to think for the future, because obviously 
this is a----
    Dr. Suresh. So the decadal survey again put the GSMT as the 
third priority and they assumed the NSF budget doubling by 
2016.
    Mr. Culberson. Right, right, right.
    Dr. Suresh. So based on those assumptions they recommended 
that NSF put in 25 percent of the cost.
    Mr. Culberson. Okay, one quarter.
    Dr. Suresh. One quarter.
    Mr. Culberson. Right.
    Dr. Suresh. So, but you know, we are nowhere near that----
    Mr. Culberson. Sure, you are just going to have to wait and 
see.

                            PARTICLE PHYSICS

    And another concern, Mr. Chairman and Mr. Fattah, and I 
know that you all are keenly aware that we are essentially left 
with one particle accelerator in the United States, which is a 
real source of concern. Not only is China rocketing ahead with 
massive investments of their own in the sciences and outpacing 
us 300,000 I think engineers a year versus 30,000 that we are 
graduating here, and the Department of Energy is of course a 
separate subcommittee and they have got problems as well.
    This came out January 27th in Science and I wanted to ask 
you what happened. I am not sure what was the budget 
recommendation of the president for the Department of Energy, 
but this article in Science anticipated that there would be 
cuts to the Department of Energy and would threaten the future 
of the only U.S. collider still running. The Europeans have one 
in CERN.

                           QUARK-GLUON PLASMA

    And this was extraordinary what they are able to do with 
this one in Brookhaven is essentially discovering what happens 
when you boil solid, you know, matter, like protons and what 
happens to them like when you convert liquid water to steam, an 
extraordinary science, it is just unprecedented. And actually 
they have done it. They said I think when I was looking at this 
he says he is not even sure what they have done, the theorists 
are predicting that when they boil ordinary nuclear matter that 
the resulting plasma would act like a gas in which the 
particles barely interact, and instead in 2005 when they 
actually did this using this accelerator the result, the quarks 
and gluons feel when they are present and strongly so that an 
oblong pluff of plasma flows like a liquid before condensing 
into thousands of particles, and the lead scientist there says, 
``we don't really understand what we have created, there were 
all these predictions that turned out to be wrong.'' So it is 
extraordinary science that is being done.
    Is this facility threatened by--I mean in the President's 
budget and what happens to our last remaining particle 
accelerator that is making these again extraordinary 
discoveries at the smallest levels of matter, you know, while 
Magellan is exploring the other end of the spectrum we have got 
one accelerator left, what happens to it under the President's 
budget under DOE and what role does NSF play?
    Dr. Suresh. Okay. So I can provide a few points related to 
that.
    First of all, I mean I cannot speak for DOE----
    Mr. Culberson. Sure.
    Mr. Suresh [continuing]. I can only speak for NSF.
    Mr. Culberson. Of course.
    Dr. Suresh. So I don't----
    Mr. Culberson. I just wondered if you were aware of what--
--
    Dr. Suresh. So we have periodic conversations with DOE.
    For example, one of the facilities that we are funding, 
this LSST, 31 percent for a particular instrumentation DOE has 
an interest in funding it. So we work in partnership with DOE 
where we can.
    Regarding----
    Mr. Culberson. On a segmented telescope, LSST?
    Dr. Suresh. Yeah, LSST, yeah.
    Mr. Culberson. Okay.
    Dr. Suresh. And regarding your point about the collider in 
CERN in Geneva, NSF provided funding for particle 
instrumentation, so in the budget request for fiscal year 2013 
we have $18 million requested. There was a recent scientific 
result that came out of funding NSF provided for the CERN 
experiment for American scientists--the particle called the 
Higgs Boson----
    Mr. Culberson. Uh-huh.
    Dr. Suresh [continuing]. And the mass, how particles of 
masses, and the NSF-funded research contributed to that 
scientific discovery.
    We also have funded at Cornell University a synchrotron 
facility called CHESS.
    Mr. Culberson. Uh-huh.
    Dr. Suresh. And CHESS has in the fiscal year 2013 budget a 
funding request of $20 million. I just found out recently that 
it is funded by our Division of Materials Research, but it is 
very broadly used by scientists from a number of different 
agencies. In fact I found out that NIH scientists are one of 
the big users of the CHESS facility at Cornell.
    Mr. Culberson. It is a synchrotron.
    Dr. Suresh. A synchrotron facility.
    Mr. Culberson. It is not exactly a particle accelerator.
    Dr. Suresh. No, it is not a particle accelerator facility, 
but that is an example of a facility that----
    Mr. Culberson. Uh-huh.
    Dr. Suresh [continuing]. That cuts across different 
agencies----
    Mr. Culberson. Certainly.
    Dr. Suresh [continuing]. DOE, and even NIH.
    Mr. Culberson. But I mention the particle acceleration--
thank you for the time, Mr. Chairman, in particular we are all 
devoted to education, we are going to make sure we obviously 
are doing everything we can do to make sure America stays 
number one in the cutting edge of scientific research and in 
graduating scientists and engineers, but the infrastructure 
concerns me. I am just worried about the fact that we have got 
one accelerator left and to what extent does NSF have a role in 
ensuring that we have got this critical infrastructure?

                       SCIENTIFIC INFRASTRUCTURE

    Dr. Suresh. So you know again, I very much appreciate the 
support of this subcommittee with respect to our major 
facility's budget. As you know in fiscal year 2011 the MREFC 
budget was about half of what was requested, so we had to 
really scale back, and thanks to the work of this subcommittee 
you gave us flexibility in at least seeing the existing 
projects through during the coming year.
    So we have four projects that were started already and we 
wanted to make sure that taxpayer money was wisely spent. So we 
have been completing those projects.
    And I echo your concern as well, you know, very good 
science of that scale requires very good experimental 
facilities, and there are many areas of scientific enterprise 
where if we don't support the facility, we run the risk of 
losing leadership in many scientific areas. So this is 
something that we are paying a lot of attention to.
    Mr. Culberson. Thank you. Thank you, Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Culberson.

                             CYBERSECURITY

    Has the NSF computer network been hit by the Chinese in the 
last year?
    Dr. Suresh. We had one breach last year and we have taken 
steps to address that. In fact all of our internet traffic now 
goes through the Department of Homeland Security. And so we 
have taken multiple steps with firewalls where the traffic is 
routed, training of the workforce, data management, and so 
forth.
    Mr. Wolf. Did you see where NASA's was hit? Did you see the 
article the other day?
    Dr. Suresh. No.
    Mr. Wolf. All right. NSF's budget request contains a new 
cross-cutting initiative on cybersecurity called Secure and 
Trustworthy Cyberspace. How does this interact with your 
existing cybersecurity programs like the Comprehensive National 
Cybersecurity Initiative or any other cybersecurity grant work 
that predates the creation of the SATC program?
    Dr. Suresh. So we have had approximately a $5 million or so 
increase in the cybersecurity activity, so we had previously 
something called trustworthy computing, and the new initiative 
that we are launching in fiscal year 2013 is called SATC, 
Secure and Trustworthy Cyberspace. Cybersecurity will have a 
total budget of about $161 million. Out of that, $57 million 
will come from something called CNCI, Comprehensive National 
Cybersecurity Initiative, where NSF is a partner with a number 
of other federal agencies. The SATC program itself will have 
about $110 million or so in funding.
    On top of that, NSF for the last decade or so, has funded 
something called Scholarship for Service, which is to train at 
the masters level people who are cyber savvy, and the goal is 
to have them work for the federal government.
    So in the last decade NSF funded Sf S program graduates 
have--there are 1,500 of them, 93 percent of them entered the 
federal government. And so we have--if you look at fiscal year 
2012 and fiscal year 2013 our combined budget for Sf S is $70 
million.
    So we are increasing our investments in preparing people 
for service, especially in the federal government.
    Mr. Wolf. Is the FBI involved with you at all since they 
are responsible for the cyber crime once the action has been 
taken? DHS is to prevent it, you are doing research, is the FBI 
part of your effort or do you talk to them?
    Dr. Suresh. I can check on that and get back to you 
specifically about the role of FBI, but my understanding is 
that we are engaged will all the relevant federal agencies, and 
I would be surprised if FBI is not involved in this.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Okay. The budget documentation for SATC talks 
less than expected about researching new and ground breaking 
technical solutions and more about seeking to understand and 
change the motivations, incentives, and behaviors of technology 
users, cyber attackers, and defenders. Why are these social 
science factors such a significant part of your overall 
strategy?
    Dr. Suresh. So it is not just the social science part, even 
though that is involved, because I think we really need to 
understand the human aspect of these--when we talk about 
cybersecurity whether it is----
    Mr. Wolf. It is theft. It is called theft.
    Dr. Suresh. Right.
    Mr. Wolf. And organized crime.
    Dr. Suresh. So try to stay one step ahead of those who 
attack us, and I think that is part of the goal, and I think 
that is the role of SBE that we see.
    One of the things I want to mention is beyond SATC we have 
a number of programs that go through different directorates. I 
mentioned the Scholarship for Service, that is actually 
organized through our EHR directorate separately. We also have 
programs that involve our Office of Cyberinfrastructure that 
have a lot of activities. Now we just released a vision 
document for something called Advanced Computing 
Infrastructure.
    So if you look at 20 years ago, we had the arms race for 
supercomputing where a small number of institutions will have 
the best capabilities with respect to one supercomputer and 
that'll be the fastest computer in the world for a short period 
of time before something else overtakes it.
    Now what is happening is that 99 point some percent of most 
of the heavy computing users don't necessarily need the fastest 
computer, but they have a distributed network of computers 
which are almost supercomputers.
    So part of the challenge is rather than protecting a single 
computer how do we protect a network when many, many people 
intersect and interact and collaborate? And how do we make sure 
that the network is cybersecure? So it requires a new paradigm.
    So one of the things we are looking at is we have a five-
prong strategy for this Advanced Computing Infrastructure, that 
we just rolled out last month when we rolled out the fiscal 
year 2013 budget, and that includes things like grand 
challenges and cybersecurity is part and parcel of that 
activity as well.
    Mr. Wolf. Well, you mentioned the scholarship issue. With 
the increase you have over the SATC programs, the budget does 
propose a decrease for the Scholarships for Service program.
    Dr. Suresh. So I can explain why that is.
    In 2011 NSF provided $15 million for Scholarship for 
Service. The success rate for an applicant for the Scholarship 
for Service with a $15 million investment in 2011 was 35 
percent. The average success rate for an NSF program is 22 
percent. So it was a 50 percent better success rate in 
Scholarship for Service.
    Then when we went from 2011 to 2012 the budget for Sf S 
increased from $15 million to $45 million; three times 
increase. And so we wanted to make sure that we are not just 
funding something for the sake of funding without the right----
    Mr. Wolf. Sure.
    Dr. Suresh [continuing]. So this year we scaled it back to 
$25 million, which is still $10 million above what we funded 
before.
    Mr. Wolf. Right.
    Dr. Suresh. So we have the right success rate, we are 
attracting the right people, but rather than looking at just 
one year I would look at two years, the 2012 and 2013, that is 
what I mentioned earlier it is a $70 million investment in two 
years.

                DUPLICATION OF FEDERAL STEM INVESTMENTS

    Mr. Wolf. Okay. Well, we have some STEM questions here, but 
I think some of them were covered and we will just submit them 
for the record.
    The inventory of STEM programs produced by the NSTC's 
committee on STEM education found that there was no duplication 
between and among the many federal STEM programs. A recent GAO 
report on duplication in government, however, determined that 
there is significant overlap in these same programs.
    Can you discuss the distinction between duplication and 
overlap and comment on the implication of the findings of both 
the NSTC inventory and the GAO duplication review?
    Dr. Suresh. Right. I will be happy to mention that.
    Sometimes when we look at, as we were discussing in the 
elevator, Mr. Chairman, a couple hours ago, when we look at the 
titles of this program or even abstracts of this program there 
is apparent duplication or overlap, but when we probe deeper, 
it oftentimes goes away.
    Now if we take, for example, the inventory--and I co-chair 
the COSTEM committee of the NSTC--and what we found was 80 
percent of all the STEM programs in the federal government are 
funded only by two agencies, that is NSF and Department of 
Education. Another 11 to 13 agencies collectively fund less 
than 20 percent of the stem programs.
    [Clerk's note--After the hearing, NSF submitted a 
correction noting that NSF and the Department of Education 
together account for only 63% of all of the STEM programs 
funded by the Federal government. With the inclusion of STEM 
programs of the Department of Health and Human Services, the 
percentage reaches 80%.]
    If you look at NASA, NOAA, DOE, and other agencies, 
especially the mission agencies, even though there may 
apparently be overlap, they have a particular focus to these 
programs.
    So NSF usually funds best practices, upstream activities in 
STEM education, whereas these mission agencies focus. So NASA, 
for example, has a particular focus on space and----
    Mr. Wolf. Sure.
    Dr. Suresh. So when we go through the details, this is why 
the committee felt in the inventory that there was very little 
actual duplication.
    Mr. Wolf. Well, would you say the GAO report was wrong?
    Dr. Suresh. I think it is not wrong, I think it is one of 
definition of what constitutes duplication and all that.
    Mr. Wolf. And have you met with them and asked for a 
clarification so that----
    Dr. Suresh. So there is a task force that has been working 
on this, so we are looking at various programs, in fact it is 
part of that.
    Mr. Wolf. And when will that come out? Because as you know 
Senator Coburn has raised the issue too----
    Dr. Suresh. Yes.
    Mr. Wolf [continuing]. And I think particularly when your 
funding increases, then to have it said that there are 
duplications, if there are, is troubling. I think it is 
important to limit. So when do you expect that the task force 
will come by and say----
    Dr. Suresh. So the COSTEM committee actually is bringing 
together an initial plan for a strategic plan, and the goal is 
to finish the strategic plan later this year, this calendar 
year. So I think this will all be reflected as part of the 
strategic plan that will come out later this year.
    Mr. Wolf. And will it make an evaluation as to whether or 
not GAO is right or wrong or there was misinformation?
    Dr. Suresh. I think it will look at potential for 
duplication, potential for leveraging, and I think the 
committee strongly felt that, you know, looking at it carefully 
in the inventory there was very little duplication.
    There may be opportunities for an overlap, and in fact in 
some cases the overlap is very good because one agency, NSF, 
may come with one perspective whereas NASA may come with a 
completely different perspective. In fact it reinforces the 
message in some cases. So the strategic plan will look at these 
details.
    Mr. Wolf. Does Senator Coburn know what you are doing? 
Because he has a lot of credibility up here. He did support the 
Simpson-Bowles Commission, and he has been very aggressive on 
finding funding solutions. Does he know about the task force?
    Dr. Suresh. Yes. So I met with Senator Coburn about seven 
months ago and about three or four weeks ago I met with his 
senior staff and we talked about a number of items, including 
the COSTEM report, so they do know about this.

                 NSF'S EXPEDITIONS IN EDUCATION EFFORT

    Mr. Wolf. Okay. The budget also proposes to create several 
new Expeditions in Education initiatives that will extend 
education efforts to cutting edge research being worked on 
through other NSF programs.
    What will be the research focus areas for the expeditions 
of fiscal year 2013 and why did you choose these particular 
areas?
    Dr. Suresh. So there are--the goal of the Expeditions in 
Education program is to leverage what our EHR directorate does 
in the STEM education with the various activities and programs 
in the research directorates.
    So the budget request for fiscal year 2013, the total 
budget request is $49 million, that leverages across the 
foundation. Again in the spirit of OneNSF, we don't want 
education to be one side and research to be another side 
unconnected, so this was created with the idea for seamless 
integration.
    There are three priority areas for Expeditions in Education 
for fiscal year 2013. The first one is undergraduate education. 
And the reason for undergraduate education is many of the 
points we discussed earlier. Most of the STEM students, 
students who want to go into STEM education, drop out probably 
in the freshman year, so trying to look at creative programs 
that will address that particular segment and interface with 
programs like Transforming Undergraduate Education and WIDER is 
one of the goals.
    The second program is linking emergency preparedness, 
sustainability, and how to bring in, you know, natural and 
manmade disasters and educational components of this. So that 
is the second priority area.
    The third priority area for Expeditions in Education is 
cyber-related activities. Again, we feel that education should 
have a strong component in this.
    So those are the three priority areas for the fiscal 2013.

             NSF-DEPARTMENT OF EDUCATION JOINT INITIATIVES

    Mr. Wolf. The Administration has been touting the joint 
initiatives between NSF and the Department of Education to 
produce 100,000 new STEM education teachers and improve math 
instruction at grades K-16, which you had mentioned earlier. Do 
you have a timetable, like 2013 we should have this number and 
2014 this number? I mean, how are you going to judge if you 
have really been successful?
    Dr. Suresh. That is a very good point. In fact this is one 
of the things we want to do. So I visited with Secretary Duncan 
twice and he is coming over to NSF in about four weeks to spend 
several hours, not just with me, but with my colleagues at NSF, 
and one of the things we want to do is to, again just like what 
we did in the career-life balance, rather than looking at next 
year's budget and what we can do this year we want to look at a 
ten-year horizon and see what are the best practices, how do we 
bring what has worked, what has not worked, and programs like 
WIDER or Scholarships for Service and so forth? How do we make 
sure that the investments we provide retain the best minds in 
the teaching profession? And also how do we make sure that this 
is sustainable for the long haul?
    So I don't have an answer about what we will accomplish 
next year or in 2014, but this is one of the things we want to 
discuss with Secretary Duncan fairly soon on what should be our 
goals with respect to different time lines, and especially 
looking at the longer horizon.

               PUBLICIZING NSF EFFORTS IN STEM ACTIVITIES

    Mr. Wolf. Okay. You covered a lot, and we did too, on the 
K-12 STEM report that the subcommittee requested, and I was 
glad to hear about the Texas event.
    I think I am going to check with Governor McDonnell to see 
if they are interested in doing one in Virginia. I talk to 
people about it though, and not a lot seem to know. You know, 
it tells you in the Bible don't hide your light under a bushel 
basket. Do you have the right public relations to let people 
know? Because if it is out there and just there and nobody can 
access it or--so is there more that you can or should be doing?
    Dr. Suresh. So actually we can do more, in fact, you know, 
we have regional activities in Pennsylvania, Washington, 
Maryland, Texas, Nevada.
    Mr. Wolf. Again, the Texas one, who will be invited to the 
thing?
    Dr. Suresh. U.S. News and World Report will actually be 
involved. Our hope is that they will publicize it very, very 
widely.
    Mr. Wolf. Will you have the superintendent of every school 
district there or all the scientists----
    Dr. Suresh. I don't have the invitation list yet, but our 
goal is to disseminate. So, for example, we want to make sure 
that the recommendations of the report get to the school 
superintendents, National Governors Association. I think it is 
in June, is that right?
    Mr. Wolf. Well, I sent the report out to every governor and 
we didn't get a lot of response back, although I know how busy 
they are.
    Dr. Suresh. So you know, for example, the person who 
chaired the NRC Committee that wrote the report, Adam Gamoran 
from University of Wisconsin, he is now going around the 
country and he is talking to a number of people about this.
    We have various meetings that are held in different forums 
across the country, including gathering of schoolteachers, 
major national meetings.
    The other way to disseminate this is getting the word out 
through the principal investigators. We want to make sure that 
that community that is interested in STEM education understands 
that there is such a report.
    Even going further than that, all NSF PI's. Because for 
example, if we look at broader impacts, which is one of the 
criteria for all proposals for NSF, about 70 percent of the 
NSF-funded PI's who write proposals say that undergraduate 
education is important to them, and they have education--STEM 
education even at K-12 as an important part of an outreach 
activity that they do.
    So we are looking at ways of disseminating it through that 
venue as well. We are not quite there yet mainly because of 
lack of bandwidth at this point, but this is something that we 
are looking into.
    Mr. Wolf. Okay. If you can think of something that the 
committee should do or if we can put language in that would 
give you help dispensing and getting the information out so 
everyone can see, and I will ask Governor McDonnell if they 
have any interest here in the State of Virginia.

                         ADVANCED MANUFACTURING

    Advanced manufacturing. NSF tracks and distributes money 
under a variety of headings that relate in some way to 
upgrading and modernizing our manufacturing sector. You have 
initiatives in advanced manufacturing, cyber and nano 
materials, manufacturing smart systems, robotics, 
nanotechnology, and materials research and more. Many of these 
initiatives overlap or some may be subsets of others.
    How do you effectively synthesize all of those different 
but related elements into a single cohesive program plan to 
achieve the goal of modernizing American manufacturing 
capabilities?
    Dr. Suresh. It is a very good point, in fact I can tell you 
what we have done in the last two months.
    I met with Pat Gallagher from NIST, the Undersecretary for 
Energy, and the Assistant Secretary for Department of Defense 
to see what are the activities in manufacturing that they do, 
and we talked about the things that NSF does, and to see how 
what we do can feed into some of the things that they are 
doing.
    For example, we fund basic research in manufacturing that 
can tap into specific activities. You mentioned materials, so 
some of the areas of interest to the Department of Defense, for 
example, are carbon fibers, and this is an area where NSF PI's 
have a wealth of experience, and carbon fibers are now a big 
part of commercial aviation, military aircraft, commercial jet 
engines, military jet engines and so forth. And so that is one 
area where we are bring a unique expertise.
    Another completely different area where NSF is unique, we 
fund $64 million a year for something called Advanced 
Technological Education, ATE, which is primarily funding for 
community colleges. Probably about 30 percent of that has a 
manufacturing training component to it, training young people 
in technical professions.
    So the National Science Foundation and the Department of 
Labor are two major players in this space, and the Department 
of Education has some role to play as well.
    So we are now having a conversation with the Department of 
Labor on how to interface our activities, and of course the 
Labor Department has a much bigger activity in this space, how 
to coordinate that.
    Mr. Wolf. Do you meet with companies to find out what they 
are looking for for the future of Boeing and----
    Dr. Suresh. So that is a conversation that we are having as 
well. In the meeting that we had, we actually had three or four 
meetings in the last three weeks with Energy, NSF, DOD, NIST, 
on how we can coordinate these activities. Now DOE and DOD 
bring in all the industry players into this, major companies 
that are involved in this. Not only aerospace companies like 
Boeing, but also Dow Chemical, DuPont, and other companies.
    Mr. Wolf. Okay. And what is the budget for producing a 
pipeline of appropriately skilled workers specifically intended 
to fill future advanced manufacturing jobs? Is there a 
designated portion of the budget for that?
    Dr. Suresh. So it is a little difficult to calculate. So if 
you take, for example, I would say 30 percent of our SBIR 
programs have a manufacturing component to them, small business 
programs, and as you know it is two and a half percent of our 
research budget congressionally mandated part of it, that is 
about $170 or $180 million.
    You take Advanced Technological Education, the ATE program 
for community colleges, which is $64 million a year, about 30 
percent of that again is manufacturing related.
    In smaller programs like Innovation Corps, which is an $18 
million budget request, some part of that is related to 
manufacturing.
    We can also look at Engineering Research Centers, Science 
and Technology Centers, industry university cooperative 
research centers (I/UCRC's), and a few other activities.
    So if we put all of that together I don't know what the 
exact dollar number is, but I would say it is several hundred 
million dollars a year.

    WHAT OTHER COUNTRIES ARE DOING TO DEVELOP ADVANCED MANUFACTURING

    Mr. Wolf. Okay. I am going to go to Mr. Fattah, but before 
I do, when you did the STEM study and when you also look at 
manufacturing, do you also look outside of America to see what 
is being done? I mean it is one thing to say we are going to 
look in Omaha, Toledo, Buffalo, Philadelphia, Arlington, 
Virginia, but do you also go outside and see what is being done 
in Germany and how are the Germans or how are the Indonesians 
or how are the people of Singapore, how are they attracting 
business? Are they putting something in the first grade or 
second grade? Did your review go outside the nation?
    Dr. Suresh. Absolutely. In fact Dr. Gamoran, the person who 
wrote the report, came to the National Science Board and we had 
a very spirited discussion on this. Take two countries that are 
near the top of these test scores, Singapore and Finland, and 
we had a lot of discussion about what happened.
    Mr. Wolf. Why are they doing well?
    Dr. Suresh. So for example, I think it goes back to a 
comment that Mr. Culberson made a few minutes ago, I think 
there are a number of factors that feed into this.
    In Singapore, for example, a place I know quite well, 10 
percent of all the applicants----
    Mr. Wolf. Put chewing gum on the ground and----
    Dr. Suresh. I never chew gum when I go to Singapore.
    Mr. Wolf. You know about the case of the kid----
    Dr. Suresh. Yes, I know. I never chew gum any way, so.
    But one of the things that happens there is that 10 percent 
of all the applicants who want to be schoolteachers are chosen, 
10 percent. So being a schoolteacher is a prestigious job which 
is high paying and many of them have advanced degrees in the 
areas in which they teach, so it is highly selective, and so 
that is one factor.
    The other factor that Congressman Culberson mentioned 
earlier, I think it has a big role as well. The emphasis that 
parents and families put in that particular culture on the 
importance of education goes a long way, and I think this is 
another factor that plays into it.
    And third is investments. Science and engineering at the 
national level are seen as a ticket to economic prosperity.
    I have been to Singapore since 1983, I have been there 
many, many, many times. I have met with the prime minister, 
pretty much every member of the cabinet in Singapore of the 
country, and the emphasis that is placed on education at all 
levels for a country of four and a half million people is 
extraordinarily high, and I think a lot of those factors play 
into this.
    Mr. Wolf. Sure. They were all considered in the report, you 
were looking not only at America, but you were looking abroad 
and looking----
    Dr. Suresh. I think the scientists who participated in 
the----
    Mr. Wolf. Finland, what's the population of Finland?
    Dr. Suresh. About four to five million or so.
    Mr. Wolf. So that is really I guess on the economy of 
scale, but who would take China out and take India out--who has 
a corresponding population?
    Dr. Suresh. So Germany with a population of about 80 
million.
    Mr. Wolf. Eighty million. Now where do they reach in that, 
are they one through seven, Germany?
    Dr. Suresh. I don't exactly remember where they are, but 
you know, Germany has a very good technological enterprise 
broadly in science and engineering. I think their college 
graduation is probably not better than ours.
    But one of the things that is unique to Germany is that 
even in high school they have two tracks. One track goes for 
technical education and another track goes for universities.
    So unlike here where it is a self-selection process where 
people primarily go to university, even if they go to a 
community college then they go to maybe a state university and 
then go to a public university or a private university.
    In Germany they have tracks where they actually have people 
trained primarily for technical skills who end up working in 
different industries.
    So it is a slightly different system, and that is also 
reflected in their research enterprise. For example, if you 
look at the German National Science Foundation, which funds 
basic research just like NSF, then you have the private 
societies like the Max Planck Society and the Helmholtz Society 
that fund in partnership with state governments, primarily 
state governments in Germany, different scientific activities 
in universities and institutes like the Max Planck Institutes. 
Then you have institutes like the Fraunhofer Institutes which 
are very applied.
    And our analogous model here for that would be industry 
labs which are shrinking, like the Bell Labs, for example, or 
IBM, our national labs, our national labs are sort of models of 
that in a way, federal labs.
    Mr. Wolf. Well, I agree that it would be a great thing if 
we could enhance the teaching profession with regard to 
salaries and reputation and things like that. I think that 
would be very important if your very best and brightest went in 
to education and not into, you know, the law or something like 
that.
    Okay, Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.
    Let me ask a couple of questions. I am going to call it 
three subjects. Prior to that I want to indicate that I have to 
go at 12 o'clock. I don't want you to feel as though I am not 
interested in the remainder of your testimony, but I have an 
obligation to meet with some people as it relates to my Energy 
and Water responsibilities on appropriations that I set for 12 
noon.
    So I am going to cover three subjects. Neuroscience, 
manufacturing, and also energy.
    So first of all, with the bipartisan support of the 
chairman and our counterparts in the Senate we inserted in last 
year's bill language that creates a collaboration headquartered 
in the White House Office of Science and Technology Policy 
around neuroscience.

                              NEUROSCIENCE

    Brain research is an area of tremendous interest and import 
to the human race, to the country, to our healthcare issues, to 
education and the like, and to our military, and the National 
Science Foundation obviously is well-grounded and has done very 
significant work in this area.
    We also suggested that the National Science Foundation 
create a budget theme around this area.
    And so just to set the stage, half of the patients in our 
nursing homes in the country have Alzheimer's or are suffering 
from some form of dementia. This is a multi-trillion dollar 
cost, but more importantly the quality of life for individuals 
is significantly hindered because of diseases like Alzheimer's 
and Parkinson's and disorders of a variety of types from 
bipolar and so on. Some 40 percent of our returning soldiers 
who have been injured have brain injuries. And obviously, as 
someone interested in education, I think the cognitive, 
teaching and learning issues that we have been discussing all 
morning are related.
    I know the White House has just put the leadership team in 
place, but if you could talk a little bit about this initiative 
and how you see the Foundation interfacing with all of the 
other agencies that will be brought to this effort, the NIH, 
the Food and Drug Administration, DoD, and many others.
    So I will give you a chance to comment on that.
    Dr. Suresh. Great. So the first thing we did was to look at 
the various activities that are going on within NSF in the 
broad context of neuroscience. So I can give you a few examples 
of this.
    So our Assistant Director for Biological Sciences along 
with the Assistant Director for Social, Behavioral and Economic 
Sciences, in the cognitive sciences area, have been getting 
together and having periodic meetings, not only looking at what 
we do but the things that we could do in new and unique ways. 
So that is the first thing.
    If you look at the biological sciences, there are a lot of 
activities that go on in neural networks, for example, that 
look at things.
    In fact, the National Academy of Engineering a few years 
ago said one of the grand challenges for the 21st Century is 
reverse engineering the human brain.
    Mr. Fattah. Right.
    Dr. Suresh. And that works in many different ways.
    Looking at both from a viewpoint of understanding the human 
brain to mimicking the functions of the human brain for 
activities like machine learning, from anything from learning 
languages to voice recognition systems and using the internet 
as a powerful tool to continually enhance our understanding of 
how the human brain works.
    You take another activity that you just mentioned, 40 
percent of our soldiers coming from Iraq and Afghanistan suffer 
from some form of traumatic brain injury. NSF has long funded 
activities in things that you don't associate with TBI.
    For example, I know this work because I participated in it 
20 years, you have an improvised explosive device at some 
meters away or tens of feet away from an object, what is the 
stress pulse that comes from the point of explosion and what is 
the impact on the human head, for example, on the brain tissue? 
And the stresses go bounce back and forth. And how did it 
affect the tissue levels, cell-level behavior? So there have 
been a number of activities that have taken place with funding 
from what NSF funds with other agencies.
    Let me just close with some of the new things we have 
initiated. I went to NIH in November, met with the heads of all 
their institutes in one place--and we invited Dr. Collins to 
come,--and the head of our Biological Sciences Directorate had 
a conversation on things that are unique to what NSF does and 
how that can interface with what NIH does so that we can 
collectively address anything from TBI to Alzheimer's to 
Parkinson's and a variety of activities.
    The unique things that we bring are computer and 
information sciences research, engineering research at NSF, 
that other agencies may not have especially at the fundamental 
level.
    So we are looking very carefully at a variety of these 
activities.
    Mr. Fattah. Well, we are going to be very interested as 
this collaborative effort begins, and this is the first time in 
the country's history that an effort of this type, in terms of 
neuroscience, will be launched and headquartered obviously at 
the highest levels of the government. It is based in the Office 
of Science and Technology Policy, but I fully expect that the 
National Science Foundation will play a very significant role 
in this effort as we go forward. We understand that it will 
require investment, but I can't think of any area that we 
should have more curiosity about than the human brain, and 
given the issues that are laid out as a predicate for the 
question, I think you understand how I see it relative to 
public policy.

                                 ENERGY

    Let me move quickly to energy. The European energy alliance 
announced last week that they have set 2030 as a goal to try to 
compete with us because they are concerned about our 
investments now in renewable and innovative forms of energy.
    So I think that in this very competitive world, we have 
been behind in this area, and now we are starting to move 
forward, but others are going to compete and it is going to 
require a bipartisan commitment as the chairman was referring 
to earlier if the country intends to compete. Because others 
intend to do so.
    I was at the ARPA-E Summit last week with some 2,500 energy 
innovators, and fascinating work is being done on everything 
from battery development up through using tobacco crops for the 
fuel for cars. It is an amazing enterprise that ARPA-E has set 
up, using some of the techniques that the Foundation is known 
for, a merit-based selection process to really use science as 
the best determinant about how to proceed in terms of 
investments. So there is a lot to be said about it.

                      CYBER-ENABLED MANUFACTURING

    Let me conclude with a question around cyber-enabled 
material manufacturing. You talked about this area. Fifty 
percent of the Dreamliner, the new Boeing plane, is composite 
material. This is the first time that we have had this and it 
really puts a focus on the work that the Foundation and other 
agencies like NASA have done in this area to show this 
connection between science and basic research and economics.
    I was out at the Pratt and Whitney plant in Hartford where 
they are making new jet engines. In fact there is a young woman 
there who is not yet 30 who is leading part of the team that 
has developed the new approach on jet engines that cut the 
noise down by 70 percent and fuel use by 30 percent. They have 
orders from all over the world. And so there is work to be done 
in this area.
    I know that you have made a number of very important grants 
to universities in this particular area, so if you could speak 
for a minute about that whole effort, that will be useful.
    Dr. Suresh. Let me start with the aerospace industry. So if 
you take a Boeing 747 from the time a company like Alcoa comes 
up with a new aluminum to the time that material actually makes 
it into the plane that flies with passengers, it is about 20 
years because of federal mandates, requirements, FAA 
certification, and all kinds of things, it takes 20 years. So 
it is a very long process because human lives are involved at 
35,000 feet.
    One of the things that has happened in the last ten years, 
and the materials genome initiative addresses that part of it 
by using computational modeling and also doing more predictive 
methodologies, bringing more predictive methodologies, 
interfacing them with data networks for material properties, 
one can significantly cut down the time it takes from 
conception of a new material to implementation and the use in 
commercial practice. And the goal of the materials genome 
initiative is to cut down the time by more than a factor of 
two. So instead of 20 years it will be less than 10 years.
    A very good example is the use of composite materials in 
the Dreamliner, and as you mentioned it has other benefits as 
well. I don't know if you heard about this, the Dreamliner, 
unlike a regular plane where the cabin humidity is 5 percent 
relative humidity, in the Dreamliner it is more than 30 
percent, so it is much more comfortable as well, and that is 
because of the materials, because the composite material can 
take a higher stress so you can actually pressurize the cabin 
to a lower altitude that makes it more comfortable for the 
passengers inside for the same cost. So there are a lot of 
benefits of these kinds of things in cyber-enabled materials.
    So CEMMSS, the new CEMMSS program in 2013 by directorate is 
just that.
    Mr. Fattah. Well, I want to again thank you for your 
leadership. These are critical areas obviously, but there are 
areas that we didn't cover today that are just as important to 
the Nation. Basic research is something on which we have to 
have a fundamental, uncompromising position as a nation that we 
are going to make these investments, we are not going to be a 
global leader on the cheap. It is impossible. We are going to 
have to make the investments, but the benefit to the country I 
think should be obvious to us all.
    So thank you very much and I thank the chairman.
    Dr. Suresh. Thank you.
    Mr. Wolf. Thank you, Mr. Fattah.
    Mr. Culberson.
    Mr. Culberson. I know Mr. Fattah needs to leave. And Chaka, 
I am just going to go into a little bit of the China thing with 
Frank because of a concern about cyber, you know how it works.
    Mr. Fattah. You are in good hands.

                             CYBER WARFARE

    Mr. Culberson. That is right. He will keep me roped in.
    I wanted to ask if I could, Dr. Suresh, have you had a 
chance to go out to the FBI cyber warfare headquarters in Mr. 
Wolf's district and have you had the cyber briefing, the 
classed cyber warfare briefing?
    Dr. Suresh. I haven't received the classified cyber 
briefing yet, in fact we talked about this in a meeting just a 
few months ago and I intend to pursue that and go get briefed.
    Mr. Culberson. Please, as soon as you can.
    Dr. Suresh. Thank you.
    Mr. Culberson. Is there to your knowledge any prohibition 
against purchasing Chinese-made routers, telecommunications 
equipment? Does NSF have any prohibition against purchasing 
Chinese routers, telecommunication equipment, obviously 
computers are more difficult, but is there any prohibition 
against purchasing that type equipment?
    Dr. Suresh. I will check on that. My understanding is that 
because especially in the last couple of years we have been 
working so closely with the Department of Homeland Security and 
others, I will check on that and get back to you for the 
record.
    [The information follows:]

    In the purchase of routers, telecommunications equipment, and 
computer equipment, NSF follows government-wide procurement policies, 
standards, and practices, as prescribed by the Federal Acquisition 
Regulation. NSF does not have an agency-specific prohibition against 
purchasing Chinese routers, telecommunication equipment, or other 
computer equipment made in China. A search conducted in the Federal 
Procurement Data System (FPDS) revealed that no direct procurements by 
NSF have been awarded for products made in China within the last year.
    NSF recognizes the importance of protecting the information and 
assets that support our Nation's investments in science and engineering 
research. Per the requirements of Section 518 of House Report 112-284, 
NSF recently provided the Committee with our first quarterly report on 
the status of agency cybersecurity efforts. Our report describes 
methods that NSF uses to assess cybersecurity threats, steps that we 
take to prevent and mitigate against attacks, agency cybersecurity 
policies and procedures, and outreach efforts used to ensure NSF staff 
awareness of cybersecurity risks. In addition, NSF requires annual 
cybersecurity awareness training for all NSF staff.
    Also per the requirements of House Report 112-284, Section 518, NSF 
has consulted with other federal agencies to discuss the risks 
associated with cyber-espionage and sabotage. The NSF Director and 
Chief Information Officer (CIO) have contacted the Federal Bureau of 
Investigation (FBI) to arrange a classified briefing at the FBI cyber 
warfare facility, to discuss specific security threats that the FBI has 
identified, and to understand potential approaches for mitigating and 
responding to such threats. Additionally, NSF's CIO attended a top 
secret briefing on cybersecurity that was hosted by the federal Chief 
Information Officer. NSF computer security personnel coordinate 
directly with security officials at the United States Computer 
Emergency Readiness Team (US-CERT) and NSF participates in the Federal 
Chief Information Security Officers (CISO) forum to ensure awareness of 
current threats to the cybersecurity landscape.

    Mr. Culberson. It is worth following up on and particularly 
after you have this briefing. One of the things that they will 
tell you--and this is not classified, this is out in the open--
is that India has an absolute prohibition against any Indian 
governmental agency, I don't know it may extend to the private 
sector, but certainly as far as the FBI told me, Mr. Chairman, 
a blanket, it is illegal in India to purchase any Chinese 
telecommunication equipment, routers, computer equipment 
because it is all infected, it is all hardwired to send, you 
know, information back to whoever designed it. It is just 
unbelievable the scale.
    As I know the chairman has said before and I want to make 
sure I reiterate it too, and obviously the work that you are 
doing in science is you want to be obviously as open, you want 
to encourage collaboration, but what we are dealing with in 
China is something completely different I think than anything 
the world has ever faced before.
    I am a student of history and I always remember the--I 
discovered the crusades during college, and was dumbfounded to 
discover that Constantinople, the wealthiest city on earth in 
the 13th Century was looted and sacked by Christian crusaders 
who were diverted from the Holy Land essentially by loot. I 
mean they destroyed this magnificent beautiful city.
    The scale of theft that China has engaged in exceeds 
anything we have ever seen in history, it exceeds the looting 
of Constantinople, the sack of Rome, it is unbelievable. It is 
essentially worldwide, it is--envision army ants moving through 
a forest, the FBI will tell you, and this is out there as well, 
that there are only two types of companies left in America, 
those who know they have been hacked by the Chinese and those 
that don't know they have been hacked by the Chinese. It is 
essentially everybody. The only thing they don't have I think, 
Mr. Chairman, are the Colonel Sanders recipe and the FBI--
excuse me--the Coca-Cola recipe, because they are not on a 
computer.
    So please be aware of it. It is extraordinarily important. 
And this was an open source, I gave this article to the 
chairman, Dr. Suresh, it was in Aviation Week that the reason 
the F-35 program has been so delayed and has become so 
expensive is because this is collaborative, it is networked out 
over many subcontractors, the F-35 is spread over companies 
almost all over the world that as fast as we develop a new top 
secret piece of stealth technology and have a meeting over the 
Internet and they log on, okay, tomorrow at noon we are going 
to have this meeting, here is the latest piece of technology, I 
think Mr. Chairman, remember that article points out the 
Chinese have logged on, they are watching the meeting. Hackers 
are logged on, they know about the meeting, and they are seeing 
everything as fast as we put it up. You are aware I know the 
scale of the problem.
    Glad you are going to get out and have the cyber warfare 
briefing, and I don't want to delay you much longer, I also 
want to visit with you after the hearing about getting you out 
to visit Thomas Jefferson. Dr. Holdren is going to come out. 
They have a science fair in fact in the beginning of May, I 
think all those kids are going to put out their science 
projects, and I think he is coming, Mr. Chairman, we are going 
to try to get you out with Dr. Holdren the first week of May 
for Thomas Jefferson when they do their star science fair. It 
is early in May.
    Mr. Wolf. We are not in session then.
    Mr. Culberson. I think so. And if you are here and Dr. 
Holdren is here and you are available to come out and see 
firsthand what these kids have produced, it is just 
extraordinary.
    Mr. Wolf. Excuse me, have you ever been to Thomas 
Jefferson?
    Dr. Suresh. I have been there, yes. Yeah.
    Mr. Culberson. That is a good time to go and to go with Dr. 
Holdren and the chairman, because it is an extraordinary 
example of what works, and a lot of this is not rocket science, 
it is just straightforward, it is love, TLC, making sure you 
are attracting the best and the brightest and then encouraging 
them.

                       NEXT GENERATION COMPUTERS

    Let me ask you about the supercomputers. Oh, it is on here 
because I didn't have a print copy of the article. Oh, that is 
what you were telling me is the exascale computers.
    To what extent is the NSF involved in helping drive the 
development of the next generation of supercomputers? The 
article I see here in the January 27th edition of Science 
indicates that apparently the Department of Energy is deeply 
involved. Is NSF involved in that effort or is it primarily 
DOE?
    Dr. Suresh. So DOE probably has a greater role in the 
computing speed and the sophistication of computers, but NSF 
historically has played a significant leadership role.
    Most recently in creating the National Center for 
Supercomputer Applications at the University of Illinois, for 
example, we have supported that for a long period of time. Just 
last fall we funded--we have been funding for the last several 
years--a project called Blue Waters for a new computer, and the 
University of Illinois this year will install a Cray computer 
that is quite fast. I don't remember the exact speed after that 
computer. So that is an example on an activity and there are 
other programs.
    There is a new program at University of Texas in Austin----
    Mr. Culberson. Uh-huh.
    Dr. Suresh [continuing]. Where we are funding high 
performance computing in a significant level. I forget the 
acronym for this program, but it is another activity that is an 
example of this.
    Mr. Culberson. But it is primarily the Department of 
Energy. What can we do? I know the chairman is keenly 
interested in this as I am and the other members of the 
subcommittee to make sure that it is the United States that 
builds the next generation, and I think this article points out 
it is exascale is the next step beyond petaflops, and it is 
distressing to me to see in this article it points out that 
the--Japan and China have built and operate the three most 
powerful supercomputers in the world. Today China has two 
machines that operate at--I think theirs are about 11.3 
petaflops, and China has five that operate at 4.7, and the U.S. 
has six.
    What can we do on the subcommittee to help you, sir, ensure 
that the United States is building the next generation 
supercomputer?
    Dr. Suresh. We are, for example, DOE funds this activity in 
Oak Ridge in Tennessee and we have significant support as well.
    So activities like this, especially partnerships with 
agencies like DOE and DARPA, would be very useful for us. You 
know, one of the things--NSF is very good at funding basic 
research that leads to----
    Mr. Culberson. Uh-huh.
    Dr. Suresh [continuing]. Computing hardware and software 
research, and given especially the current budget environment, 
if we can work with other agencies where we support what feeds 
into the creation of a supercomputer and also the science that 
goes to maintain the capabilities----
    Mr. Culberson. Uh-huh.
    Dr. Suresh [continuing]. This is what we rolled out in our 
vision document what we called Advanced Computing 
Infrastructure.

                           GRANT LIMITATIONS

    Mr. Culberson. Let me also ask and we won't detain you much 
longer, we can again follow up with written questions and visit 
with you again after the hearing, but I think I saw an article 
that said it is NIH that limits the percentage of a grant that 
is awarded to a researcher so that no more than 20 percent of 
the grant can be for salary or is that you all? Is that NSF?
    Dr. Suresh. Well, I think NIH has recently----
    Mr. Culberson. Or excuse me, NIH, yeah.
    Dr. Suresh [continuing]. Has recently put in some new rules 
as well because of the current economic climate.
    One of the things that they have talked about is also if a 
person has a certain amount of funding already from NIH then 
they will try to look at that factor in the evaluation of 
proposals.
    Mr. Culberson. Yeah, I just saw that article. There are 
apparently seven researchers at seven institutions that have 
more than seven huge grants over $1 million, but do you all 
limit it in any way what percentage of the grant can go to 
salary or----
    Dr. Suresh. I forget----
    Mr. Culberson. You do? Is it 20 percent? Does that sound 
right?
    Dr. Suresh. University professors usually charge summer 
salaries----
    Mr. Culberson. Uh-huh.
    Dr. Suresh [continuing]. Which is, you know, less than 25 
percent. So it is about 20 or less.
    The NIH is unique in that because they have hospitals and 
there are a lot of medical doctors----
    Mr. Culberson. Right.
    Dr. Suresh [continuing]. Who charge, you know, who have 
appointments as faculty members in affiliated universities so 
we don't have--so our situation is different than that.
    Mr. Culberson. Okay, right, because you are university 
professors and they are drawing a salary from the university 
and----
    Dr. Suresh. That's right. In most universities the nine-
month salary is paid for by the university.
    Mr. Culberson. Uh-huh.
    Dr. Suresh. So it is only the summer salary that is in 
question.
    Mr. Culberson. I see.
    Dr. Suresh. In a few universities they bring in----
    Mr. Culberson. Two months.
    Dr. Suresh [continuing]. Two months of summer salary, yes.

        PROTECTING NSF FUNDING IN A DIFFICULT FISCAL ENVIRONMENT

    Mr. Culberson. I see. Okay. And this will likely be a 
particularly brutal budget environment this year for the entire 
country, and you know how devoted the chairman is, Mr. Fattah, 
the whole subcommittee to NSF and science funding.
    What would you leave us with as--I know the chairman may 
with other questions--but certainly the one I would like to 
leave you with is an open-ended question, Dr. Suresh, so tell 
us how would you advise us to firewall in the event that heaven 
forbid, you know, things really get ugly, what do you want us 
to be sure we protect at NSF in that environment?
    Dr. Suresh. So first of all let me say, you know, I want to 
thank Chairman Wolf, Mr. Fattah, and members of this 
subcommittee I thank for the enormous support you have shown to 
NSF and you continue to show to NSF in a bipartisan or 
nonpartisan way. I think it is really heartening especially in 
this financial climate.
    The one point I want to make, I have been thinking about 
how to communicate the importance of NSF to the country and the 
future of the country----
    Mr. Culberson. There you go.
    Dr. Suresh [continuing]. And different people have come up 
with different ways.
    The only way I can communicate, and maybe let me try this 
on you, Mr. Culberson, it goes back to a story from England.
    You may know that Mr. Michael Faraday was the scientist who 
first produced electricity in his lab.
    Mr. Culberson. Yes.
    Dr. Suresh. And when he produced electricity with British 
taxpayer money to support the research, he met with the then 
chancellor of the Exchequer of England, the treasury secretary 
of England, William Gladstone. So Mr. Gladstone asked Mr. 
Faraday, ``why should the British taxpayer fund your research, 
what is the value of your research?'' To which Mr. Faraday 
responded, ``sir, one day you will tax it.''
    So my response about the point I want to leave you with is 
NSF has a request of $7.4 billion of taxpayer money for fiscal 
year 2013, but if I were to calculate the return to the U.S. 
Treasury of the taxpayer investments in NSF I would argue that 
it is many, many, many times over $7.4 billion, and that is the 
reason to continue to support NSF, even in this tough budget 
climate.
    Mr. Culberson. Thank you, sir, we will do our best to help 
communicate that to our colleagues and to the country in this 
difficult time, that there is no better investment in the 
future of the Nation than in pure scientific research 
unencumbered by politics.
    Thank you, sir.
    Mr. Wolf. Thank you, Mr. Culberson.

                           GRANTS MANAGEMENT

    Since fiscal year 2009 the number of grant awards made by 
NSF has increased significantly while your budget for grants 
management has remained relatively constant.
    Your fiscal year 2013 request continues this pattern by 
proposing significant increases in your research accounts while 
extracting administrative savings from your management budget.
    Is that pattern sustainable, and do you rate your grants 
successful, failure, mixed?
    Dr. Suresh. So it is a great question, in fact this is a 
question we struggle with on a daily basis. In fact my 
predecessors, previous directors of NSF, and as well as myself, 
you know, we have constantly talked about how overworked NSF 
staff are, and the proposal pressure is very high.
    In 2009 it was compounded by the fact that we had the 
stimulus funding, a big infusion of new funding. I mean of 
course it is a good problem to have, but nevertheless with an 
increase in workload the existing NSF staff had to handle a 
significant amount of additional work, in fact 50 percent more 
budget in a short period of time.
    Mr. Culberson. We should have such problems.
    Dr. Suresh. I wish we would continue to have this problem, 
but it is an important issue. So we are trying to address that.
    You know, we are trying to walk a very fine line between 
providing opportunities for young researchers, and we don't 
want to have the success rate for grants go down, at the same 
time we don't want to burn out our staff either.
    So one of the things we are trying to do is, with all the 
requests that come to us on reducing the budget and operating 
expenses, we thought we will not let it go down, we will not 
reduce the number of NSF staff, and you know, we will continue 
to support that because we need that very critically. At the 
same time we will look for new models and new modes of 
increasing efficiency to the extent we can.
    For example, we will have a new financial management system 
called iTrack that will become fully operational by 2014, and 
we are well on our way to implementing it.
    Last year 1 percent of all the panel reviews that were done 
by NSF were virtual panels, our goal to 2013 will be 5 percent. 
We will increase it five fold in one year. Again, we need to do 
that slowly because we want to maintain confidentiality of the 
review process and things like this. So we are taking a variety 
of steps.
    I formed a merit review, working group internally to come 
up with new ideas and new mechanisms of looking at how we can 
do proposal review more efficiently than what we have done 
without necessarily an increase in budget.
    So these are all efforts that we are trying to do to 
address the point that you made, Mr. Chairman.
    Mr. Wolf. Okay. We will have this other question for the 
record, but are the grants getting as much scrutiny today as 
they have in the past?
    Dr. Suresh. Yes, they do. So we don't compromise on quality 
at all. In fact if anything, you know, our scientific 
excellence of the proposal is an absolute requirement.
    Mr. Wolf. Now, do you think, and this is a difficult one to 
trade off, you cannot have a 100 percent success record insofar 
as I asked you, how do you rate grants, success or failure? 
Because a big initiative may fail and so how do you balance 
having been safe versus having the great vision but protecting 
the taxpayer's money? Am I making myself clear? Maybe I am not.
    Dr. Suresh. Absolutely. So in other words if you are too 
cautious----
    Mr. Wolf. Right.
    Dr. Suresh [continuing]. We are not going to be risk taking 
and we may not have good innovation.
    So we have two programs that are relatively new. One 
started in--actually both started in fiscal year 2012. One is a 
program called INSPIRE, which in the fiscal year 2013 budget 
has a $63 million request, and what it does is truly 
transformative interdisciplinary ideas that could be high risk, 
but high reward.
    Mr. Wolf. Right.
    Dr. Suresh. So some of them will fail and we want to 
encourage failure because if it is going to be very 
successful-- so that is one example of it.
    Another example is something called Innovation Corps. 
Innovation Corps is in a small budget, $18 million budget in 
fiscal year 2013. And in Innovation Corps, for example, after 
NSF funding is over we give a small amount of money for six 
months or so and see whether they have a chance of success. 
Maybe it will become an SBIR, maybe it will lead to a product. 
Typically for those kinds of activities if you have a 
successful rate of 30 to 40 percent it is widely successful 
because most of the ventures usually fail.
    Mr. Wolf. Right.
    Dr. Suresh. And in fact in the venture capital community 
the success rate is less than 5 percent. So if you have a 20 
percent success rate that is enormously successful.
    So those are examples of activities where we are trying, 
looking at the trade off in exactly what you said.
    Mr. Wolf. Okay. So people don't come in and say, you know, 
we better be careful because our record is not that great so we 
want to go for some safe ones. I think you have to balance it 
out and that can be difficult.
    Many traditional grant management activities like site 
visits are labor and cost intensive and therefore might not be 
possible in a constrained fiscal environment. How are you 
changing your approach to grants management and processes for 
grantee oversight to enable you to do more with less?
    Dr. Suresh. Again, this is----
    Mr. Wolf. Telework? Are you using----
    Dr. Suresh. So Telework is one area. We also look at the 
financial software, moving to a new system to make it more 
efficient so we can monitor----
    Mr. Wolf. Do you do teleconferencing rather than having 
them come in----
    Dr. Suresh. So this is a 5 percent what I call virtual 
panel. So instead of people flying in from all over the country 
it also saves us money. A typical panel review costs NSF about 
$55,000.
    Mr. Wolf. Right.
    Dr. Suresh. So by doing a lot more of them we actually save 
money.
    It has other benefits as well. We talked about women in the 
scientific workforce. If a young woman, faculty member has a 
child and doesn't want to travel, cannot travel, they don't 
have to travel, they can participate through these virtual 
panels. So this is----
    Mr. Wolf. Have you compared the success of the grants made 
by the virtual panel versus those where there has been an on 
site?
    Dr. Suresh. So we actually are doing a research project on 
this. Last year we had some pilot projects. We have real 
panels, we have face-to-face panels versus virtual panels, and 
trying to see what works, what doesn't work.
    The other thing is confidentiality of the review process. 
If it is a virtual panel we have to be very careful so we don't 
send out sensitive information because it is virtual.
    Mr. Wolf. Right.
    Dr. Suresh. So these are things that we are focusing on 
now.

                       MANAGING CONTINGENCY COSTS

    Mr. Wolf. Okay. We will put this to the record, too. Your 
Inspector General's office has identified tens of millions of 
dollars of unallowable contingency costs budgeted in each of 
three construction projects reviewed over the past few years. 
The persistence of the problem suggests either NSF is not doing 
enough to adequately address the concerns raised by the IG or 
you fundamentally disagree with her findings regarding what 
should be allowable. Why aren't these construction contingency 
issues being more expeditiously addressed?
    Dr. Suresh. Okay, I am happy to answer that, in fact you 
know, NSF----
    Mr. Wolf. We had her up the last time.
    Dr. Suresh. Sure.
    Mr. Wolf. We did not have her up----
    Dr. Suresh. So we have ongoing conversations on this. In 
fact we have--you know, NSF has a no cost overrun policy that 
was instituted a few years ago, so we don't allow cost 
overruns.
    Some of the projects that came into existence have, because 
of the uniqueness of the infrastructure that needed to be 
built, had contingency provisions built in consistent with 
standard practices in other federal agencies and industry 
practices. Now we have multiple----
    Mr. Wolf. Now how did that compare with DARPA? What did 
they do? What is their----
    Dr. Suresh. I don't know specifically about DARPA, but we 
have talked to other federal agencies on what contingencies 
they have, and what NSF has allowed, especially with a no cost 
overrun policy, is not out of sync with some of what the other 
federal agencies do, and I can get you more information 
specifically on DARPA.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Dr. Suresh. The third thing that we have with respect to 
contingencies is we have different milestones. So anything over 
$16 million has to be approved by the National Science Board. 
So we have the horizon phase, we have the preliminary design 
phase, we have the final design phase, and each of these are 
milestones where the National Science Board has to approve the 
project.
    So it is true that there was some difference of opinion 
between the leadership of our budget and financial office and 
the GAO and the Inspector General's office, so they have been 
in frequent conversations over the last many months. We are 
hoping that this will be resolved, because NSF does some things 
uniquely with respect to building new infrastructure for 
science, and definitely we, you know, we want to be really 
careful about taxpayer funds. And with the no cost overrun 
policy we ensure that with periodic milestones. We just want to 
make sure that the perspectives are synchronized between what 
the inspector general is looking for and what----
    Mr. Wolf. What happens if the project is moving toward a 
cost overrun, what do you do? You just----
    Dr. Suresh. So we can reduce the scope of the project.
    Mr. Wolf. Right.
    Dr. Suresh. And so this is why the cost overrun policy was 
put in place.
    Mr. Wolf. What year was that put in place?
    Dr. Suresh. I think four or five years ago.

             DOCUMENTING THE IMPACTS OF NSF-FUNDED RESEARCH

    Mr. Wolf. Okay. We covered this indirectly, but last year a 
number of NSF-funded research projects were publicly 
highlighted as being wasteful or frivolous. They highlighted a 
broader issue, the difficulty you have in demonstrating to the 
public the impact of scientific research.
    What efforts does NSF have under way to more systematically 
document and describe the effects of research on the economy or 
the attainment of goals such as improved health? Ways that 
people can see.
    Dr. Suresh. So we looked at many of these projects very, 
very carefully and I just want to preface that by saying last 
year we received 55,000 proposals and we funded 13,000 of them.
    Mr. Wolf. Okay.
    Dr. Suresh. And it is done with a very vigorous progress. 
Twenty percent success rate with a very vigorous merit review 
process and we don't want to deviate from that process.
    We looked carefully at--you know, one of the dangers that 
we--again, we have to walk a very fine line--we want to talk 
about the projects in a way that the non-scientific public can 
understand it, but at the same time when you do that sometimes 
you run the risk of making two different projects appear very 
similar. Or when the impact of the project is too diluted and 
made too non-scientific, the novelty and sophistication of the 
project is sometimes lost. So we are looking at it very, very 
carefully and making sure that the public perception of what 
NSF does is correctly reflected in the quality that we try to 
foster. And you know very well, it is not an easy job, but we 
are trying to improve that in every way that we can.

                     NSF USE OF RECOVERY ACT FUNDS

    Mr. Wolf. The use of Recovery Act funds. NSF has one of the 
lowest outlay rates for stimulus funds of any agency in 
government. In fact as of last month the NSF still had over $1 
billion of unspent stimulus money.
    Recognizing that situations like that are not in keeping 
with the concept of economic stimulus, OMB recently issued a 
memo directing agencies to speed up their use of remaining 
stimulus funds with a goal of expending all the funds by the 
end of fiscal year 2013. Now we want to be careful that we 
don't have Solyndras, so I am sensitive to that, and maybe the 
OMB is not right here.
    But what steps are you taking to attempt to speed up the 
outlay rate of your stimulus funds and how much can you 
reasonably do to improve your expenditure rate when most of 
these funds went to universities as part of a multi-year 
research project?
    Dr. Suresh. So I can get you the exact numbers as of now, 
but my understanding is that the stimulus funding given to NSF 
has already been committed.
    So NSF----
    Mr. Wolf. It has already been committed.
    Dr. Suresh. But I can get you the exact number for the 
record.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Dr. Suresh. So NSF works differently in the sense that, you 
know, we make a three-year commitment, and sometimes the 
expenses are not reflected in the balance sheet because you 
make an advance commitment. These are grants given to 
universities.
    Mr. Wolf. Right.
    Dr. Suresh. And so sometimes there is a difference of 
perception on what is already spent and what is not spent, so 
most of the time it doesn't mean we have not committed the 
funds already.
    Mr. Wolf. Okay. They say it is been 100 percent obligated, 
but----
    Dr. Suresh. Obligated, right.
    Mr. Wolf [continuing]. How much lower.
    Dr. Suresh. I am still learning the Washington----
    Mr. Wolf. Yeah, me too. The NSF----
    Dr. Suresh. I am still learning the Washington language, so 
sorry.

                           NSF'S HEADQUARTERS

    Mr. Wolf. The NSF headquarters. The lease for your current 
headquarters expires in 2013 and GSA is working to ensure that 
you have a seamless transition to a new lease. The prospectus 
that will allow GSA to make formal agreements for you, however, 
is still pending before the Congress.
    What are the ramifications of not getting your prospectus 
approved in a timely manner, and what is the latest that you 
could receive prospectus approval without negatively impacting 
your cost and location plans? Does the committee up there 
involved with that know what you are going to tell us?
    Dr. Suresh. So, you know, having been a renter before it is 
never a good time for a lease to come up when you are leasing 
or renting from somebody.
    NSF's lease expires at the end of 2013. In December of 
2010, GSA submitted a prospectus to Congress, which has not 
been acted on yet, so our expectation is that this year GSA 
will go through this process and provide us the next steps and 
guidance, and it is procurement sensitive, and I will be happy 
to provide you the latest information.
    [The information follows:]

    The prospectus for NSF's replacement headquarters lease was 
approved by the U.S. House Transportation and Infrastructure Committee 
on Thursday, March 8, 2012. Committee staff communicated their 
appreciation of NSF's ability to work with them to reflect a savings in 
our space request. Our understanding is that this resolution permits 
GSA to take several immediate actions.
    First, the General Services Administration (GSA) can now work with 
NSF's current landlord on an interim lease agreement until a new lease 
is awarded. That will ensure continuity for NSF's employees. Second, 
since the House resolution preserves the plan for NSF to remain in 
Northern Virginia, we hope this will encourage the Senate to follow 
suit without further hesitation. Lastly, GSA will now move aggressively 
forward on the procurement to have a new lease for NSF in place by 
summer 2012. GSA must have Senate approval of the prospectus in order 
to sign the new lease.
    The U.S. House Transportation and Infrastructure Committee and the 
U.S. Senate Committee on Environment and Public Works were made aware 
by GSA of the potential cost that a holdover lease situation would have 
on NSF's budget. GSA has also worked closely with NSF to identify ways 
in which their procurement approach will consider our budget 
constraints in a new lease action. We look forward to reporting back to 
the Committee on a positive and cost effective outcome to this issue.

    Mr. Wolf. And are they making it clear though to the 
committee up here the importance and that if things are not 
done within a reasonable time that it could cost the government 
more?
    Dr. Suresh. Absolutely. We are very sensitive to the 
financial aspects, and in fact GSA, who is running this, are 
very much aware of the timelines and deadlines related to this.
    Mr. Wolf. Okay. Well, that gets to the next question, but 
our concern with this situation has been to ensure that your 
employees are not needlessly uprooted from their homes and the 
NSF will not end up needing exorbitant amounts of funding to 
execute a new lease agreement.
    Are you confident that these concerns will be resolved in a 
satisfactory manner?
    Dr. Suresh. I very much hope so, because this has been also 
part of the, you know, thinking behind what GSA has been 
working on. So they are very much aware of these issues and so 
we will wait to hear from them as soon as they are able to get 
back to us.
    Mr. Wolf. Well, it is important.
    You don't remember, but Senator Robb initially worked out 
the agreement for NSF to come to Arlington. Arlington used to 
be in my congressional district. I supported what Senator Robb 
did then, but there was great effort to stop it. NSF wanted it 
to be downtown on Constitution Avenue, I guess it was, or 
Independence Avenue, but everyone wanted to be within a couple 
of blocks of the White House.
    Now they are happy and a lot of your people have relocated, 
so now to force them to relocate again and the impact on 
families and children attending schools and traffic patterns, 
I, you know, hope it can be resolved. I think the sooner you 
are able to come up and explain to the committee that this is 
the way to save money, not really to spend money, the better 
off it will be.
    The others we will just submit for the record. This chair 
just dropped down about three inches. I think Mike Ringler sets 
it so when the hearing should end, the chair goes down. I think 
he is trying to tell me it is time to end and so we will just 
end on that.
    We have a number of other questions for the record.
    I appreciate the good work you all do. I hope there is no 
more problem with the internet of employees watching things 
they should not watch. I want to make sure that is not--and I 
would think if you ever see that again, that person should be 
fired.
    Mr. Culberson. Zero tolerance.
    Mr. Wolf. Because that hurt in a way, so just zero 
tolerence. I mean, don't even think about it, because that 
draws it out and gives people an excuse, and I think it was 
wrong.
    But I do want to thank you and your people for the good 
that they do. I think it is important to keep these things as 
totally non-partisan as we can, and I think that Mr. Fattah and 
Mr. Culberson and the committee are committed to doing 
everything we can. We look forward to the hearing on the 28th 
with Niall Ferguson. You might go to the last--you might not 
finish--but make sure you go to the last chapter of the book 
and the last couple sentences, and it sort of gives you, you 
know, the concerns.
    So hopefully you guys will be visionary as to what we can 
or what we should do to bring back jobs here in America so that 
Mr. Culberson's iPad can be made in the United States. Did you 
see the second New York Times piece? I guess you did about the 
Foxconn factory suicide rate in China. There are social issues 
here too. I mean we don't believe in slave labor in this 
country and I know sometimes I raise an issue about China and 
somebody may not understand.
    Two weeks ago I was in southern Sudan where the Chinese are 
supplying the weapons, rockets to kill people, and they are the 
number one supporter of the genocidal government in Khartoum. 
So you really can't separate these things out.
    The 2010 Nobel Prize winner is in jail, so there are moral 
ramifications as well as scientific ramifications, and there 
are some interesting books out. One is about the many western 
companies that cooperated with the Nazis. We can give you the 
title where they cooperated. I won't mention the companies, but 
some of them are very, very prominent. Great guilt after the 
war to think of an American company and a western company 
cooperating with the Nazis.
    There is a program the Chinese fund called the Confucius 
Institute. Are you aware of that? When universities participate 
in that, you really can't have anything to do with the Falun 
Gong, you can't have anything to do with the Dalai Lama in 
Tibet.
    And so when you look and interview the women from the Nuba 
mountains who are saying they are being killed by Chinese-made 
rockets and you see what they are doing in conditions like 
that, I think it is important that we are very, very careful 
that we are not participating in that. Because when the Chinese 
government changes, which I believe it will very, very soon, 
and they write the history, it shouldn't be the American 
government or an American business that participated in such a 
way that enabled them to do some of these really bad things.
    So if you can also let the committee know, and I appreciate 
Mr. Culberson raising it, when you do go out to that place, and 
I would be interested in your comments.
    But again, thank you for your service and please thank all 
your employees.
    Dr. Suresh. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, sir.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                           W I T N E S S E S

                              ----------                              
                                                                   Page
Bolden, C. F. Jr.................................................    75
Holdren, J. P....................................................     1
Suresh, Subra....................................................   171


                               I N D E X

                              ----------                              

                Office of Science and Technology Policy
                     Dr. John P. Holdren, Director

Advanced manufacturing:
                                                                   Page
    Administration initiatives...................................    23
    new approaches to............................................ 37-38
Advanced semiconductor production................................ 33-34
China, cooperation with.......................................... 39-42
Commercial crew, private sector involvement in................... 36-37
Cooperation between NSF and the Department of Education.......... 34-35
Federally funded research, public access to...................... 42-43
International Space Station, ensuring access to.................. 20-23
Joint Polar Satellite System..................................... 45-46
Manufacturing jobs, increasing opportunities for................. 43-45
Mars exploration funding......................................... 26-31
Nanotechnology health and safety issues.......................... 35-36
National Aeronautics and Space Administration:
    funding levels...............................................    33
    planetary science proposals.................................. 18-20
National Science Foundation funding initiatives, competition in..    31
Neuroscience.....................................................    23
Opening statement:
    Dr. Holdren..................................................  3-17
    Mr. Fattah...................................................   2-3
    Mr. Wolf.....................................................   1-2
OSTP's role in science budget development........................ 24-26
Questions for the record:
    Mr. Aderholt................................................. 67-73
    Mr. Wolf..................................................... 52-67
Space Launch System Development.................................. 31-33
STEM education research, dissemination of........................ 46-49
Supercomputing................................................... 49-52
Technology transfer and job creation............................. 38-39

             National Aeronautics and Space Administration
      Maj. Gen. Charles F. Bolden, Jr., USMC (ret.), Administrator

Aeronautics:
    budget proposals............................................132-135
    program.....................................................102-103
America's leadership in space exploration.......................118-120
Astrophysics program............................................101-102
China's space activities........................................135-138
Commercial cargo program........................................111-112
Commercial crew program................................100-101, 125-131
Computer security.............................................. 138-139
Destination-based goals....................................... 146, 147
Education budget.............................................. 131, 132
James Webb Space Telescope:
    lessons learned........................................... 145, 146
    program..................................................... 98, 99
Joint Confidence Levels..........................................   100
Mars program and the flagship mission future................... 113-118
National Aeronautics and Space Administration
    budget challenges......................................... 103, 104
    workforce................................................. 144, 145
Opening statement:
    Administrator Bolden......................................... 76-96
    Mr. Fattah.................................................. 75, 76
    Mr. Wolf.....................................................    75
Planetary science program.................................. 97, 122-125
Plutonium production.............................................   121
Questions for the record:
    Mr. Culberson.............................................. 163-165
    Mr. Graves................................................. 165-169
    Mr. Wolf................................................... 151-163
Russia, negotiating with for space station transportation..... 140, 141
Space commercialization....................................... 120, 121
Space health research.......................................... 147-150
Space Launch System funding................................... 110, 111
Space shuttle:
    orbiter disposition........................................ 108-110
    transition and retirement....................................   140
Space Station, research and.................................... 141-143
Unmanned aerial systems........................................ 104-107
Wallops flight facility..........................................   144

                      National Science Foundation
                       Dr. Subra Suresh, Director

Advanced manufacturing:
    cyber-enabled manufacturing............................... 215, 216
    efforts of other countries................................ 212, 213
    federal programs........................................... 210-212
Computers, next generation.................................... 219, 220
Cyber warfare.................................................. 217-219
Cybersecurity.................................................. 203-207
Energy...........................................................   215
Grants:
    contingency costs, managing................................ 224-227
    limitations..................................................   220
    management................................................. 221-224
    Magellan telescope......................................... 199-201
Neuroscience.................................................. 214, 215
National Science Foundation:
    documenting the impacts of NSF-funded research...............   227
    expeditions in education effort........................... 208, 209
    headquarters.............................................. 231, 232
    protecting funding for in a difficult fiscal environment.....   221
    use of Recovery Act funds.................................. 228-231
Opening statement:
    Mr. Fattah...................................................   172
    Dr. Suresh................................................. 172-183
    Mr. Wolf.....................................................   171
Particle physics.................................................   201
Public-private partnerships................................... 196, 197
Quark-gluon plasma............................................. 201-203
Questions for the record:
    Mr. Serrano................................................ 246-250
    Mr. Wolf................................................... 234-246
Science and engineering, U.S. funding for relative to major 
  competitors.................................................. 186-189
Science and engineering talent, keeping in the U.S...............   186
Science, technology, engineering, and mathematics education:
    attracting and retaining students in STEM fields........... 193-195
    attracting U.S. students to science and engineering degrees 189-190
    Department of Education, joint initiatives with..............   209
    federal STEM programs, duplication of..................... 207, 208
    NSF efforts in STEM activities, publicizing................ 209-210
    women entering the STEM workforce......................... 191, 192
    young STEM faculty, support for..............................   196
Scientific infrastructure........................................   203
Student achievement, role of parental support in............... 197-199
U.S. science enterprise, state of.............................. 184-186
Workplaces, family friendly................................... 192, 193

                                  <all>

</pre></body></html>
